<html>
<title> - FIXING NO CHILD LEFT BEHIND: SUPPORTING TEACHERS AND SCHOOL LEADERS</title>
<body><pre>[Senate Hearing 114-001]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-001

  FIXING NO CHILD LEFT BEHIND: SUPPORTING TEACHERS AND SCHOOL LEADERS

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

EXAMINING FIXING NO CHILD LEFT BEHIND, FOCUSING ON SUPPORTING TEACHERS 
                           AND SCHOOL LEADERS

                               __________

                            JANUARY 27, 2015

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                            
                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-078 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001     
      
      
      
      
      
      
      
      
      
      
      
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman

MICHAEL B. ENZI, Wyoming             PATTY MURRAY, Washington
RICHARD BURR, North Carolina         BARBARA A. MIKULSKI, Maryland
JOHNNY ISAKSON, Georgia              BERNARD SANDERS (I), Vermont
RAND PAUL, Kentucky                  ROBERT P. CASEY, JR., Pennsylvania
SUSAN COLLINS, Maine                 AL FRANKEN, Minnesota
LISA MURKOWSKI, Alaska               MICHAEL F. BENNET, Colorado  
MARK KIRK, Illinois                  SHELDON WHITEHOUSE, Rhode Island  
TIM SCOTT, South Carolina            TAMMY BALDWIN, Wisconsin      
ORRIN G. HATCH, Utah                 CHRISTOPHER S. MURPHY, Connecticut         
PAT ROBERTS, Kansas                  ELIZABETH WARREN, Massachusetts        
BILL CASSIDY, M.D., Louisiana                  


               David P. Cleary, Republican Staff Director
                  Evan Schatz, Minority Staff Director
              John Righter, Minority Deputy Staff Director

                                  (ii)





















                            C O N T E N T S

                               __________

                               STATEMENTS

                       TUESDAY, JANUARY 27, 2015

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington..     4
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     6
Cassidy, Hon. Bill, a U.S. Senator from the State of Louisiana...    39
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    41
Burr, Hon. Richard, a U.S. Senator from the State of North 
  Carolina.......................................................    43
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    45
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...    47
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    49
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    51
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    53
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    55

                               Witnesses

Goldhaber, Dan, B.A., M.S., Ph.D., Director, National Center for 
  Analysis of Longitudinal Data in Education Research at the 
  American Institutes for Research; Director, Center for 
  Education Data and Research at the University of Washington, 
  Bothell, WA....................................................     7
    Prepared statement...........................................     9
Holliday, Terry, B.E., M.Ed., Ed.S., Ph.D., Commissioner of 
  Education, Commonwealth of Kentucky, Frankfort, KY.............    16
    Prepared statement...........................................    18
Hinojosa, Saul, Superintendent of Schools, Somerset Independent 
  School District, Somerset, TX..................................    20
    Prepared statement...........................................    21
Rachelle Moore, 1st Grade Teacher, Madrona K-8 School, Seattle, 
  WA.............................................................    27
    Prepared statement...........................................    29
Handy-Collins, Christine, Principal, Gaithersburg High School, 
  Gaithersburg, MD...............................................    31
    Prepared statement...........................................    32

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Response by Dan Goldhaber to questions of:
        Senator Collins..........................................    58
        Senator Murkowski........................................    59
    Response by Terry Holliday to questions of:
        Senator Collins..........................................    61
        Senator Murkowski........................................    62
    Response by Saul Hinojosa to questions of:
        Senator Collins..........................................    62
        Senator Murkowski........................................    64
    Response by Rachelle Moore to questions of:
        Senator Collins..........................................    65
        Senator Murkowski........................................    67
    Response by Christine Handy-Collins to questions of:
        Senator Collins..........................................    68
        Senator Murkowski........................................    69

                                 (iii)
 
  FIXING NO CHILD LEFT BEHIND: SUPPORTING TEACHERS AND SCHOOL LEADERS

                              ----------                              


                       TUESDAY, JANUARY 27, 2015

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
SH-216, Hart Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Burr, Isakson, Collins, 
Cassidy, Murray, Mikulski, Casey, Franken, Bennet, Whitehouse, 
Baldwin, Murphy, and Warren.

                 Opening Statement of Senator Alexander

    The Chairman. The Senate Committee on Health, Education, 
Labor, and Pensions will please come to order. This morning, 
we're holding a hearing on Fixing No Child Left Behind: 
Supporting Teachers and School Leaders.
    Ranking Member Murray and I will each have an opening 
statement. Then we'll introduce our panel of witnesses. I'll 
ask that each of our witnesses limit their testimony to about 5 
minutes. We have your testimony. If you would summarize within 
5 minutes--about 5 minutes--what you have to say, then it'll 
give us more chance to interact with you. Then the Senators 
will have a chance to ask questions. We'll conclude the hearing 
at noon.
    Next week, I think we have a plan for a roundtable. One 
week from today on Tuesday, February 3d, at 10 o'clock, the 
committee will hold a roundtable on Fixing No Child Left 
Behind: Innovation to Better Meet the Needs of Students on how 
States and local communities are innovating to improve their 
own public schools. The reason we're doing that is because it 
will provide a little less formal opportunity for Senators to 
visit with experts and ask questions and have a conversation, 
and we'll see how that works.
    Today's hearing is all about better teaching, how we can 
create an environment in which teachers, principals, and other 
leaders can succeed. Governors around the country are focused 
on one issue: better jobs for the citizens in their States. And 
it doesn't take very long for a Governor, which I once was, to 
come to the conclusion that better schools mean better jobs and 
a better life.
    Since no one has figured out how to pass a better parents 
law, it doesn't take long to figure out how important a great 
teacher is. I certainly came to that conclusion very quickly in 
1984 when I was Governor of Tennessee and I considered the holy 
grail of K through 12 education to be finding a fair way to 
encourage and reward outstanding teaching.
    I spent a year and a half, 70 percent of my time, 
persuading the legislature to establish a career ladder, a 
Master Teacher Program that 10,000 Tennessee teachers 
voluntarily climbed. They were paid more, had the opportunity 
for 10 11-month contracts, and our State became the first in 
the Nation to pay teachers more for teaching well. Rarely a 
week goes by that some teacher doesn't stop me and say, ``Thank 
you for the Master Teacher Program.''
    But it wasn't easy. A year before, I had been in a meeting 
of southern Governors, and one of them said, ``Who's going to 
be brave enough to take on the teachers' union?'' I had a year 
and a half brawl with the National Education Association before 
I could pass our Master Teacher Program.
    Since then, there's been an explosion of efforts to answer 
the questions that we tried to answer. A great number of States 
and school districts are taking on the questions like: How do 
we determine what is an effective teacher? How do we relate 
student achievement to teacher performance? Having decided 
that, how do we reward and support outstanding teaching so we 
don't lose our best teachers?
    In 1987, the Board for Professional Teaching Standards 
began to strengthen standards in teaching. To date, more than 
110,000 teachers in all 50 States and the District have 
received a National Board Certification.
    In 2006, the Teacher Incentive Fund was created to help 
States and districts create performance-based compensation 
systems. According to the National Center on Teacher 
Evaluation, last year, 27 States were requiring annual 
evaluations for all teachers, 44 were requiring annual 
evaluations for new teachers, 35 required student achievement 
and/or student growth to be a significant or the most 
significant measure of teacher performance.
    When I came to Washington as a U.S. Senator in 2003, most 
people expected--since I thought rewarding outstanding teaching 
is the holy grail--that I would want to make everyone do it. To 
the surprise of some, my answer was, ``No, you can't do it from 
Washington, DC.''
    Nevertheless, over the last 10 years, Washington has tried. 
Here is how: No Child Left Behind told States that all teachers 
of core academic subjects needed to be highly qualified by 2006 
and prescribed that definition in a very bureaucratic manner. 
That simply hasn't worked, and I don't know many people who 
really want to keep that definition. Even Secretary Duncan 
waived the requirements related to highly qualified teachers 
when he granted waivers to 43 States, the District, and Puerto 
Rico.
    Unfortunately, the Secretary replaced those requirements 
with a new mandate requiring teacher evaluation systems first 
in Race to the Top, which gave nearly $4.4 billion to States, 
and, second, in the waivers. To get a waiver from No Child Left 
Behind, a State and local school district must develop a 
teacher and principal evaluation system with seven required 
elements, such as three performance levels, multiple measures 
including student growth, guidelines and supports for 
implementation, and each element must be approved by the U.S. 
Department of Education.
    The problem is that after 30 years, we're still figuring 
out how to do this. Our research work on measuring growth and 
student achievement and relating it fairly to teacher 
effectiveness may have begun in 1984.
    Even today, former Institute of Education Science Director 
Russ Whitehurst told the New York Times in 2012 that States 
are,

        ``racing ahead based on promises made to Washington or 
        local political imperatives that prioritize an 
        unwavering commitment to unproven approaches. There's a 
        lot we don't know about how to evaluate teachers 
        reliably and how to use that information to improve 
        instruction and learning.''

    The second problem is that some States just haven't been 
willing to implement the systems the way the U.S. Department of 
Education wants them to. California, Iowa, and Washington State 
are examples. They had their waiver requests denied or revoked 
over the issue of teacher evaluations.
    In Iowa's case, it was because the State legislature 
wouldn't pass a law that satisfied Washington's requirements. 
California simply ignored the administration's conditions when 
they applied for a waiver. Washington State's waiver, in April, 
was revoked by Secretary Duncan because their State legislature 
wouldn't pass legislation requiring standardized test results 
to be used in teacher and principal evaluation. Instead, 
Washington wanted to allow local school districts to decide 
which test to use.
    Now, whether or not this Federal interference with State 
education offends your sense of federalism, as it does mine, it 
has proved impractical. The Federal Government, in a well-
intentioned way, is trying to say, ``We want better teachers, 
and we're going to tell you exactly how to do it, and you must 
do it now.'' That has created an enormous backlash. It has made 
harder something that was already hard to do.
    Even in Tennessee, despite 30 years of experience and 
nearly $500 million in Race to the Top money, the 
implementation of a new teacher evaluation system has been 
described in an article in my hometown newspaper as, 
``contentious''.
    Given all the great progress that States and local school 
districts have made on standards, accountability, tests, and 
teacher evaluations over the last 30 years, you'll get a lot 
more progress with a lot less opposition if you leave those 
decisions there. I think we should return to States' and local 
school districts' decisions for measuring the progress of our 
schools and evaluating and measuring the effectiveness of 
teachers.
    In conclusion, I know it's tempting to try to improve 
teachers from Washington. I also hear from Governors and school 
superintendents who say,

          ``If Washington doesn't make us do it, the teachers' 
        unions and the opponents from the right will make it 
        impossible to have good evaluation systems and better 
        teachers.''

    I understand what they're talking about.
    After I left office as Governor, the NEA watered down the 
Tennessee Master Teacher Program. Nevertheless, the chairman's 
staff discussion draft that we have circulated eliminates the 
highly qualified teacher requirements and definition and allows 
States to decide the licenses and credentials that they're 
going to require that their teachers have.
    Despite my own support for teacher evaluation, the draft 
doesn't mandate teacher and principal evaluations. Rather, it 
enables States to use the more than $2.5 billion under title II 
to develop, implement, or improve these evaluation systems. In 
Tennessee, that would mean about $39 million, in Washington 
State about $35 million, potentially available for continuing 
the work that's underway for evaluating teachers linking 
performance and student achievement.
    In addition, it would expand one of the provisions in No 
Child Left Behind, the teacher incentive fund that Secretary 
Spellings recommended and that Secretary Duncan said in 
testimony before our committee was one of the best things that 
Secretary Spellings has done. And, third, it would emphasize 
the idea of a Secretary's report card, calling considerable 
attention to the bully pulpit. A secretary or president has to 
call attention to States that are succeeding or failing.
    For example, I remember when President Reagan visited 
Farragut High School in Knoxville in 1984 to call attention to 
our Master Teacher Program. It caused the Democratic speaker of 
the House of Representatives to say, ``This is the American 
way'' and come up with an amendment to the proposal I had made 
that was critical to its passage into law. President Reagan 
didn't order every other State to do what Tennessee was doing. 
But the president's bully pulpit made a real difference.
    The columnist Thomas Friedman told a group of senators 
recently that one of his two rules of life is that he's never 
met anyone who has washed a rented car. In other words, people 
take care of what they own. My experience is that finding a way 
to fairly reward better teaching is the holy grail of K through 
12 education. Washington will get the best long-term result by 
creating an environment in which States and communities are 
encouraged, not ordered, to evaluate teachers. Let's not 
mandate it from Washington if we want them to own it and to 
make it work.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Well, thank you very much, Chairman 
Alexander.
    Thank you to all of our witnesses for being here today. I 
am especially thrilled to have not just one, but two Washington 
State witnesses on our panel today, Dan Goldhaber and Rachelle 
Moore. Thank you both for coming all the way out here to 
Washington, DC, or what we call the other Washington. We really 
appreciate your traveling all the way here and all of our 
witnesses for being here.
    Today, we are going to address the critical issue of how to 
best support teachers and school leaders. Each day, our 
Nation's educators are helping students get ahead and making 
sure struggling students don't fall through the cracks.
    As I've said, one of the major problems with the Nation's 
current education bill, No Child Left Behind, is to set 
unrealistic goals for schools across the country, but then 
failed to give them the resources they needed to succeed. Going 
forward, we need to provide adequate and effective support for 
teachers and school leaders, who are so important to a 
student's achievement and growth.
    A 2012 study showed that good teachers don't just help 
students make progress during a particular school year. When a 
child has a highly effective teacher, that student will be more 
likely to attend college and earn higher wages later in life. 
The same is true for school leaders. A study from Stanford 
University found that in a single school year, a highly 
effective principal can raise the achievement of a typical 
student by between 2 and 7 months of learning.
    We also need to recognize it is not an easy time to be a 
teacher or a school leader. When they step into a classroom or 
school, educators confront innumerable challenges, from helping 
children who are struggling with poverty at home, to teaching 
students who are just beginning to learn English, to meeting 
higher standards across the board.
    Unfortunately, I hear all the time from teachers--three-
quarters of whom are women, by the way--who feel like they 
aren't getting the resources they need and who feel like they 
don't have a voice in the decisions that affect their own 
classrooms. If teachers and principals don't get the training, 
resources, and support they need to advance their skills and 
help their students succeed, then very little else we do will 
matter.
    On evaluations, I believe we should have ways to measure 
how educators are doing to make sure students do have access to 
high-quality teachers. I am wary of using them as the sole 
factor in setting salaries or using testing as the sole 
indicator in an evaluation. There is just so much more going 
into teaching than test scores.
    I know some of our witnesses will be talking about this 
issue today, and I think this is a very important conversation 
to have. We need to listen to the feedback we're getting from 
teachers and school leaders and provide them with the resources 
they need to carry out the important work they do.
    I believe that we need to invest more in teachers and pay 
them enough to continue to attract the best and brightest to 
the profession. Educators need clear pathways to advance and 
grow in their careers in ways that reflect their expertise.
    We should also consider ways to recruit and retain strong 
and diverse educators and make sure the most successful 
teachers are working with the students who need them the most. 
Throughout their career, teachers and school leaders should 
have access to high-quality professional development so they 
can continue to hone their skills in ways that are relevant to 
their classrooms. That includes residency and mentorship 
programs.
    For example, Ms. Moore, I know that your school in Seattle 
is helping new teachers prepare for the classroom by placing 
them with more experienced educators for an entire school year. 
That way, when new teachers begin their first day of the class, 
they are ready to help their students grow and thrive and 
learn.
    I look forward to hearing more from all of you on this 
panel on more ways to empower teachers and school leaders with 
a voice at the table and with the support and resources they 
need to tackle the many challenges of improving student 
outcomes.
    If we want to truly fix the badly broken No Child Left 
Behind law, this is something we have to get right, and it 
should not be a partisan issue. Democrats and Republicans 
should be able to work together on something as important as 
making sure our students have great teachers and can access 
high-quality education, no matter where they live, how they 
learn, or how much money their parents make.
    So, I hope we can have conversations about a truly 
bipartisan approach in the HELP Committee to fix this very 
broken law. Thank you, and I look forward to hearing from our 
panel of witnesses today.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray. Would you like to 
introduce the two witnesses from Washington State?
    Senator Murray. I'd be very pleased to do that, Mr. 
Chairman. Thank you.
    I want to introduce Dan Goldhaber. He is the director of 
the Center for Education Data and Research and a Professor at 
the University of Washington--which happens to be in my 
hometown of Bothell, so it's great to have you here. His 
research has focused on education reform at the K through 12 
level, as well as measuring teacher effectiveness and the 
effects of teacher qualifications on student outcomes, among 
other topics. He is also a former school board member in 
Alexandria, VA.
    Dr. Goldhaber, thank you for taking the time to be here 
today. We look forward to your testimony.
    Mr. Chairman, I'm also very pleased to have on our panel 
today Rachelle Moore. She is in her fifth year of teaching at 
Madrona K-8 in Seattle, WA. I recently had the chance to visit 
her school and saw first-hand how dedicated the teachers are to 
engaging their students and helping them succeed. It was a 
great day, so thank you.
    As I mentioned a moment ago, Madrona has implemented this 
mentorship program to make sure teachers are ready on day 1. 
I'm looking forward to hearing more about that program and how 
we can all better support teachers to be successful in the 
classroom. Thank you very much, Ms. Moore, for being here today 
as well.
    The Chairman. Senator Mikulski, would you like to introduce 
the teacher from Maryland, please?
    Senator Mikulski. Yes.
    The Chairman. Or the principal. Pardon me.

                     Statement of Senator Mikulski

    Senator Mikulski. Mr. Chairman and committee members, it's 
really a delight to introduce Dr. Christine Handy-Collins to 
you. She is a well-recognized educator in really being able to 
deliver results, closing the disparity gap between minority 
achievement, and actually runs the school.
    She was awarded Maryland's Principal of the Year in 2006. 
She is currently the principal of Gaithersburg High School, 
where she is the 2014 recipient of the Dr. Edward Shirley Award 
for Excellence in Administration and Supervision.
    But she doesn't worry about the awards she gets. She 
worries about what her students get. She's been known for her 
outstanding work for students across Maryland and the region, 
especially in increasing minority participation and 
performances.
    Dr. Handy-Collins took the time out of her busy schedule to 
attend here today, and I think we're going to learn a lot from 
her because she's actually on the firing line trying to manage 
a school with all of the challenges that go into it. I am 
pleased to present her to you today and look forward to hearing 
her testimony.
    The Chairman. Thank you, Senator Mikulski.
    We have three other witnesses. Dr. Terry Holliday is here. 
He is the Kentucky Commissioner of Education. He'll discuss the 
important work of supporting teachers and leaders in Kentucky.
    Mr. Saul Hinojosa is the Superintendent of Schools for the 
Somerset Independent School District in Somerset, TX. We 
welcome you.
    I guess those are the only two remaining witnesses. Why 
don't we start now with 5-minute summaries of your comments.
    Dr. Goldhaber, we'll start with you and go right down the 
line, and then we'll go to Senators' questions.

   STATEMENT OF DAN GOLDHABER, B.A., M.S., Ph.D., DIRECTOR, 
NATIONAL CENTER FOR ANALYSIS OF LONGITUDINAL DATA IN EDUCATION 
  RESEARCH AT THE AMERICAN INSTITUTES FOR RESEARCH; DIRECTOR, 
  CENTER FOR EDUCATION DATA AND RESEARCH AT THE UNIVERSITY OF 
                    WASHINGTON, BOTHELL, WA

    Mr. Goldhaber. Chairman Alexander, Ranking Member Murray, 
members of the committee, it's a pleasure to be here today, and 
I'm delighted to be talking about fixing No Child Left Behind 
and supporting teachers and school leaders. I guess I'd like to 
begin by saying that I agree that there are, in fact, important 
fixes that need to be made to No Child Left Behind.
    One thing that I hope doesn't change is the annual testing 
requirement. I say that because the annual testing requirement 
has facilitated a tremendous amount of learning about educator 
effectiveness, the variation of educator effectiveness in the 
workforce, and, importantly, the implications of educator 
effectiveness for student achievement.
    Senator Murray, you mentioned the 2012 study. We now know 
that the differences between teachers have profound 
implications for students in terms of their later academic 
outcomes and labor force outcomes. We also know that the old-
style teacher evaluations that tend to suggest that all 
teachers are the same are both wrong and totally inadequate for 
addressing the individual needs of educators. I think that we 
wouldn't know those things were it not for the annual testing 
requirement.
    What does research have to say about educational 
effectiveness and its distribution? I'll begin by talking a 
little bit about teacher preparation. There's really two 
different strands of research on teacher preparation. One 
strand of research tends to focus on the path of entry into the 
profession, whether or not you enter through a traditional 
certification route that tends to occur at colleges and 
educations in a traditional teacher preparation program.
    The second alternative route is a route like Teach for 
America. There are actually many different routes, but Teacher 
for America is quite well known. There are a great many studies 
that look at the differences between teachers based on their 
route of entry into the profession, and, in general, they find 
relatively small differences.
    Now, that has led some to believe that teacher training 
doesn't matter, and I think that that is the wrong conclusion. 
It's at least the wrong conclusion in terms of the research 
base, because you don't know if the differences that exist--or, 
in this case, the lack of differences--have to do with the 
individuals and the selection of individuals into programs or 
the training that they actually receive while they are at 
programs.
    The second line of research around teacher preparation is 
much newer, and it is in some ways quite encouraging. It 
focuses on the experiences that people have, the features of 
teacher training, and connects those experiences to teachers 
once they go out into the field. There's some evidence, for 
instance, that teachers that do their student teaching in a 
more coherent environment and have their student teaching 
experiences match well with their course work end up being more 
effective once they go out into the field and assume classroom 
responsibilities.
    I'll mention a few things about policies designed to 
improve educator effectiveness for educators that are in 
service. Professional development is a ubiquitous strategy to 
try and improve teaching. More recently, a lot of school 
systems--as you, Senator Alexander, mentioned--are using 
performance bonuses to try and increase teacher effectiveness.
    Now, the evidence on each of those looks like, 
independently, they don't work. There's some really high-
quality randomized control trials that suggest that if you just 
do performance incentives tied to student gains on tests, it 
doesn't increase the effectiveness of teachers. If you just do 
professional development, it also doesn't increase the 
effectiveness of teachers.
    Much more encouraging are systems that are more holistic. 
Last week, you heard from Tom Boasberg, and I would actually 
point to the system in Denver as one that is more holistic. I 
would point to the IMPACT system here in DC as one that's more 
holistic. And there's good evidence in both of those settings 
that it's making a difference for educator effectiveness and 
for student achievement.
    Last, I'll talk a little bit about teacher distribution. 
What we know is that teachers--whether teacher quality is 
measured based on the attributes of teachers, their 
credentials, their experience level, or whether teacher quality 
is based on output-based measures of effectiveness, the teacher 
quality is inequitably distributed across students. So 
disadvantaged students are less likely to get access to a 
highly effective or a highly qualified teacher than advantaged 
students.
    Now, that can be ameliorated somewhat by financial 
incentives. Teachers, like most of us, respond to financial 
incentives, and if you pay recruitment or retention incentives, 
that does seem to make a difference for getting teachers to go 
to or stay in disadvantaged schools. The impact is not huge, 
and it's clear that teachers also care a great deal about their 
working conditions, things like the quality of school 
leadership and the collegiality of their peers.
    What does all this suggest about fixing No Child Left 
Behind? Well, I'll echo my comment about the testing 
requirement and what we have learned from it and what we learn 
from it about the needs of individual educators, and I'll say, 
in particular, that I think that it's really important that the 
test that is used is comparable across localities within States 
so that you're using a common yardstick to make judgments and 
inform practices to support teachers.
    And, last, I'll say that I think that there is an important 
role that the Federal Government plays in encouraging 
innovation. I'm hearkened to see that the Teacher Incentive 
Fund is in the draft bill. I think we need innovation on all 
kinds of areas that govern the teacher pipeline from teacher 
preparation to induction programs, et cetera.
    I will stop there and say I will look forward to your 
questions.
    [The prepared statement of Mr. Goldhaber follows:]
         Prepared Statement of Dan Goldhaber, B.A., M.S., Ph.D.
    Chairman Alexander, Ranking Member Murray, members of the 
committee, thank you for inviting me to testify today. My name is Dan 
Goldhaber and I am the director of the National Center for Analysis of 
Longitudinal Data in Education Research (CALDER) at the American 
Institutes for Research and the director of the Center for Education 
Data and Research at the University of Washington Bothell. I have been 
engaged in research on schools and student achievement for about 20 
years, and much of my work focuses on the broad array of human capital 
policies that influence the composition, distribution, and quality of 
teachers in the workforce.
    Let me begin by saying that while these hearings are focused on 
fixing No Child Left Behind (NCLB), it is important to recognize that 
not all parts need fixing. The annual testing requirement of NCLB made 
possible a great deal of learning about the importance of the Nation's 
educators. Empirical evidence now clearly buttresses intuition that 
teachers differ significantly from one another in terms of their 
impacts on student learning and shows that these differences have long-
term consequences for students' later academic (Goldhaber and Hansen, 
2010; Jackson and Bruegmann, 2009; Jacob and Lefgren, 2008; Kane and 
Staiger, 2008) and labor market (Chamberlain, 2013; Chetty, et al., 
2014; Jackson, 2013) success. There is also now good evidence that the 
quality of our educators has real implications for our Nation's long-
term economic health (Hanushek, 2011).\1\ Research on school leaders is 
far less extensive, but it too suggests that principals, not 
surprisingly, significantly influence student achievement, in part by 
affecting the quality of teachers in their schools (Branch, et al., 
2012; Coelli and Green, 2012; Grissom and Loeb, 2011; Grissom, et al., 
2013).
---------------------------------------------------------------------------
    \1\ Students' success clearly depends a good deal on their 
experiences at home and in their neighborhoods, but teacher quality is 
arguably the most important schooling factor influencing academic 
outcomes (Goldhaber, et al., 1999; Nye, et al., 2002).
---------------------------------------------------------------------------
    We also know that disadvantaged students tend to have less access 
to high quality teachers, whether the measure of quality is observable 
teacher credentials or student-growth (Clotfelter, et al., 2011; 
Goldhaber, et al. in press; Isenberg, et al., 2013; Sass, et al., 
2012). This is problematic from an equity perspective in that public 
education is probably the single best social equalizer, offering 
opportunities for individuals to improve their socioeconomic status 
through hard work. A well-functioning education system can and should 
provide disadvantaged students with ways to escape poverty, but an 
unequal distribution of quality educators implies inequity in 
opportunity.
    A second overarching point is that information about individual 
educators' needs is fundamental for informing teacher and school leader 
supports and for learning what policies and practices improve educator 
effectiveness.
    I am worried that a change we might see with reauthorization--a 
move away from a requirement of uniform statewide annual year-over-year 
testing--would greatly shrink and possibly even eliminate our knowledge 
of educator effectiveness, its distribution among students, and its 
responsiveness to different policies and practices. In short, it would 
greatly limit the information we need to make schools better.
    The reasons are simple. First, the right measure of the impacts of 
educators is one based on progress over time, not achievement at any 
given point. To be blunt, measures that do not track progress simply 
are not credible. And, second, we can compare the learning in one 
locality to another only when the yardstick measuring learning is the 
same in both. The most important educator policies are controlled by 
States--regulation of teacher education programs, licensure, induction 
and mentoring, tenure, layoffs, and often compensation. This suggests 
that States need solid information about educator outcomes, including 
impacts on student achievement, that are comparable across localities 
within a State to make good decisions about the policies that influence 
the entire teacher pipeline--from teacher preparation to the pay and 
status of in-service teachers to determining which teachers probably 
should not continue in the classroom.
    What do we know about supporting teachers and leaders? While many 
might naturally think about ``support'' in connection to incumbent 
educators, I take a more expansive view: support also includes pre-
service education and policies and practices aimed at attracting and 
retaining high-quality educators.\2\ In outlining the research here, 
I'll cover three broad categories: (1) teacher preparation, (2) 
professional development and incentives, and (3) recruitment, 
retention, and the distribution of teachers. Then I will close with a 
few thoughts about what this research suggests about fixing NCLB.
---------------------------------------------------------------------------
    \2\ Nearly all the research I describe below is about teachers 
because there is relatively little quantitative work on the development 
and mobility of school leaders.
---------------------------------------------------------------------------
                          teacher preparation
    Pre-service teacher training is thought to have a powerful 
influence on teacher career paths and student achievement (Levine, 
2006; NCATE, 2010). Yet, there is very little empirical evidence 
linking pre-service training to workforce outcomes (National Research 
Council, 2010). A primary reason is that there are few localities where 
one can connect detailed information about the pre-service education 
experiences of prospective educators to their in-service workforce 
outcomes. Hence, much of the evidence on pre-service preparation 
focuses on how a teacher enters the profession, i.e., via training in a 
college or university setting or through an alternative certification 
route (e.g., Constantine, et al., 2009; Glazerman, et al., 2006; Papay, 
et al., 2012; Xu, et al., 2011), or whether there are differences in 
effectiveness associated with the specific teacher education program 
attended (Boyd, et al., 2009; Goldhaber, et al., 2013; Goldhaber and 
Cowan, 2014; Mihaly, et al., 2013; Koedel, et al., forthcoming).
    The literature referenced here on pathways into the profession 
suggests that shorter programs with varying selection criteria and a 
practical teaching curriculum can produce graduates that are, on 
average, as effective as graduates from traditional college and 
university teacher-education programs. However, we do not know the 
extent to which this finding reflects differences in potential 
teachers' backgrounds (i.e., who is selected into a program or pathway) 
versus differences in potential educators' experiences in programs.\3\
---------------------------------------------------------------------------
    \3\ See Goldhaber (2013) for a more detailed review and discussion 
of selection versus training effects.
---------------------------------------------------------------------------
    Only a few studies connect the features of teacher training to the 
outcomes of teachers in the field. That said, evidence is mounting that 
some types of pre-service teaching experiences and pedagogical 
coursework are associated with better teacher outcomes. Some research 
shows, for instance, that teachers tend to be more effective when their 
student teaching experiences are well-aligned with their methods 
coursework (Boyd, et al., 2009). There is also evidence that teacher 
trainees who student-teach in higher functioning schools (as measured 
by low attrition) turn out to be more effective teachers when 
responsible for their own classrooms (Ronfeldt, 2012). Novice teachers 
with better preparation in student teaching and methods coursework are 
also more likely to remain in the profession (Ronfeldt, et al., 2014). 
To my knowledge, only one study connects principals' training to 
student outcomes (Clark, et al., 2009), and it doesn't substantiate a 
relationship between the two.\4\
---------------------------------------------------------------------------
    \4\ The study does, however, find a positive relationship between 
principals' years of experience and having previously served as an 
assistant principal, and student achievement.
---------------------------------------------------------------------------
    Taken together, studies like these begin to point toward ways to 
improve teacher preparation. With such a thin evidentiary base, we are 
just beginning to understand what makes teacher preparation effective--
both the criteria determining selection into preparation programs and 
the education that teacher candidates receive. With roughly 200,000 
newly minted teachers entering the profession each year, we need to 
know more.
                professional development and incentives
    Nearly all school districts use professional development (PD) to 
try to improve teaching. Not surprisingly, therefore, a large number of 
studies relate both the content and mode of delivery of PD to teacher 
instructional practices and effectiveness. Unfortunately, most research 
on PD is not terribly rigorous, and few studies suggest that it 
systematically improves teaching.\5\
---------------------------------------------------------------------------
    \5\ See, for instance, Yoon, et al. (2007) for a comprehensive 
review. For rigorous studies of PD using longitudinal observational 
data, see, for instance, Harris and Sass (2011) and Jacob and Lefgren 
(2004). The most encouraging research on PD suggests that focusing on 
how students learn a content area tends to be more effective than PD 
emphasizing pedagogy/teaching behaviors or curriculum (Cohen and Hill, 
2000; Kennedy, 1998; Rice, 2009).
---------------------------------------------------------------------------
    Several large-scale, well-designed, federally funded experimental 
studies do tend to confirm that PD has little or mixed impacts on 
student achievement. For instance, a randomized control trial focusing 
on a 1-year content-focused PD program showed positive impacts on 
teachers' knowledge of scientifically based reading instruction and 
instructional practices promoted by the PD program, but no discernable 
effects on student test scores (Garet, et al., 2008). Another recent 
randomized control trial (Glazerman, et al., 2010) of the effects of 
mentoring and induction (a form of profession development for novice 
teachers) did find some evidence that students of teachers who received 
2 years of comprehensive induction had higher achievement levels by the 
third year.
    One argument for professional development's relatively poor showing 
is that it is rarely targeted to the needs of individual educators. As 
for why, old-style ``drive by'' evaluations generally yielded little 
useable information about what individual teachers and leaders need. 
This was perhaps best captured in The Widget Effect (Weisburg, et al., 
2009), a study of 12 school districts (in four States) that showed that 
while the frequency and methods of teacher evaluation varied, the 
results of evaluations rarely did--nearly all teachers got a top 
performance rating.\6\ If all are judged to be the same, targeting 
professional development to their diverse needs is difficult indeed.\7\
---------------------------------------------------------------------------
    \6\ Other evidence includes Bridges and Gumport (1984); Tucker 
(1997).
    \7\ One might also argue that PD would be more likely to pay off 
under institutional structures that reward performance; teachers 
generally have little besides goodwill at stake when investing their 
time in professional development since they are simply satisfying PD 
seat time requirements (Rice, 2009).
---------------------------------------------------------------------------
    Another way that policymakers have tried to improve educator 
effectiveness is by providing explicit incentives for teacher 
performance. Unfortunately, much of the highest quality randomized 
control trial evidence on this avenue of reform also suggests that it 
has limited impacts on student achievement (Yuan, et al., 2013). One 
experiment (Marsh, et al., 2011) showed that $3,000 bonuses for every 
teacher in a given school meeting performance standards had no impact 
on student achievement relative to control-group schools ineligible for 
the bonus. Another randomized control trial study (Springer, et al., 
2010) focused on teacher-level incentives of up to $15,000 per teacher 
also found no consistently significant difference between the outcomes 
of students with teachers in the treatment versus the control group.\8\
---------------------------------------------------------------------------
    \8\ One argument for the mixed evidence of pay for performance is 
that many performance plans are not well designed (Imberman and 
Lovenheim, 2014). The most encouraging experimental evidence on pay for 
performance in U.S. schools comes from a recent study by Fryer, et al. 
(2012) with a very different study design from those described above. 
Teachers in a treatment group received a bonus up-front and were told 
that they would lose it if their students did not make significant test 
score gains, testing whether they might respond more to loss aversion 
than the potential for financial gain. In this case, student 
achievement in the performance-incented group was higher than in the 
control group. It is unlikely that this sort of incentive could be 
widely implemented given political and cultural constraints in public 
schools, but the finding does show the potential for policies to affect 
the effectiveness of the current teacher workforce.
---------------------------------------------------------------------------
    The most encouraging evidence about changing the effectiveness of 
in-service teachers comes from programs that take a more holistic 
approach, combining comprehensive evaluation with feedback, 
professional development and performance incentives.\9\ You heard last 
week from Tom Boasberg, the Superintendent of Denver Public Schools 
(DPS), about the progress the district has made over the last decade 
using such an approach.\10\ Findings from a study (Dee and Wyckoff, 
2013) of the IMPACT system here in the District of Columbia show that 
teachers deemed highly effective (based on a multifaceted performance 
evaluation system) and eligible to receive large base pay increases if 
the high rating continue, increase their performance in the next 
year.\11\
---------------------------------------------------------------------------
    \9\ Indeed there is evidence (Taylor and Tyler, 2012) that targeted 
feedback about teacher performance itself helps teachers become more 
effective.
    \10\ My research with a colleague (Goldhaber and Walch, 2012) 
confirms these findings in Denver.
    \11\ The study also finds that teachers at risk for termination for 
poor performance tend to either improve or voluntarily leave the 
district.
---------------------------------------------------------------------------
        recruitment, retention, and the distribution of teachers
    As noted above, teacher quality is inequitably distributed across 
students. This finding is related to both the recruitment and retention 
patterns of teachers--not surprising since research shows that schools 
serving disadvantaged students face greater challenges hiring new 
teachers (Boyd, et al., 2013; Engel, et al., forthcoming) and that 
teachers are more likely to leave schools serving disadvantaged 
students for other schools or other professions (Borman and Dowling, 
2008; Goldhaber, et al., 2011; Hanushek, et al., 2004; Scafidi, et al., 
2007).
    There is evidence that teachers making employment choices respond, 
as would be expected.\12\ Studies of recruitment incentives, for 
instance, find that offering bonuses increases the likelihood that 
teachers will take a position in schools offering the incentive. 
Glazerman, et al. (2013) study an experiment in which high-performing 
teachers are offered $20,000 bonuses to transfer to a low-achieving 
school for at least 2 years and find large recruitment effects. Steele, 
et al. (2010) study a policy that provides prospective teachers with a 
$20,000 scholarship for teaching in a low-performing school for 4 years 
and get much the same result. Of course, the design of these financial 
incentives is also important: these policies do not provide ongoing 
inducements to stay in high-needs schools and neither study found 
evidence that targeted teachers stayed at high-needs schools longer.
---------------------------------------------------------------------------
    \12\ For a more comprehensive review, see Hanushek and Rivkin 
(1997).
---------------------------------------------------------------------------
    Much of the empirical evidence does show that higher permanent 
salaries reduce teacher attrition. Much of this evidence comes from 
investigating differences in salaries between districts in the same 
geographical area (e.g., Hanushek, et al. 2004; Imazeki, 2005; 
Lankford, et al., 2002). Of particular note is research on retention 
incentives for schools serving high-poverty and low-achieving schools. 
Studying a program that awarded $1,800 bonuses to math, science, and 
special education teachers in high-poverty schools, Clotfeler, et al. 
(2008) find that the bonus policy reduced the turnover of targeted 
teachers by about 17 percent. Springer, et al. (2014) assess a program 
providing highly rated teachers in low-achieving schools $5,000 bonuses 
and find that the bonus improved teacher retention by 10-20 percent.
    While financial incentives appear to be a viable tool for affecting 
the distribution of teachers, teachers clearly also care about their 
working conditions. Such factors as the quality of school leadership 
and workplace collegiality also affect teachers' decisions and some 
scholars (Boyd, et al., 2011; Johnson, et al., 2012; Ladd, 2009) 
suggest that such factors matter far more than salary in determining 
whether teachers choose to teach in a particular school. This finding 
poses a challenge since there is not a direct policy control over such 
working conditions.\13\
---------------------------------------------------------------------------
    \13\ It is of course possible that policies could have impacts on 
school leadership or culture, but this would be more circuitous. For 
instance, one might require principals receive training to improve 
their leadership skills, but for it to have an impact on teachers, the 
training would have to change the perceptions that teachers have of a 
principal's leadership skills.
---------------------------------------------------------------------------
                      fixing no child left behind
    Given current research, what is the connection between supporting a 
high quality teacher and school leader workforce and fixing No Child 
Left Behind? First consider that the NCLB testing requirement ushered 
in a new era: we now pay far more policy and research attention to the 
effects of schools and educators on student learning--an outcome 
focus--rather than making judgments about the quality of education 
students receive, or the equity of educational resources, based on 
schooling inputs (class size, teacher credentials, etc.). The shift has 
been significant and, to my mind, appropriate. Parents should care more 
about how much their students are learning in schools than, for 
instance, about teachers' specific backgrounds and educational 
credentials (though the two may certainly be related).
    This new focus on educational outputs means that any changes to 
NCLB should preserve our ability to garner accurate information about 
the outputs of teachers and school leaders. Here I echo my initial 
point that this information is key to determining what kind of support 
individual teachers and leaders need so they can improve, which leaders 
and teachers we want to stay in public schools, and what policies and 
practices lead to improvements in educator effectiveness.
    To be sure, States left to their own devices might decide to 
continue with a testing system that allows for credible information 
across localities in educator effectiveness. Recall here that in the 
decade or so before NCLB passed, only a handful of States had year over 
year testing of all students. My fear is that, given the difficult 
politics associated with testing, many States would return to systems 
that would not permit measures of student growth that are comparable 
across school systems in a State.
    I'll end by touching on a final issue about the Federal role in 
influencing the effectiveness of the Nation's educators. While NCLB has 
been in place for well over a decade, the national focus on 
effectiveness of individual educators, and the institutions that 
prepare them, is far more recent. The country is in the midst of a 
large experiment in reforming the way educators are evaluated. Just 
since 2009, 49 States and the District of Columbia have changed their 
evaluation systems, and in many cases these changes are being fully 
implemented only now (Center on Great Teachers and Leaders, 2014). Many 
of these changes entail using information on individual educators to 
inform important policies (e.g., regarding teacher preparation) and 
personnel decisions (compensation, professional development, tenure, 
licensing, etc.), and, as noted above, new evidence shows that this can 
make a difference for educator effectiveness. We are now just on the 
cusp of learning about how these changes affect the quality of the 
educator workforce and sound policy must rest on such knowledge.
    Throughout I have emphasized a focus on information on the 
effectiveness of individual educators. This is appropriate given what 
we have learned over the last decade about the important variation in 
effectiveness between teachers and school leaders, and because most 
States now have policies designed to act on what we learn about 
educator effectiveness. However, I very much doubt that we would have 
seen much State experimentation with pre-service and in-service 
policies were it not for the role of the Federal Government in 
incenting such change. I think we can do better when it comes to 
supporting teachers and school leaders, and learn more about the 
policies and practices that result in a more effective educator 
workforce. Significant improvements will require more innovation, and 
the Federal Government can play an important role in nudging, not 
mandating, States and localities to innovate (for instance in the realm 
of teacher preparation) through competitive grant programs, like the 
Teacher Incentive Fund, that encourage experimentation with the systems 
and institutions that govern the teacher pipeline. The public education 
enterprise has to get smarter about how to deliver education, and 
figuring out how to improve educator effectiveness is arguably the best 
way to improve the future of the Nation's children.
                               References
Aaronson, D., Barrow, L., & Sander, W. (2007). Teachers and student 
    achievement in the Chicago Public High Schools.'' Journal of Labor 
    Economics 25, no. 1 (2007): 95-135.
Borman, G. & Dowling, N. (2008). Teacher attrition and retention: A 
    meta-analytic and narrative review of the research. Review of 
    Educational Research, 78(3), 367-409.
Boyd, D., Grossman, P., Lankford, H., Loeb, S., & Wyckoff, J. (2008). 
    Who Leaves? Teacher Attrition and Student Achievement. Cambridge, 
    MA: National Bureau of Economic Research.
Boyd, D., Grossman, P., Ing, M., Lankford, H., Loeb, S., & Wyckoff, J. 
    (2011). The influence of school administrators on teacher retention 
    decisions. American Educational Research Journal, 48, 303-33.
Branch, G.F., Hanushek, E.A., & Rivkin, S.G. (2012). Estimating the 
    effect of leaders on public sector productivity: The case of school 
    principals. Cambridge, MA: National Bureau of Economic Research.
Bridges, E. & Gumport, P. (1984). The dismissal of Tenures Teachers for 
    Incompetence. Stanford, CA: Institute for Research on Educational 
    Finance and Governance, 1984. Technical Report.
Center on Great Teachers and Leaders State Evaluation Policy Database 
    (2014). Retrieved on 1/24/2015 from http://resource.tqsource.org/
    stateevaldb/.
Chamberlain, G. (2013). Predictive effects of teachers and schools on 
    test scores, college attendance, and earnings. Proceedings of the 
    National Academy of Sciences, 110(43), 17176-82.
Chetty, R., Friedman, J.N., & Rockoff, J.E. (2014). Measuring the 
    Impacts of Teachers II: Teacher Value-Added and Student Outcomes in 
    Adulthood. American Economic Review, 104(9), 2633-79.
Clark, D., Mortorell, P. & Rockoff, J. (2009). School principals and 
    school performance. CALDER Working Paper 38.
Clotfelter, C., Glennie, E., Ladd, H., & Vigdor, J. (2008). Would 
    higher salaries keep teachers in high-poverty schools? Evidence 
    from a policy intervention in North Carolina. Journal of Public 
    Economics, 92:5, PP. 1352-70.
Clotfelter, C., Ladd, H., & Vigdor, J. (2010). Teacher credentials and 
    student achievement in high school: a cross subject analysis with 
    fixed effects. Journal of Human Resources 45: 655-81.
Clotfelter, C.T., Ladd, H.F., & Vigdor, J.L. (2011). Teacher mobility, 
    school segregation, and pay-based policies to level the playing 
    field. Education Finance and Policy, 6(3), 399-438.
Coelli, M. & Green, D.A. (2012). Leadership effects: school principals 
    and student outcomes. Economics of Education Review 31(1), 92-109.
Cohen, D. & Hill, H. (2000). Instructional policy and classroom 
    performance: The mathematics reform in California. Teachers College 
    Record, 102(2), 294-343.
Constantine, J., Player, D., Silva, T., Hallgren, K., Grider, M., & 
    Deke, J. (2009). An evaluation of teachers trained through 
    different routes to certification. Final Report for National Center 
    for Education and Regional Assistance, 142.
Dee, T.S. & Wyckoff, J. (2013). Incentives, selection, and teacher 
    performance: Evidence from IMPACT. CALDER Working Paper 102.
Engel, M., Jacob, B., & *Curran, F.C. (forthcoming) New Evidence on 
    Teacher Labor Supply. American Educational Research Journal--Social 
    and Institutional Analysis.
Fryer, R., Levitt, S., List, J., & Sadoff, S. (2012). Enhancing the 
    Efficacy of Teacher Incentives through Loss Aversion: A Field 
    Experiment. NBER Working Paper No. 18237.
Fulbeck, E. S. (2014). Teacher Mobility and Financial Incentives: A 
    Descriptive Analysis of Denver's ProComp. Educational Evaluation 
    and Policy Analysis, 36(1), 67-82.
Garet, M.S., Cronen, S., Eaton, M., Kurki, A., Ludwig, M., Jones, W., 
    Uekawa, K., Falk, A., Bloom, H.S., Doolittle, F., Zhu, P., & 
    Sztehjnberg, L. (2008). The impact of two professional development 
    interventions on early reading instruction and achievement.'' 
    American Institutes for Research and MDRC. NCEE 2008-4030.
Glazerman, S., Mayer, D., & Decker, P. (2006). Alternative routes to 
    teaching: The impacts of Teach for America on student achievement 
    and other outcomes. Journal of Policy Analysis and Management, 
    25(1), 75-96.
Glazerman, S. Protik, A., Teh, B., Bruch, J., & Max, J. (2013). 
    Transfer incentives for high-performing teachers: final results 
    from a multisite randomized experiment (NCEE-2014-4033). 
    Washington, DC: National Center for Education Evaluation and 
    Regional Assistance, Institute of Education Sciences, U.S. 
    Department of Education.
Glazerman, S. and Seifullah, A. (2010). An evaluation of the Teacher 
    Advancement Program (TAP) in Chicago: Year two impact report. 
    Mathematica Policy Research.
Goldhaber (2013). What do value-added measures of teacher preparation 
    programs tell us? Carnegie Knowledge Network Knowledge Brief. 
    Published online at http://www.carnegieknowledgenetwork.org/briefs/
    teacher_prep/.
Goldhaber, D., Brewer, D. & Anderson, D. (1999) A three-way error 
    components analysis of educational productivity. Education 
    Economics, 7(3), 199-208.
Goldhaber, D., Gross, B., & Player, D. (2011). Teacher Career Paths, 
    Teacher Quality, and Persistence in the Classroom: Are Public 
    Schools Keeping Their Best? Journal of Policy Analysis and 
    Management, 30(1), 57-87.
Goldhaber, D., Lavery, L., & Theobald, R. (2014). Uneven Playing Field? 
    Assessing the Teacher Quality Gap Between Advantaged and 
    Disadvantaged Students. Educational Researcher, in press.
Goldhaber, D. & Walch, J. (2012). ``Strategic pay reform: a student 
    outcomes-based evaluation of Denver's ProComp teacher pay 
    initiative.'' Economics of Education Review, 31(6): 1067-83.
Grissom, J. A., & Loeb, S. (2011). Triangulating Principal 
    Effectiveness: How Perspectives of Parents, Teachers, and Assistant 
    Principals Identify the Central Importance of Managerial Skills. 
    American Educational Research Journal, 48(5), 1091-1123.
Grissom, J. A., Loeb, S., & Master, B. (2013). Effective Instructional 
    Time Use for School Leaders: Longitudinal Evidence From 
    Observations of Principals. Educational Researcher, 42(8), 433-44.
Hansen, M. (2009). How career concerns influence public workers' 
    effort: Evidence from the teacher labor market. CALDER Working 
    Paper #40.
Hanushek, E. A. (2011). The economic value of higher teacher quality. 
    Economics of Education Review, 30(3), 466-79.
Hanushek, E. & Rivkin, S. (2007). Pay, working conditions and teacher 
    quality. Future of Children, 17(1), 69-86.
Harris, D. & Sass, T. (2011). Teacher training, teacher quality, and 
    student achievement. Journal of Public Economics, 95, 7-8: 798-812.
Hill, H.C., Umland, K. L. & Kapitula, L.R. (2011). A validity argument 
    approach to evaluating value-added scores. American Educational 
    Research Journal 48, 794-831.
Ichniowski, C. & Shaw, K. (2003). Beyond incentive pay: Insiders' 
    estimates of the value of complementary human resource management 
    practices. The Journal of Economic Perspectives 17(1), PP. 155-80.
Imazeki, J. (2005). Teacher salaries and teacher attrition. Economics 
    of Education Review, 24(4), 431-49.
Imberman, S. & Lovenheim, M. (2014). Incentive strength and teacher 
    productivity: evidence from a group-based teacher incentive pay 
    system. The Review of Economics and Statistics. Published online at 
    http://www.mitpressjournals.org/doi/abs/10.1162/
    RESTa_00486#.VMP2sHYeVjU.
Ingersoll, R. & Strong, M. (2011). The impact of induction and 
    mentoring programs for beginning teachers. Review of Educational 
    Research 81:2, PP. 201-33.
Isenberg, E., Max, J., Gleason, P., Potamites, L., Santillano, R., 
    Hock, H., & Hansen, M. (2013). Access to effective teaching for 
    disadvantaged students (NCEE 2014-4001). Washington, DC: National 
    Center for Education Evaluation and Regional Assistance, Institute 
    of Education Sciences, U.S. Department of Education.
Jackson, C. (2013) ``Non-Cognitive Ability, Test Scores, and Teacher 
    Quality: Evidence from 9th Grade Teachers in North Carolina'', NBER 
    Working Paper No. 18624.
Jackson, C. & Bruegmann, E. (2009). Teaching students and teaching each 
    other: the importance of peer learning for teachers.'' American 
    Economic Journal: Applied Economics 1(4): 85-108.
Jacob, B. & Lefgren, L. (2004). The impact of teacher training on 
    student achievement. Journal of Human Resources, 39:1, PP. 50-79.
Jacob, B. & Lefgren, L. (2008). Can principals identify effective 
    teachers? Evidence on subjective evaluation in education. Journal 
    of Labor Economics 26(1), 101-36.
Johnson, S., Kraft, M., & Papay, J. (2012). How Context Matters in 
    High-Need Schools: The Effects of Teachers' Working Conditions on 
    Their Professional Satisfaction and Their Students. Teachers 
    College Record, Volume 114 Number 10, 2012, p. 1-39, http://
    www.tcrecord.org ID Number: 16685, Date Accessed: 1/24/2015 2:48:06 
    PM.
Kane, T. & Staiger, D.O. (2008) Estimating teacher impacts on student 
    achievement: An experimental evaluation. Cambridge, MA, NBER.
Kennedy, M. (1998) Form and substance in teacher inservice education, 
    Research Monograph No. 13 (Madison, WI, National Institute for 
    Science Education, University of Wisconsin-Madison).
Koedel, C., Parsons, E., Podgursky, M. & and Ehlert, M. (forthcoming). 
    Teacher preparation programs and teacher quality: are there real 
    differences across programs? Education Finance and Policy.
Lankford, H., Loeb, S., & Wyckoff, J. (2002). Teacher sorting and the 
    plight of urban schools: A descriptive analysis. Educational 
    Evaluation and Policy, 24(1), 37-62.
Levine, Arthur. (2006). Educating School Teachers. The Education 
    Schools Project.
Marsh, J., Springer, M., McCaffrey, D., Yuan, K., Epstein, S., Koppich, 
    J., Kalra, N., DiMartino, C., & Peng, A. (2011). A big apple for 
    educators: New York City's experiment with schoolwide performance 
    bonuses. RAND Corporation.
Mihaly, K., McCaffrey, D., Sass, T. R., & Lockwood, J. R. (2013). Where 
    You Come From or Where You Go? Distinguishing Between School 
    Quality and the Effectiveness of Teacher Preparation Program 
    Graduates. Education Finance and Policy, 8(4), 459-93.
Murnane, R., Singer, J., Willett, J., Kemple, J., & Olsen, R. (Eds.). 
    (1991). Who will teach?: Policies that matter. Cambridge, MA: 
    Harvard University Press.
National Council for Accreditation of Teacher Education. (2010). 
    Transforming Teacher Education Through Clinical Practice: A 
    National Strategy to Prepare Effective Teachers. Report of the Blue 
    Ribbon Panel on Clinical Preparation and Partnerships for Improved 
    Student Learning.
National Research Council. (2010). Preparing teachers: Building 
    evidence for sound policy. Committee on the Study of Teacher 
    Preparation Programs in the United States. Washington, DC: National 
    Academies Press.
Nye, B., Konstantopoulos, S. & Hedges, L.V. (2004). How large are 
    teacher effects? Educational Evaluation and Policy Analysis 26:3, 
    237-57.
Papay, J.P., West, M.R., Fullerton, J.B., & Kane, T.J. (2012). Does an 
    urban teacher residency increase student achievement? Early 
    evidence from Boston. Educational Evaluation and Policy Analysis 
    34(4), 413-34.
Rice, J. (2009). Investing in human capital through teacher 
    professional development. In Goldhaber, D. and Hannaway, J., ed. 
    Creating a New Teaching Profession. The Urban Institute.
Rivkin, S., Hanushek, E. & Kain, J. (2005) Teachers, schools, and 
    academic achievement. Econometrica, 73(2), 417-58.
Rockoff, J. (2004) The impact of individual teachers on students' 
    achievement: Evidence from panel data. American Economic Review, 
    94(2), 247-52.
Ronfeldt, M. (2012). Where should student teachers learn to teach? 
    Effects of field placement school characteristics on teacher 
    retention and effectiveness. Educational Evaluation and Policy 
    Analysis, 34(1), 3-26.
Ronfeldt, M., Schwartz, N., & Jacob, B. (2014). Does pre-service 
    preparation matter? Examining an old question in new ways. Teachers 
    College Record 116(10), 1-46.
Sass, T. R., Hannaway, J., Xu, Z., Figlio, D.N., & Feng, L. (2012). 
    Value added of teachers in high-poverty schools and lower poverty 
    schools. Journal of Urban Economics, 72(2-3), 104-22.
Scafidi, B., Sjoquist, D. & Stinebricker, T. (2007). Race, poverty, and 
    teacher mobility. Economics of Education Review, 26(2), 145-59.
Springer, M., Hamilton, L., McCaffrey, D., Ballou, D., Le, V., Pepper, 
    M., Lockwood, JR, & Stecher, B. (2010). Teacher pay for 
    performance: experimental evidence from the project on incentives 
    in teaching. National Center on Performance Incentives Working 
    Paper, Vanderbuilt University, Nashville, TN.
Springer, M.G., Rodriguez, L.A., & Swain, W.A. (2014). Effective 
    teacher retention bonuses: Evidence from Tennessee. Nashville, TN: 
    Tennessee Consortium on Research, Evaluation, and Development.
Steele, J., Murnane, R., & Willett, J. (2010). Do financial incentives 
    help low-performing schools attract and keep academically talented 
    teachers? Evidence from California. National Bureau of Economic 
    Research Working Paper 14780.
Taylor, E. & Tyler, J. 2012. The effect of evaluation on teacher 
    performance. American Economic Review, 102(7): 3628-51.
Tucker, P. (1997). Lake Wobegon: Where all teachers are competent (or, 
    have we come to terms with the problem of incompetent teachers?) 
    Journal of Personnel Evaluation in Education 11:103-26.
Weisberg, D., Sexton, S., Mulhern, J. & Keeling, D. (2009). The widget 
    effect: Our national failure to acknowledge and act on differences 
    in teacher effectiveness. New York, NY: The New Teacher Project.
Yoon, K.S., Duncan, T., Lee, S.W.-Y., Scarloss, B., & Shapley, K. 
    (2007). Reviewing the evidence on how teacher professional 
    development affects student achievement (Issues & Answers Report, 
    REL 2007--No. 033). Washington, DC: U.S. Department of Education, 
    Institute of Education Sciences, National Center for Education 
    Evaluation and Regional Assistance, Regional Educational Laboratory 
    Southwest. Retrieved from http://ies.ed.gov/ncee/edlabs.
Yuan, K, Le, V, McCaffrey, D.F., Marsh, J.A., Hamilton, L.S., Stecher, 
    Brian M., & Springer, M.G. (2013). Incentive Pay Programs Do Not 
    Affect Teacher Motivation or Reported Practices Results From Three 
    Randomized Studies. Educational Evaluation and Policy Analysis. 
    35(1), 3-22.
Xu, Z., Hannaway, J., and Taylor, C. (2011). Making a difference? The 
    effects of Teach For America in high school. Journal of Policy 
    Analysis and Management. Vol 30(3), 447-69.

    The Chairman. Thank you, sir.
    Dr. Holliday.

    STATEMENT OF TERRY HOLLIDAY, B.E., M.Ed., Ed.S., Ph.D., 
COMMISSIONER OF EDUCATION, COMMONWEALTH OF KENTUCKY, FRANKFORT, 
                               KY

    Mr. Holliday. Chairman Alexander, Senator Murray, and 
members of the committee, thank you for inviting me to testify 
about the importance of supporting teachers and school leaders 
through reauthorization of the Elementary and Secondary 
Education Act.
    First, I'll express my thanks to the Chairman and Ranking 
Member and committee members for their work on reauthorization. 
Please continue this important work. We must have a stable 
Federal law to support our States and schools, and I can assure 
you my fellow chiefs really support the work that you're 
currently engaged in.
    As a former teacher, principal, local superintendent, State 
superintendent, and past president of the Council of Chief 
State School Officers, I'm more certain today than ever before 
that the success of public education is directly related to the 
quality of instruction in every classroom and leaders in every 
school building. With over 43 years of this work, I offer three 
points for your consideration as you look to reauthorize ESEA.
    Point 1: To adequately address teacher and leader 
development in our public schools, we must look at a systemic 
approach. We cannot try fixing one part of the system without 
looking at and addressing the entire system. This means we must 
address teacher and leader preparation programs, recruitment of 
teachers and leaders into the profession, professional 
development, evaluation, retention, and working conditions.
    Here are just a few examples of how States are taking the 
lead and may not need the Federal guidelines to be too strict. 
The Council of Chief State School Officers board has recently 
developed priorities for ESEA reauthorization that include the 
following measures of a quality system. It must have multiple 
measures of teacher and leader performance, not relying solely 
on just tests. We need to make meaningful differentiation of 
performance of teachers and leaders, and we need to provide 
actionable information to inform professional development.
    I was honored to be co-chair of the task force that 
developed the standards for the new Commission on Accreditation 
of Teacher Preparation Programs. I can assure you that these 
national accreditation standards are very rigorous and will 
require significant improvements in teacher and leader 
preparation programs.
    Kentucky and other States are currently requiring programs 
in our States to meet these new national accreditation 
standards. Kentucky worked with Learning Forward and five other 
States to establish best practice guidelines for professional 
development.
    These guidelines focus on customizing professional 
development that moves toward professional learning to meet the 
needs of teachers and students. Also, these guidelines focus on 
measuring the impact of professional learning on student 
outcomes.
    Kentucky, like many other States, has been working to 
improve its low performing schools and close achievement gaps. 
We have found a model that seems to work well in these schools. 
The model is an intensive diagnostic review of the 
instructional program in the school to identify areas for 
improvement. We then provide onsite math, literacy, and 
principal coaches to provide just-in-time support to improve 
instruction. We have seen schools move from the bottom 5 
percent in Kentucky to the top 10 percent with this model.
    Point 2: This systemic work must be done with teachers and 
not to teachers. In Kentucky, we have developed strong 
relationships with teachers' unions, leadership associations, 
and other key stakeholders.
    Our teacher and leader effectiveness system took years to 
develop, and we are continuing to improve the system. As a 
former teacher, I am very concerned that teachers across this 
Nation feel that they are under attack due to the current 
education reform efforts around teacher evaluation.
    Point 3: In order to create a system of support for 
teachers and leaders, we, as State leaders in education, do not 
need review or approval from the U.S. Department of Education. 
In Kentucky, we have built a successful system because it was 
done by Kentuckians. It was our teachers, our school leaders, 
and our community that decided what worked best for us. I want 
the same for my fellow State chiefs.
    Thank you for this opportunity to speak to you.
    [The prepared statement of Mr. Holliday follows:]
    Prepared Statement of Terry Holliday, B.E., M.Ed., Ed.S., Ph.D.
    Chairman Alexander, Senator Murray, and members of the committee, 
thank you for inviting me to testify about the importance of Supporting 
Teachers and School Leaders through the reauthorization of the 
Elementary and Secondary Education Act (ESEA).
    First, I express my thanks to the Chairman, Ranking Member and 
committee members for their work on reauthorization. Please continue 
this important work. We must have a stable Federal law to support our 
States and our schools. It is critical for us to have that certainty to 
move forward and make continued progress in our schools.
    As a former teacher, principal, local superintendent, State 
superintendent and past president of the Council of Chief State School 
Officers, I am more certain today than ever before that the success of 
public education is directly related to the quality of teachers in 
every classroom and leaders in every school building. Over the last 43 
years of doing this work, I offer three fundamental points for your 
consideration as you look to reauthorize ESEA.
    Point 1: To adequately address teacher and leader development in 
our public schools, we must look at a systemic approach. We cannot look 
at trying to ``fix'' one part of the system without looking at 
addressing the entire system. This means we must address teacher and 
leader preparation programs, recruitment of teachers and leaders into 
the profession, professional development, evaluation, retention and 
working conditions. Here are just a few examples of how States are 
taking leadership in this systemic work:

    <bullet> The Council of Chief State School Officers' board has 
recently developed priorities for ESEA reauthorization that include the 
following measures of a quality system for supporting teachers and 
school leaders:

        <bullet>  Multiple measures of teacher and leader performance;
        <bullet>  Meaningful differentiation of performance; and
        <bullet>  Actionable information to inform professional 
        development and support.

    <bullet> The Council of Chief State School Officers recently 
published a report titled ``Our Responsibility: Our Promise,'' which 
provided key recommendations to States on how to improve teacher and 
leader preparation programs. Kentucky and several other States are now 
working to implement those recommendations that focus on program 
approval, licensure, and data systems.
    <bullet> As co-chair of the task force that developed the standards 
for the Commission on Accreditation of Educator Preparation Programs 
(CAEP), I can assure you that these national accreditation standards 
are very rigorous and will require significant improvements in teacher 
and leader preparation. Kentucky and other States are requiring 
preparation programs to gain national accreditation through CAEP.
    <bullet> Several States, including Kentucky, require 1- to 2-year 
internships prior to teaching candidates receiving their teaching 
license.
    <bullet> Kentucky worked with Learning Forward and five other 
States to establish best practice guidelines for professional 
development. These guidelines focus on customizing professional 
development that moves toward professional learning to meet the needs 
of teachers. Also, these guidelines focus on measuring the impact of 
professional learning on student outcomes.
    <bullet> Kentucky provides 24/7 online access to all teachers and 
leaders in Kentucky to thousands of hours of high-quality professional 
development. This access ensures teachers and leaders in our rural and 
poverty communities have equal access and opportunity to high-quality 
professional development.
    <bullet> Kentucky has implemented a teacher and leader evaluation 
system that focuses on continuous professional growth and improving 
student learning. This evaluation system is housed electronically so 
the school, district and State can analyze and identify areas for 
improvement which in turn inform preparation programs on areas of 
improvement.
    <bullet> Kentucky borrowed heavily from the great work in North 
Carolina with regard to National Board Certification and the Working 
Conditions Survey. We have learned that teacher retention is strongly 
correlated with the strength of leadership in the school building.
    <bullet> Kentucky, like many other States, has been working to 
improve its low-performing schools and close achievement gaps. We have 
found a model that seems to work well in these schools. The model is an 
intensive diagnostic review of the instructional program in the school 
to identify areas for improvement. We then provide onsite math, 
literacy and principal coaches to provide just-in-time support and 
coaching to improve instruction. We have seen Kentucky schools move 
from the bottom 5 percent to the top 10 percent in the State using this 
model.
    <bullet> Kentucky has worked with the Harvard Strategic Data 
Project to analyze current distribution of teachers across schools. 
Through this work, we have identified improvement areas and measures 
that we will use to hold schools and districts accountable for 
equitable distribution of effective teachers.
    <bullet> Finally, Kentucky is working to develop specific career 
pathways to provide multiple pathways for teachers to become leaders. 
Many teachers want to gain leadership roles without giving up the 
ability to teach. Kentucky is working to model what the most successful 
systems in the world provide to teachers for career pathways.

    Point 2: This systemic work must be done WITH teachers and leaders 
and not done TO teachers and leaders. In Kentucky, we have developed 
strong relationships with teachers' unions, leadership associations, 
and other key stakeholders. Our teacher and leader effectiveness 
systems took years to develop and we are continuing to improve the 
systems. As a former teacher, I am concerned that teachers across the 
country feel that they are under attack due to the current education 
reform efforts around teacher evaluation.
    Point 3: In order to create a system of support for teachers and 
school leaders, we as State leaders in education, do not need review or 
approval from the U.S. Department of Education. In Kentucky, we have 
built a successful system because it was done by Kentuckians. It was 
our teachers, our school leaders and our community that decided what 
worked best for us. I want the same for my fellow State Chiefs.
    If the Federal Government does play a role in evaluations, it 
should be to ensure these systems are strong and effective. Congress 
should reauthorize ESEA to give States the ability to use ESEA funds, 
such as title IIA, more effectively to develop and implement State 
systems.
    Through a State-led approach, we can accomplish several things:

    <bullet> First, we will remain committed to ensuring that all 
students are taught by--and all schools are led by--excellent 
educators. We can do this in a way that makes the most sense for each 
State. Every State has a different timeline and method for 
implementation. It cannot be dictated by a Federal timeline, but must 
be decided by stakeholders working together within a State.
    <bullet> Second, we will remain committed to using information 
about teacher performance to determine how to support educators and 
ensure that disadvantaged students receive high-quality instruction. If 
this data remains in the control of States, and efforts to act on the 
data is led by States, we can better use this information to support 
teachers and principals. If we find it is not working well, we can 
quickly make mid-course corrections to better assist those in the 
field. If this is a part of Federal law, I fear we will be working to 
meet reporting deadlines, rather than working to support teachers.
    <bullet> Third, we will maintain State control in developing 
evaluation and support systems and in determining how it coordinates 
across districts. These systems will be designed by educators in each 
State, for educators in each State. We will determine the best systems 
to meet the needs of our educators and roll them out on a timeline that 
meets the needs of our teachers, principals and students.

    I appreciate the opportunity to speak with the committee today and 
look forward to your questions.

    The Chairman. Thank you, Dr. Holliday.
    Mr. Hinojosa.

STATEMENT OF SAUL HINOJOSA, SUPERINTENDENT OF SCHOOLS, SOMERSET 
           INDEPENDENT SCHOOL DISTRICT, SOMERSET, TX

    Mr. Hinojosa. Chairman Alexander, Ranking Member Murray, 
and members of the committee, thank you for inviting me to 
testify today. I am the superintendent of the Somerset 
Independent School District in Bexar and Atascosa County.
    Briefly, my district, established in 1922, is located in 
Somerset, TX, which is 15 miles southwest of downtown San 
Antonio. There are 3,956 students enrolled in our seven 
campuses from age 3, comprising of Head Start students, through 
12th grade.
    When you look at our demographics, 86 percent of our 
students are Hispanic, 78 percent are economically 
disadvantaged, and 59 percent are considered at-risk. Also, 53 
percent of our teachers have 5 years of experience or less, and 
most travel across several districts through San Antonio, which 
has traditionally presented a significant challenge to retain 
teachers.
    I am here today to tell you about my experience using a 
Teacher Incentive Fund grant to support substantial 
improvements in teaching and learning in the district. While I 
clearly saw the need for improvements in classroom teaching and 
better support for teachers and school leaders in the district, 
the TIF grant provided me with the resources, momentum, and 
partnerships to build support for the kind of leap forward that 
was needed.
    My district has embedded these changes in our budget and 
processes and will work to sustain these improvements after the 
grant ends. In my view, we must recognize and reward teachers 
who accelerate student learning, take on the most challenging 
assignments, and serve in leadership roles, rather than basing 
teacher pay solely on years of experience and degrees earned.
    Beginning in 2010, we partnered with the National Institute 
for Excellence in Teaching, which oversees a national teacher 
effectiveness reform called TAP, The System for Teacher and 
Student Advancement. We applied for a Federal TIF grant with 
the goal of putting our teachers and principals at the heart of 
efforts to drive higher levels of instruction in every 
classroom.
    Using TIF funds, we piloted TAP at our middle school, which 
had been rated academically unacceptable under the 
accountability system then in use in Texas. We later expanded 
TAP to our high school--it was also failing--and last year 
rolled it out district-wide.
    All six of our campuses met State standards this time for 
the first time since 2011, including three that were rated as 
``improvement required'' in 2013. In addition to district-wide 
gains, we made progress closing achievement gaps with our 
special education and English language learner students.
    We had to try something new, and we wanted to find an 
approach that our teachers and principals could strongly 
embrace. Our system includes performance-based compensation, 
but also focuses on best practices utilizing student data to 
align staff development with student and teacher needs.
    New evaluation instruments provided more accurate, timely, 
and useful information on teacher instruction. Teacher leaders 
are part of the team that conducts evaluations and provides 
support for improvement. At Somerset ISD, we had over 70 
percent of our staff vote yes to this new approach.
    When these measures are implemented with fidelity, you can 
see improvement. But the real credit lies with the teachers and 
principals who are in the trenches doing the work.
    The power of this teacher-centered approach is described by 
one of our veteran teachers, Joshua Harrison, who credits the 
feedback for his improved math teaching at Somerset's Junior 
High. Last year, 158 of 160 eighth graders passed the State 
algebra test, which included special needs and English language 
learners. ``One of the reasons I stay here is because of TAP,'' 
he says. ``With the four observations, we can find out how to 
improve within the year. It's helped us push our thinking.''
    We change our approach based on data and our own student 
needs. We now have in place a powerful structure for ensuring 
consistent delivery of strong instruction in every classroom.
    I encourage you to authorize the Teacher Incentive Fund to 
allow other districts and States to benefit as we did.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Hinojosa follows:]
                  Prepared Statement of Saul Hinojosa
    Chairman Alexander, Ranking Member Murray, members of the 
committee, thank you for inviting me to testify today. My name is Saul 
Hinojosa, and I am superintendent of the Somerset Independent School 
District in Bexar and Atascosa County, TX.
    Briefly, my district--established in 1922--is located in Somerset, 
TX which is 15 miles southwest of downtown San Antonio, TX. There are 
3,956 students enrolled in our 7 campuses from age 3 comprising of Head 
Start students through 12th grade. When you look at our demographics 86 
percent of our students are Hispanic, 78 percent are economically 
disadvantaged and 59 percent are considered at-risk. Fifty-three 
percent of our teachers have experience of 5 years or less and most 
travel across several districts through San Antonio which has 
traditionally presented a significant challenge to retain teachers.
    I am here today to tell you about my experience using a Teacher 
Incentive Fund TIF grant to support substantial improvements in 
teaching and learning in my district. While I clearly saw the need for 
improvements in classroom teaching and better support for teachers and 
school leaders in my district, the TIF grant provided me with the 
resources, momentum and partnerships to build support for the kind of 
leap forward that was needed. My district has embedded these changes in 
our budget and processes and will work to sustain these improvements 
after the grant ends.
    As you know, research shows that teacher quality is the most 
important school-related factor in determining student achievement 
growth. We simply cannot close the achievement gap without aggressively 
improving both the overall effectiveness of teachers who work in 
schools, and the supports to those teachers, who serve large numbers of 
underprivileged children.
    In my view, we must recognize and reward teachers who accelerate 
student learning, take on the most challenging assignments, and serve 
in leadership roles, rather than basing teacher pay solely on years of 
experience and degrees earned.
    Beginning in 2010, we partnered with the National Institute for 
Excellence in Teaching (NIET) which oversees a national teacher 
effectiveness reform called TAP: The System for Teacher and Student 
Advancement. We applied for a Federal TIF grant with the goal of 
putting our teachers and principals at the heart of efforts to drive 
higher levels of instruction in every classroom, even those of our most 
effective teachers.
    Using TIF funds, we piloted TAP at our middle school, which had 
been rated ``academically unacceptable'' under the accountability 
system then in use in Texas. We later extended TAP to our high school--
it was also failing--and last year rolled it out district-wide.
    All six of our campuses met State standards this year for the first 
time since 2011, including three that were rated as ``improvement 
required'' in 2013. That came even as the Texas Education Agency set 
the accountability bar for schools higher. Five of Somerset's campuses 
had failed at least once in the previous 3 years.
    Somerset had been using the Texas Professional Development 
Appraisal System, or PDAS, to evaluate our staff. PDAS is a yearly 45 
minute observation that is scheduled with the teacher. This model was 
implemented in Texas in 1997 and many educators dismiss it as weak and 
outdated. It certainly wasn't working for us.
    We had to try something new, and we wanted to find an approach that 
our teachers and principals could strongly embrace. The TAP System, and 
the TIF grant, requires support and buy in from the faculty before 
implementation. When these new measures are implemented with fidelity, 
you can see improvement. But the real credit lies with the teachers and 
principals, who are in the trenches doing the work.
    In the past, teachers in my district did not want to teach the 
classes with the highest numbers of struggling students. The way TAP is 
structured; it leads your best teachers to want to work with the 
students that are struggling the most which, traditionally have been 
our special education and English Language Learner students. They are 
able to show significant growth and improvement, and they are supported 
by a team of colleagues. The chart below exhibits Somerset ISD 
improvements in these subgroups:


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    As you know, TIF was established by Congress in 2006 to encourage 
States and districts to develop comprehensive programs to support 
effective classroom teaching and increased student academic achievement 
growth in high-need schools.
    What TAP did for us and what it does for others is create:

    <bullet> New teacher leadership roles and a school leadership team;
    <bullet> School-based professional development;
    <bullet> Accurate evaluation of performance; and
    <bullet> An opportunity for teachers to earn additional 
compensation.

    Here's how it works and why it's so successful.
    The TAP system increases the skills of all teachers by using 
teacher leaders in that school to raise instructional excellence across 
the faculty. Teacher leaders in each school form a leadership team with 
administrators that are responsible for setting school goals, providing 
school-based, job-embedded professional development, and conducting 
multiple performance evaluations of each teacher. Educators have the 
opportunity to earn additional compensation based on their own 
classroom performance, the performance of their students, the 
performance of the campus, and for taking on new leadership roles and 
responsibilities.
    This model creates a more cohesive and coherent approach to 
professional evaluation and development based on the needs of our 
students, and takes into account the specific instructional needs of 
their teachers. Perhaps the most important aspect of this approach is 
the way it enables teachers themselves to lead the effort to redefine 
instructional excellence at a higher level and to embed these higher 
standards in school culture, conversations and practices.
    Within each school's leadership team, we have one master teacher 
for every 15-20 classroom teachers, and one mentor for every six to 
eight classroom teachers. Teachers must apply for these positions, and 
demonstrate effective instruction themselves, as well as an ability to 
coach and support other adults. They have ongoing training and 
accountability to ensure that they are providing high quality support 
for their peers. Most critical of all, we use time within the school 
day for professional learning ``clusters'' and ongoing coaching in 
classrooms, so that professional growth is a part of everyone's job. 
Standards for teaching are spelled out and used in both evaluation and 
professional support, creating a common language around excellent 
instruction.
    In my district, principals are supported in developing distributed 
leadership teams that involve teacher leaders in analyzing data, 
setting school goals, planning how to meet those goals, supporting 
teachers in classrooms to make measurable progress, evaluating 
instruction and measuring whether goals have been met by meeting weekly 
with district instructional teams.
    This approach is working, not just in my district, but in schools 
across 10 States that have received support through TIF that are 
demonstrating significant, sustained increases in teacher skill and 
student achievement growth compared to comparable schools. We looked 
carefully at TAP and at schools and districts in other States using 
this approach as we considered using it.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    The power of this teacher-centered approach is described by one of 
our veteran teachers, Joshua Harrison, who credits TAP feedback for 
improving his math teaching at Somerset's junior high campus. Last 
school year, 158 of his 160 eighth-graders passed the State algebra 
test, including special-needs students and English-language learners.
    ``One of the reasons I stay here is because of TAP,'' he said. 
``With the four observations, we can find out how to improve within the 
year. It's helped push our thinking.''
    There are many other teachers such as Joshua Harrison who have 
pushed their thinking and accepted the TAP model. As a result, we 
improved our teacher retention rate at the junior high and high school. 
Surveys have illuminated that teachers appreciate the level of support 
they receive from district and campus staff to help them improve their 
craft. This support comes in the form of weekly cluster meetings, walk-
throughs, and collaboration with colleagues to discuss research-based 
methodologies on how to improve their performance based on student 
data.
    In a national survey of across a broad range of schools using this 
approach, teachers strongly support the TAP System. I have found 
similar support among my faculty.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Principals report that this approach results in more effective 
teaching in their schools. Our results are similar to the national 
results.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    There is a real difference in results between TAP evaluations and 
current practice. To get such different results, you cannot just tinker 
around the edges. To achieve these results, you have to completely 
reset expectations. No longer can 90 percent of teachers in a school be 
far above average. Resetting expectations is a critically important 
step and requires buy in and the active engagement of teachers.
    These reforms must be done with teachers and not to teachers. In 
TAP we have found that the system must have two goals--to measure 
performance and to support improvement. These two goals represent two 
distinct levers for change--one is to produce sound data on teacher 
effectiveness for performance decisions, and the other is to provide 
individualized and intensive support to teachers to improve their 
instruction. Increases in teacher effectiveness then derive not only 
from attracting and retaining talented teachers but also from growing 
the talent of every teacher, every year.
    TAP's instructional rubric is designed to be used to measure 
teacher practice and to guide improvements in that practice. The 
specificity of the rubric indicators provides teachers with a clear 
understanding of what is expected, and creates a conversation about 
good practice. Evaluators undergo 4 days of training as a team, with 
principals, master and mentor teachers training together, to become 
certified evaluators. This calibration process is essential in laying 
the foundation for accurate, consistent and reliable evaluations.
    TAP is not a one-size-fits-all, in fact, TAP helps us to create the 
scaffolding or structure into which we layer our own unique needs and 
priorities. We change our approach based on data and our own student 
needs. We now have in place a powerful structure for ensuring 
consistent delivery of strong instruction in every classroom. The 
approach we are using as a result of the TIF grant has provided an on-
the-ground case study for other districts and the State as they move to 
support more effective instruction and revise teacher evaluation and 
support systems. I encourage you to authorize the Teacher Incentive 
Fund and allow other districts and States to benefit as we did.

    The Chairman. Thank you, sir.
    Ms. Moore.

  STATEMENT OF RACHELLE MOORE, 1ST GRADE TEACHER, MADRONA K-8 
                      SCHOOL, SEATTLE, WA

    Ms. Moore. Thank you, Chairman Alexander, Senator Murray, 
and distinguished committee members, for the opportunity to 
speak today. My name is Rachelle Moore, and I am a National 
Board Certified Teacher and a proud member of the National 
Education Association.
    I have been teaching first grade at Madrona K-8 in Seattle 
for the past 5 years. At Madrona, the majority of my students 
are minorities, lack early educational experiences, and live in 
poverty.
    I grew up wanting to be a teacher like my dad, who has been 
teaching high school arts for the past 35 years. I decided to 
follow my childhood dreams and become a teacher, hoping to 
close the achievement gaps and empower the youth of the 
future--no easy feat, for sure.
    Every one of us supports the goal of student success and 
achievement. I would argue that those of us working directly in 
the field of education or in government shaping education 
policy have an even greater investment. It begins with asking: 
What is success? What is achievement? We also need to consider 
the unique challenges and circumstances of each student's life.
    There is no way to measure the intangibles in a student's 
life. There is no average student. Each student is shaped by 
individual experiences, and those experiences must be taken 
into consideration when shaping policies geared toward 
improving student success.
    Research shows that teachers are the most important school-
based influence on student learning. Accordingly, every student 
deserves to be taught by an excellent teacher. To ensure that 
this is the case, we must do a better job of preparing and 
retaining high-quality educators. The best way to do that is to 
invest in the continuum that includes teacher induction, 
professional growth, and teacher leadership.
    I am pleased to say that unions, in conjunction with their 
school districts across the country, are working to enhance 
student learning with teacher induction programs based on the 
successful medical model. These programs pair novice teachers, 
or residents, with experienced teachers, mentors, for an entire 
year. Such programs not only strengthen the teacher pipeline, 
but they also provide rich professional development for all 
teachers.
    For the past 2 years, I have been a mentor with the Seattle 
Teacher Residency, which is unique in that it is driven by 
teacher voices. The residency program was created by the 
Seattle Education Association, the University of Washington, 
the Alliance for Education, and the Seattle Public Schools. 
This partnership identifies the unique needs of our district 
and makes sure that they are taking steps to support incoming 
teachers so that they can best serve our diverse population of 
students.
    A major goal of the residency is to keep participating 
residents in our school district in high-need schools for at 
least 5 years, thus providing continuity for our students and 
schools. Novice teachers are often placed in high-need schools 
in communities that lack key resources and, as a result, where 
the students face many challenges.
    Back in 2010, I was one of five new hires in my school. I 
have seen more than a dozen K-8 teachers hired since then. In 5 
years, we have retained just three of the teachers that I 
started with in 2010. Imagine how difficult it is to gain 
traction as a school and provide consistency for your students 
when each year you have to start fresh with a new batch of 
teachers. Imagine that half of those teachers have no prior 
teaching experience.
    Those are the realities in high-needs schools like mine and 
why it is so important to create and expand teacher residency 
programs, including opportunities for mentoring, professional 
development, and leadership training.
    Last year, I mentored a novice teacher named Kristen. I 
shared my knowledge of first grade content with her, and I 
demonstrated how to manage a classroom, engage students in 
academic discourse, and modify my instruction based on student 
learning. I served as Kristen's coach, asking her questions and 
pushing her to reflect on teaching and learning. I made my 
decisions as a teacher visible by thinking aloud and providing 
the reasoning for what I was doing.
    In a lesson, if Kristen was observing me, I would often 
press pause and engage her in discussion about what was 
happening in a lesson and then what accommodations and 
adjustments I was making. Kristen now teaches kindergarten in a 
school with 7 of the 22 graduates from the Seattle Teacher 
Residency Program. The principals and her peer teachers who 
work with them rave about how well-prepared they are.
    Students benefit greatly from this co-teaching model in 
which two teachers are committed to their success. The student-
teacher ratio is lower, which allows us to differentiate 
instruction and spend more time working one-on-one with 
individual students.
    I am hopeful that all parties here today will work together 
on ESEA reauthorization to ensure that all students have equal 
educational opportunities and to provide the necessary 
resources to support and retain great teachers. Ultimately, 
ESEA should invest in the continuum that includes teacher 
induction, professional growth, and teacher leadership. 
Professional learning opportunities are essential to keeping 
great teachers in the classroom and helping them to be data-
driven, to identify what their students have mastered, what 
they need help in, and what kinds of help they need.
    Teachers are as unique as the students they serve. We 
adjust our lessons to help our students learn. We see what 
works and we see what does not work. We develop relationships 
within our schools, our school districts, and our States to 
help formulate the most effective teaching and learning 
practices.
    We are the ones in direct contact with students day in and 
day out. We are the ones most invested in student success, and 
we are highly trained and committed professionals. Invest in 
us. Trust and support us.
    Thank you for your time.
    [The prepared statement of Ms. Moore follows:]
                  Prepared Statement of Rachelle Moore
    Thank you Chairman Alexander, Senator Murray, and distinguished 
committee members for the opportunity to speak today.
    Good morning, everyone. My name is Rachelle Moore and I am a 
National Board Certified Teacher and a proud member of the National 
Education Association. I have been teaching first grade at Madrona K-8 
in Seattle for 5 years, where the kids do not have the opportunities I 
have been fortunate to have. At Madrona, the majority of students are 
minorities, lack early educational experiences, and live in poverty.
    I grew up wanting to be a teacher like my dad, who has been 
teaching high school arts for the past 35 years. As a child, I was 
fortunate to be afforded opportunities that helped prepare me to be a 
successful student, as well as for my career as a teacher. During my 
undergraduate years at the University of Washington, I took a detour 
and pursued a pharmacy career like my mom. Then I volunteered at 
Madrona and decided to follow my childhood dreams and become a teacher, 
hoping to close achievement gaps and empower the youth of the future--
no easy feat for sure!
    Every one of us supports the goal of student success and 
achievement. I would argue that those of us working directly in the 
education field or in government shaping education policy have an even 
greater investment. It begins with asking: What is success? What is 
achievement? One measure of success is an individual student's growth 
over the course of an academic year, but that is just part of the 
story. We also need to consider the unique challenges and circumstances 
of each student's life.
    There is no way to measure the intangibles in a student's life. 
There is no ``average'' student. Each student is shaped by individual 
experiences. Those experiences must be taken into consideration when 
shaping policies geared toward improving student success.
    Research shows that teachers are the most important school-based 
influence on student learning. Accordingly, every student deserves to 
be taught by an excellent teacher. To ensure that is the case, we must 
do a better job of preparing and retaining high-quality educators. And 
the best way to do that is to invest in the continuum that includes 
teacher induction, professional growth, and teacher leadership. 
(Source: Linda Darling-Hammond, The Flat World and Education: How 
America's Commitment to Equity Will Determine Our Nation's Future, 
2010).
    I am pleased to say that unions in conjunction with their school 
districts across the country are working to enhance student learning 
with teacher induction programs based on the successful medical model. 
These programs pair novice teachers (residents) with experienced 
teachers (mentors) for an entire year. Such programs not only 
strengthen the teacher pipeline, they provide rich professional 
development.
    For the past 2 years, I have been a mentor in the Seattle Teacher 
Residency, which is unique in that it is driven by teacher voices. This 
residency program was created by the Seattle Education Association, the 
University of Washington, the Alliance for Education and the Seattle 
Public Schools. The National Education Association has given a grant 
for the past several years to help support this program. This 
partnership identifies the needs of our school district and takes steps 
to ensure that incoming teachers have the training and support they 
need to serve our diverse population of students. For example, when 
mentors found that residents lacked assessment knowledge, we took 
action to change coursework and fill the gaps. In collaboration, we 
provide monthly training within our mentor group to help them develop 
into teacher leaders.
    A major goal of the Seattle Teacher Residency--shared by our 
network of community partners--is to keep participating residents and 
mentors in our school district for at least 5 years, thus providing 
continuity for our students and schools. Doing so is important because 
high-needs schools like mine often have difficulty retaining 
experienced and highly effective teachers. Novice teachers are often 
placed in high-need schools in communities that lack key resources and, 
as a result, where the students face many challenges. It's a very 
challenging environment to be placed in without proper support from 
more experienced colleagues.
    Back in 2010, I was one of five new hires. I have seen more than a 
dozen K-8 teachers hired since then. In 5 years, we have retained just 
three of the teachers I started with in 2010. Imagine how difficult it 
is to gain traction as a school and provide consistency for students 
when you have to start fresh with a new batch of teachers each year. 
Imagine that each year, half of those new teachers have no previous 
teaching experience. Imagine having a new administrator each year. 
Those are the realities in high-needs schools like mine and why it is 
so important to create and expand teacher residency programs, including 
opportunities for mentoring, professional development, and leadership 
training.
    I chose to be a mentor because I believed in the investment the 
program makes in all teachers and wanted to help prepare new teachers 
to be accomplished in their practice. The co-teaching model our program 
uses also addresses student outcomes. Using student work as the basis 
for instruction, we help novice teachers develop their skills in 
planning, teaching, and assessing student progress. We also reflect on 
ways to improve teaching and learning, gradually releasing 
responsibility to those we mentor.
    Last year, for example, I mentored a novice teacher named Kristen. 
I shared my knowledge of first-grade content with her and demonstrated 
how to manage a classroom, engage students in academic discourse, and 
modify instruction based on student learning. I served as Kristen's 
coach, asking questions and pushing her to reflect on teaching and 
learning. I made my decisions as a teacher visible by thinking aloud 
and providing the reasoning for what I was doing. When Kristen observed 
me, I often pressed ``pause'' and engaged her in discussion about what 
was happening in a lesson and the adjustments I was making. Kristen saw 
how I encouraged student participation and used assessment to analyze 
student growth and adjust instruction to meet our students' needs. I 
also helped Kristen learn to navigate the school district bureaucracy--
everything from taking attendance to finding a substitute teacher. All 
of this helped smooth her transition from student to teacher. Kristen 
now teaches kindergarten in a school with 7 of the 22 graduates of the 
Seattle Teacher Residency Program. The principals and peer teachers who 
work with them rave about how well-prepared they are.
    Students benefit greatly from the co-teaching model in which two 
teachers are committed to the success of each student. The student-
teacher ratio is lower, which allows us to differentiate instruction 
and spend more time working one-on-one with individual students. 
Instead of providing individualized instruction for just some of our 
students each day, with co-teaching we can meet the needs of all 20 of 
our students every day. Just last week, for example, my current 
resident Ben and I employed a strategy called parallel teaching: 
splitting the class in half to provide more opportunities for student 
participation and gathering data used to plan future lessons.
    I am also proud of my work with National Board for Professional 
Teaching Standards. Both the residency program and board certification 
have provided invaluable learning experiences for me as a teacher, 
helping me grow in my practice as I strive to make the invisible 
visible to novice teachers. I have opened the doors of my classroom to 
colleagues and engaged in authentic discussions of teaching and 
learning. I have become an instructional leader in my school and 
district, and helped improved student learning beyond my own classroom.
    I am hopeful that all parties will work together on ESEA 
reauthorization to ensure all students have equal educational 
opportunities. I am also hopeful that reauthorization will provide the 
resources necessary to support and retain teachers, such as investing 
in residency models and mentoring programs. Ultimately ESEA should 
invest in the continuum of the education profession that includes 
teacher induction, professional growth, and teacher leadership. 
Professional learning opportunities are essential to keeping great 
teachers in the classroom and helping them use data effectively: to 
identify what their students have mastered, where they need help, and 
what kinds of help they need. That means providing resources and 
support for the whole child--like good nutrition and health care--not 
just investing in high-quality teaching.
    Teachers are as unique as the students they serve. We adjust our 
lessons to help our students learn. We see what works and what does 
not. We develop relationships within our schools, our school districts, 
and our States to help formulate effective teaching and learning 
practice. We are highly trained and committed professionals, the ones 
most invested in student success, the ones in direct contact with 
students day in and day out. Listen to our voices. Invest in us. Trust 
and support us.

    The Chairman. Thank you.
    Dr. Handy-Collins.

 STATEMENT OF CHRISTINE HANDY-COLLINS, PRINCIPAL, GAITHERSBURG 
                 HIGH SCHOOL, GAITHERSBURG, MD

    Ms. Handy-Collins. Chairman Alexander, Ranking Member 
Murray, and committee members, thank you for inviting me here 
today to discuss how ESEA can better support teachers and 
school leaders. My name is Christine Handy-Collins, and I am 
the proud principal of Gaithersburg High School, a 
comprehensive diverse high school with more than 2,200 students 
and 250 employees in Montgomery County, MD.
    My 16 years as a high school principal include leadership 
in large urban and small rural schools, prior to which I spent 
10 years as a special education teacher. I also serve on the 
board of directors for the National Association of Secondary 
School Principals and would like to speak on behalf of my 
fellow middle and high school leaders.
    My experience, the experience of my colleagues, and 10 
years of rigorous research by The Wallace Foundation prove one 
large reality: school leadership matters. A nation must invest 
in the recruitment, preparation, and ongoing support of 
principals if we want each student in every school to succeed. 
The reauthorization of ESEA gives Congress the perfect 
opportunity to provide that support to school leaders.
    It takes at least 5 years to create real, sustainable 
school improvement, and leadership continuity is an essential 
condition for student success. But because of lack of support, 
one-fourth of principals leave after 1 year, and one-half of 
all principals leave after just 3 years on the job. That means 
most high school principals are not in place long enough to see 
their freshman class graduate.
    Our Nation's students and schools are already paying a 
significant cost as a result of this high turnover. Resources 
would be far better spent on the front end to develop and 
support principals so they are ready on day 1 and stay on the 
job to see their initiatives through. States and school 
districts must be directed to exert greater efforts to recruit, 
prepare, and retain principals, especially for high-need 
schools.
    I am proud to say that we get it right in Montgomery County 
with two crucial elements of principal preparation. First, a 1-
year principal internship program to allow promising leaders to 
gain hands-on instructional leadership experiences. Second, an 
intensive mentorship and professional development program to 
ensure candidates are prepared to lead schools.
    These district efforts are reinforced by the Maryland State 
Department of Education and its promising Principals Academy, a 
year-long experience in which statewide cohorts of aspiring 
principals work with accomplished school leaders to build 
leadership skills. Unfortunately, my colleagues across the 
Nation do not all have the same opportunities.
    For this reason, Congress should provide dedicated funding 
for professional development for principals. Title II is the 
primary resource of Federal funds to improve principal quality. 
ESEA bundles principal development in a vast assortment of 
allowable uses of funds.
    The reality is that principal professional learning and 
growth competes with teacher development, class-size reduction, 
and other priorities once Federal funds arrive to the district. 
As a result, the U.S. Department of Education found that 
districts use only 4 percent of title II dollars for principal 
professional development. The ESEA draft currently under 
discussion makes the conditions worse by adding even more 
allowable uses for title II funds.
    I have benefited enormously in my professional life from 
the guidance and development from my district and from our 
State and national principal organizations. As State budgets 
tighten, that professional development becomes less and less 
accessible.
    Congress recently instructed the Department of Education to 
provide guidance to States to support specialized principal 
development opportunities. The Nation's leading principal 
organizations have proposed a 10 percent set-aside for 
principal professional development. I encourage the committee 
to take that recommendation to heart.
    Not only does Congress need to provide direction on 
principal professional development, but principal evaluation as 
well. An educator's evaluation must be more informative than 
punitive. The new principal evaluation systems being developed 
by States and districts rely far too heavily, as much as 50 
percent, on student achievement data and not factors under 
their direct control.
    Of course, the ultimate goal of our work is to improve 
student performance. When we fast forward directly to a test 
score, we miss the opportunity to evaluate and develop 
principals in other areas that lead to school success, such as 
school culture and the support and engagement of teachers and 
parents and the community.
    Limiting achievement data to 25 percent of a principal's 
evaluation, as the research suggests, and tying the evaluation 
to a professional growth plan in these areas will increase the 
chances for genuine school improvement.
    Thank you for the opportunity to share these comments, and 
I look forward to your questions.
    [The prepared statement of Ms. Handy-Collins follows:]
             Prepared Statement of Christine Handy-Collins
  fixing no child left behind: supporting teachers and schools leaders
    Chairman Alexander, Ranking Member Murray, and members of the 
committee, thank you for inviting me here today to discuss how the 
Elementary and Secondary Education Act (ESEA) can better support 
teachers and school leaders. My name is Christine Handy and I am the 
proud principal of Gaithersburg High School in Gaithersburg, MD. I also 
serve on the board of directors for the National Association of 
Secondary School Principals (NASSP) and would like to speak on behalf 
of my fellow middle and high school leaders.
    I was a special education teacher for 10 years before beginning my 
career as a school leader. I have served as a high school principal for 
the past 16 years in a charter school, a small rural school, and 
presently, a large, diverse, comprehensive public high school in 
Montgomery County, MD. Gaithersburg High School has more than 2,200 
students and 250 employees.
    I attended The George Washington University's Education Leadership 
program to prepare for my first school leadership experience. The 
preparation program concluded with an internship experience where I had 
the opportunity to oversee a summer school program at a public middle 
School in Norfolk, VA. I continued in the doctoral program at The 
George Washington University and while my classwork focused largely on 
being an effective school leader, my research focused on leadership at 
the superintendent level. My preparation for being an effective school 
leader has depended primarily on professional development offered by 
the school district, the State department of education, and State and 
national principal associations where I have had the opportunity to 
attend in-person conferences, participate in online professional 
development, and learn by networking with colleagues from across the 
State and the Nation.
    Montgomery County Public Schools values professional development 
for school leaders and teachers and has allocated funds and staffing 
dedicated for this purpose. The district has a principal internship 
program to allow promising leaders the opportunity to serve as 
principals to gain valuable experience. Assistant principals also go 
through an intensive training program with mentors and receive ongoing 
professional development to ensure that they are prepared to lead 
schools.
    At the State level, the Maryland Department of Education has 
dedicated Principal Academies for new leaders and ongoing teacher and 
principal summer workshops. The Maryland Association of Secondary 
School Principals, Maryland Association of Elementary School 
Principals, and their affiliated national organizations demonstrate a 
dedication to professional development by offering ongoing workshops 
and conferences that are committed to the vision of providing excellent 
school leaders in every school.
                    importance of school leadership
    Great schools do not exist apart from great leaders, and strong 
school leadership is essential for ensuring student success. For more 
than a decade, the Wallace Foundation has sponsored rigorous research 
on school leadership, which has led to the finding that there is an 
``empirical link between school leadership and improved student 
achievement.'' Principals are recognized for their ability to influence 
a variety of factors that indirectly affect student outcomes and 
directly influence schools, including their ability to support teachers 
and create the conditions necessary for high-functioning schools. The 
research from the Wallace Foundation about successful schools is clear: 
A great teacher gets great results in a classroom, but only a principal 
can lead a school to success in all classrooms for each students' 
success and create the culture for sustaining long-term improvements.
                          esea reauthorization
    Principals respectfully request that Congress work to refocus the 
Elementary and Secondary Education Act to help put in place State and 
local education systems that will provide robust, meaningful 
accountability together with sufficient supports for educators and 
schools. The law is in dire need of this redirection to provide high-
quality educational opportunities and improved outcomes for all 
students.
                         support for principals
    Today's principals are expected to be visionary leaders, 
instructional experts, building managers, assessment specialists, 
disciplinarians, counselors, social workers, community builders, and 
more; they are also held directly responsible for student achievement 
in our Nation's schools. With the growing demands, changing 
demographics, and increased accountability to prepare students to be 
college and 
career-ready, the job imposes excessive demands on time and burnout is 
common. If principals are to meet the growing and evolving expectations 
of this demanding position, they must be provided ongoing personalized 
professional development to meet their individual and school needs. 
This is true for all school leaders, regardless of their initial 
preparation or their length of service. To meet these demands, ongoing 
mentoring, job-embedded professional development, and the time to 
participate in professional learning communities to learn from their 
peers are necessary to support all school leaders.
                      recruitment and preparation
    States and districts must be directed to put in place more rigorous 
efforts to recruit and prepare principals and assistant principals to 
be instructional leaders and improve student academic achievement in 
high-need schools through research-based programs. In recruiting the 
next generation of profession-ready school leaders, Federal policy 
should support State and school districts efforts to ensure that:

    <bullet> School districts put structures in place to ensure a 
principal continuum.
    <bullet> Prospective principals commit to work in high-need schools 
in both urban and rural environments.
    <bullet> Prospective principals reflect the increasing racial, 
ethnic, and economic diversity of our Nation's students.

    To ensure that new principals or assistant principals are 
profession-ready, candidates should have an advanced degree and 
demonstrated record of success as a teacher and teacher leader. 
Individuals with strong instructional backgrounds make better 
instructional leaders and are better able to relate to and lead 
teachers, as well as identify and model effective classroom practices.
    Congress should enact policies to ensure that every principal and 
school leader enters a school with the skills and qualities necessary 
to effectively lead a school. Legislation should support principal 
preparation programs that require candidates to demonstrate leadership 
competencies through an assessment prior to entry into a qualified 
principal preparation and certification program that includes 
partnerships between districts and local preparation programs. This 
will help ensure that the preparation programs, including curriculum 
and residencies, are clearly aligned with the realities of school 
leadership and the ``critical success factors'' of an effective 
principal. Furthermore, qualified school leader candidates must 
complete a 1-year principal residency program under the guidance of an 
accomplished school leader. Additionally, upon completion of their 
preparation program, aspiring principals should demonstrate a deep 
understanding of the domains of effective school leadership and related 
competencies through a performance-based assessment before commencing 
work as school leaders.
    NASSP strongly supports the School Principal Recruitment and 
Training Act, and we're very pleased that Senator Franken will be 
reintroducing the bill this Congress. The level of preparation required 
by grantees in the bill is critical for every principal to enter the 
profession ready and properly equipped to improve student achievement 
and to be an effective instructional leader.
                        professional development
    Professional development for principals has been largely overlooked 
by States and local districts, because the primary source of funds for 
principal development--title II--bundles principal development in a 
vast assortment of ``allowable uses of funds.'' As a result, according 
to a 2013 Department of Education survey, districts use only 4 percent 
of title II dollars for principal professional development, falling far 
short of what States and districts should be doing to support 
principals to meet the increased demands as instructional leaders of 
schools. Meanwhile, a majority of the funds have been spent by 
districts to reduce class size, which some may say has little effect on 
teacher and principal quality--the named purpose of this section of the 
law. Research and evidence over the past 10 years substantiate the role 
of principals and prove that they have an impact on student 
performance, second only to teachers in the classroom.
    Given their importance as the key catalysts for school improvement, 
ESEA and title II funds must be refocused on providing professional 
development for principals and assistant principals in a manner that 
effectively supports their role as instructional leaders. This is even 
more imperative for those school leaders serving in high-need schools 
so that they have the knowledge, skills, and resources necessary to 
improve school and student achievement, and support and improve the 
instructional practice of educators in the classroom. Furthermore, the 
law must afford principals proper training to help them improve teacher 
quality in their schools.
    NASSP, together with the National Association of Elementary School 
Principals (NAESP), released policy recommendations in 2013 to better 
support principals in implementing new teacher evaluation systems. The 
report found that there has been insufficient training to complete 
teacher evaluations that will allow principals to differentiate 
performance and engage in a high level of instructional coaching, 
provide meaningful feedback to teachers, and use evaluation results to 
inform decisionmaking in their schools.
    We respectfully encourage you to include robust provisions in a 
reauthorized ESEA that will support principal professional development, 
including a requirement that districts who receive title II funding 
allocate no less than 10 percent of the funds available for 
professional development for elementary, middle, and high school 
principals to improve instructional leadership. This must be a separate 
section of the reauthorized law to ensure that principals are afforded 
the recognition and proper support in executing their leadership role 
in schools successfully.
                          principal evaluation
    Principals are concerned about the new evaluation systems that are 
being developed by States and districts that were a condition for 
receiving ESEA flexibility waivers. We feel that Congress has a 
responsibility now to provide guidance to State and local efforts in 
order to support effective principal evaluation systems that will lead 
to improved performance. An effective evaluation system is 
collaboratively developed; provides meaningful feedback to the 
individual principal; is based on multiple measures; and takes into 
account student growth as well as evidence of effective school 
leadership practices. According to the latest research related to 
principal evaluation, the Nation's most prominent principals 
organizations recommend that no more than a quarter of a principal's 
evaluation be based on student achievement and growth. Further, any 
principal evaluation system must be tied to professional improvement 
plans for principals and have a strong focus on six key domains of 
leadership responsibility within a principal's sphere of influence. 
These domains are school leadership; student growth and achievement; 
school planning and progress; school culture; stakeholder support and 
engagement; professional qualities and practices; and professional 
growth and learning.
                   pathways for principal leadership
    In a reauthorized ESEA, Congress must provide support for school 
districts to enhance leadership capacity through a full range of 
leadership roles for assistant principals, early career principals, and 
veteran school administrators. In order to develop strong instructional 
leaders to mentor and support the pipeline of future school leaders, 
accomplished educational leaders must be supported to:

    <bullet> Cultivate their understanding of leadership and school 
improvement processes to meet high levels of performance;
    <bullet> Help novice principals gain a clear vision of 
instructional leadership;
    <bullet> Engage stakeholders in developing and realizing excellence 
in instructional leadership; and
    <bullet> Participate in meaningful community engagement and 
advocacy on behalf of their students, teachers and schools.

    Sustained improvement in schools takes no less than 5 years to put 
in place, and leadership continuity during those 5 years is absolutely 
essential. Yet the most recent data indicates that one-fourth of 
principals leave after 1\1/2\ years, and half of all principals, leave 
after 3 years on the job. That means most high school principals are 
not in place long enough to see their freshman class graduate. More 
important, those principals are not in place long enough to see their 
school improvement efforts all the way through. Efforts are rebooted 
with the arrival of each new principal. I submit that States and 
districts are already paying a significant cost for unfulfilled 
improvement efforts as a result of principal turnover. Those resources 
would be far better spent on the front end to support principals so 
they will stay on the job long enough to see their initiatives through. 
That leadership continuity is an essential condition for student 
success. It is a condition the Federal Government is uniquely 
positioned to advance with its next reauthorization of ESEA.

    The Chairman. Thank you, Dr. Handy-Collins, and thanks to 
all of you for being here. We'll now begin a series of 5-minute 
questions.
    Dr. Holliday, let me begin with you. Since I only have 5 
minutes, I'm going to ask short questions, and let me see if I 
can elicit some short answers. You're a former president of the 
Chief State School Officers, right?
    [No verbal response.]
    The Chairman. For the last 30 years or so, you've been 
working together to development--the Chief State School 
Officers--to develop standards, tests, accountability systems. 
Am I correct about that?
    Mr. Holliday. Yes, sir.
    The Chairman. You said in your testimony that you don't 
think Washington should--well, let me ask you this. If you were 
reauthorizing No Child Left Behind, do you favor keeping the 17 
Federal tests?
    Mr. Holliday. Yes, sir. The chiefs favor annual assessment, 
but there are different ways you can get at annual assessment. 
We support annual assessment with some innovation ability to 
look differently at something other than just an annual 
multiple choice test.
    The Chairman. Do you favor the disaggregation of the 
results?
    Mr. Holliday. Absolutely, sir.
    The Chairman. So you favor that. Then we get to the 
question, which is sometimes contentious, about who decides 
whether a school or a teacher is succeeding or failing, and 
what are the consequences of that. We call that the 
accountability system. Now, Kentucky, I gather, has its own 
accountability system.
    Mr. Holliday. Yes. We were able to be a little creative 
with the waiver. Now we're getting a little micromanagement 
with the waiver.
    The Chairman. What would you say to those people who 
believe that if we have the Federal tests and if we 
disaggregate the results, we can't trust Kentucky or other 
States to come up with their own ways to decide whether a 
school or a teacher is succeeding or failing and what the 
consequences should be? Some people say that would be moving 
backward.
    Mr. Holliday. They're definitely stuck in the 1980s, 
because the chiefs now--if you look at the work in the last 5 
to 10 years, you see dramatic change in responsibility and 
accountability from the chiefs. And don't forget, I serve on 
the NAGB board, and every 2 years you get the truth. So States 
might be able to----
    The Chairman. Which is the National Assessment of----
    Mr. Holliday. That's right, National Assessment of 
Educational Progress. You get a State-by-State ranking. You get 
the breakouts by the demographics. It's a treasure trove of 
data to hold States accountable.
    The Chairman. Kentucky began some time ago its work on 
teacher effectiveness. Why do you not think that the U.S. 
Department of Education should approve--or do you think it 
should approve what you do about teacher effectiveness in 
Kentucky?
    Mr. Holliday. Oh, it was the issue of guiding principles 
becoming micromanagement. We worked for 3 years to get a matrix 
system at our unions and had buy-in from everybody. We sent the 
waiver in, and one cell in one little page--``Oh, we're not 
going to approve your waiver again if you don't fix that.'' 
That's micromanagement, and that's what the chiefs are very 
much against. It usually happens when you move from general 
principles to actually monitoring and overseeing the waivers.
    The Chairman. Ms. Moore, in April, Washington State's 
waiver was revoked by Secretary Duncan because that State 
legislature wouldn't pass legislation requiring standardized 
test results to be used in teacher-principal evaluation 
systems. Instead, the law in Washington allows local school 
districts to decide which tests they use.
    Now, you're a proud member of the National Education 
Association. What would you say to those who say that if we 
just turn it all back to Washington that the teachers' union 
will stop good teacher evaluation systems in your school 
district or in your State?
    Ms. Moore. Well, I believe--I mean, we definitely need 
measures to indicate student growth and to identify gaps and to 
make sure that there is accountability. From my own experience, 
I know that there's a number of other indicators that can be 
used beyond just testing.
    I know what my expectations are in order to make sure that 
a first grader is prepared to go on into second grade 
successfully and so forth. I would also say that----
    The Chairman. If I may interrupt, who do you think should 
be making those decisions? Do you think those should be made 
here, or do you think Washington State or Tennessee or Texas or 
Kentucky should be developing their own standards for whether 
teachers are succeeding or failing and what the consequences 
are?
    Ms. Moore. I guess I believe in the ground-up idea that 
we're really listening to teachers' voices and that it should 
be a more personalized system where teachers have some buy-in 
in that. We should be able to trust the system and believe in 
it, knowing that it's part of a larger professional growth 
system.
    As teachers, we're professional, and we're committed to 
this work. We want to grow, and we want our students to learn. 
I would argue that teachers should have some say in that, and 
that it should be knowing the students in the area that you're 
teaching in.
    The Chairman. Thank you very much.
    Mr. Hinojosa, my time is up. I simply want to underscore 
and thank you for your comments about the Teacher Incentive 
Fund which Secretary Spellings recommended and Secretary Arne 
Duncan has strongly endorsed and which is an important way, I 
believe, to help local school districts come up with their own 
ways of evaluating teachers and relating student achievement to 
teacher performance.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Ms. Moore, I know that teaching in a high-poverty school, 
you and your colleagues face some real challenges on a daily 
basis. Now, you have decided to continue teaching at your 
school, even as a lot of the colleagues that you mentioned have 
left. And because you're a terrific teacher, you've been chosen 
to be a mentor to support new teachers that you talked about as 
they get into the classroom.
    Can you talk about how the support you received enabled you 
to stick with teaching in your school, including being able to 
take a leadership role in the profession?
    Ms. Moore. Well, I would just say that, definitely, all of 
those professional learning opportunities and opportunities to 
become a teacher leader have been something that I invested in 
myself in order to advance myself as an educator. It all goes 
back to the student learning piece, where I want to stay in the 
school because I see the changes that I'm able to make with 
students.
    I've been invested in by the local union, whether that be 
through my National Board Certification--they provided me with 
opportunities to be a part of a cohort and go through that 
process with a mentor who had done National Boards, as well as 
the Washington Education Association provided jump start 
preparation programs.
    Seeing that buy-in from the State and the local level has 
really shown me that they're very invested in accomplished 
practice, and that has helped me continue to believe that I'm 
going to be able to do great things and, hopefully, encourage 
others, such as in the mentoring program, to become teacher 
leaders themselves and be on that board trajectory toward board 
certification one day.
    Senator Murray. So that extra investment and attention 
support was critical in you staying in a very tough 
environment?
    Ms. Moore. Absolutely, yes.
    Senator Murray. Dr. Goldhaber, in your testimony you 
highlighted research on teacher quality showing that any way 
you cut the data, poor kids, kids of color, get less than their 
fair share when it comes to effective instruction. Can you 
describe those findings to us on this committee and talk about 
why it's so important that we change those patterns?
    Mr. Goldhaber. Well, describe the findings--there are 
studies that look both within States--Washington State being 
one of them--and across States and look at the probability that 
a student of a particular race or ethnicity or a student who is 
eligible or not eligible for free or reduced-price lunch is 
likely to be taught by a more experienced teacher or a teacher 
who is nationally board certified or a teacher who seems to 
produce large student learning gains on standardized tests.
    No matter how you cut the data, the probability is lower 
that minority students and economically disadvantaged students 
are likely to have access to those more experienced, more 
effective teachers. Why is it important? It's important because 
we now know the impact that teachers have on long-term academic 
and labor market success. I think that it's part of an equal 
opportunity society and realizing the American dream that the 
public institutions we have should do the best job they can to 
give disadvantaged students an opportunity to succeed.
    Senator Murray. And the best way to do that is with a 
highly effective teacher.
    Mr. Goldhaber. There are lots of things that affect student 
achievement. My read on the education literature that among the 
things over which schools have control, the best way to do it 
is a highly effective teacher.
    Senator Murray. Dr. Handy-Collins, I have heard from 
principals in my State that they are not receiving the 
professional development and support that they need. I know I 
don't need to tell you that effective school leaders play a 
really critical and important role in students' academic 
success, especially in our high-need schools.
    How important is it that we provide a dedicated source of 
funds to support and retain effective principals?
    Ms. Handy-Collins. It is very important that we provide 
funding for professional development for our school leaders, 
because we are in a time where our schools are more diverse, we 
have change in accountability as well as different assessments, 
and we're preparing students for the 21st century. We want all 
of our students to be college- and career-ready, and to lead 
those efforts in a school today requires a different kind of 
training.
    It's important that we provide professional development at 
the local levels, at State levels, and also it's important for 
our leaders to learn from each other and be able to participate 
in a professional learning community, not just at the local 
level but on the State and national levels as well.
    Senator Murray. So at the Federal level, if we don't have a 
dedicated source of funding for funds to support and retain 
effective principals, what would happen?
    Ms. Handy-Collins. Well, I think that we can only ensure 
that--we won't know that States are consistently implementing 
professional development for our school leaders. It gets hidden 
in one of those things that you can use for--what you can use 
the funds for--rather than what you must use the funds for. So 
we're advocating for dedicated funding toward principal and 
school leader professional development.
    Senator Murray. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murray.
    Senator Cassidy.

                      Statement of Senator Cassidy

    Senator Cassidy. Dr. Goldhaber, a couple of things. I'm not 
a teacher. Well, I am a teacher. I teach with a medical school, 
and so I have some experience. Pobably my main experience is 
that my son graduated from an inner city school, 80 percent 
minority, kind of a tough neighborhood sort of thing, with an 
occasional murder off the block.
    How do you define access? Where my son attended school, 
there were great teachers. He's now at an Ivy League school. 
Yet it was an 80 percent minority school and probably didn't do 
very well in the standardized testing. Is access defined as the 
child actually being in the classroom with the teacher, or 
having the option to be in the classroom with the teacher? Do 
you follow what I'm saying? How do you define access?
    Mr. Goldhaber. I want to be really clear that what I'm 
talking about is probability. Certainly, I don't want to 
suggest that disadvantaged students never or rarely have access 
to effective or highly credentialed teachers. That's not true.
    Senator Cassidy. So you're looking at macro data?
    Mr. Goldhaber. I'm talking about probabilities, and access 
is defined, in terms of the studies I'm thinking of, at the 
classroom level.
    Senator Cassidy. I got you. If the child is in the 
classroom.
    Mr. Goldhaber. That's correct.
    Senator Cassidy. Second, I've read several things that the 
annual testing poorly correlates between a teacher and a 
child's performance. And yet you suggest that, no, you're quite 
able to evaluate a teacher with longitudinal data in terms of 
how that child does. Is that a fair statement? You seem to find 
value where others do not.
    Mr. Goldhaber. I think that the research is pretty 
definitive, that any form of evaluation is imperfect, and that 
one way that we can evaluate teachers is based on their 
contribution to student learning gains on standardized tests, 
so-called value-added----
    Senator Cassidy. Please be brief. We have limited time.
    Mr. Goldhaber. I do think that there's evidence suggesting 
that that measure is connected to students' later success.
    Senator Cassidy. So you must have regression analysis 
within that. Can you give me your top four, actually give me 
the top two. What are the top two predictors on regression 
analysis, independent variables, on a student's success, a 
teacher's success, and a school's success? Can you do that?
    Mr. Goldhaber. No, because I'm not quite sure I understand 
the question.
    Senator Cassidy. If you put in a variable, if you have a 
child who is of a certain demographic in a suburban school, but 
he does well, and you put the same child of the same 
demographic in an urban school and he does well, you have to 
correct for the demography of that child. So that's the only 
way you would know whether or not the teachers were doing well, 
et cetera. What are your top two predictors of those?
    Mr. Goldhaber. I would say that if you're going to predict 
student success, probably the best predictor is a measure of 
family income or mother's or father's education level. Then 
when you start to look into schooling variables----
    Senator Cassidy. Is there a second variable you would throw 
in there? Because that was not correlated with the teacher.
    Mr. Goldhaber. I would say family--I'm sorry. I thought you 
wanted to know the predictors of student achievement.
    Senator Cassidy. Yes, I did. But it's not the teacher. It's 
not the principal. It's not the school. It's the parents' 
educational level?
    Mr. Goldhaber. That would be my top predictor.
    Senator Cassidy. And your second?
    Mr. Goldhaber. Parents' income level. My third would 
probably be the quality of educators that students have.
    Senator Cassidy. Now, with teachers, what are the top two 
variables?
    Mr. Goldhaber. The top two variables predicting how 
successful they are as a teacher?
    Senator Cassidy. Yes.
    Mr. Goldhaber. I think the best prediction of how 
successful someone is going to be is how successful they've 
been in the past.
    Senator Cassidy. OK. Past is prologue. Now, you mentioned 
how Teach for America really has very little difference from 
someone who goes through formal training. Teach for America 
goes into urban schools, really bad schools. I'm impressed. 
After one of the hurricanes in New Orleans, a couple of them 
stayed in my house, and we had a long conversation.
    Now, if you correlate the student achievement of a child in 
a TFA classroom versus someone in the same school, presumable 
same demographics, is there a difference between those TFAs and 
the teachers who are more traditionally trained?
    Mr. Goldhaber. There are relatively little differences. 
Some studies suggest that Teach for America teachers tend to be 
more successful, particularly at the secondary level in 
mathematics. The studies vary. I would say--I would 
characterize the research as a whole as suggesting relatively 
little difference between TFA teachers and traditionally 
trained teachers.
    Senator Cassidy. I'm going to go back to my regression 
analysis, because if the TFA student is in the toughest school, 
you would want to be comparing that teacher to a teacher in 
that same tough school with the same demographics, the same 
parental education and income levels. Do the studies do that?
    Mr. Goldhaber. Yes. That is exactly what you would want to 
be doing. The studies that I'm talking about do, in fact, 
adjust for the circumstance in which teachers are teaching.
    Senator Cassidy. Again, you find some improvement in 
mathematics, but otherwise, these highly motivated kids with 
great verbal skills are still little able to impact kids who 
are otherwise anchored down by a terrible family life or a less 
advantageous family life, et cetera.
    Mr. Goldhaber. I wouldn't characterize it as little able to 
impact. I would say that when I'm describing how effective one 
program is or one path of entry is relative to another that it 
is relative to another. That does not suggest that the teachers 
are not having an impact on student learning. It suggests that 
it's comparable.
    Senator Cassidy. I got you. Thank you very much.
    The Chairman. Thank you, Senator Cassidy.
    Senator Bennet.
    Senator Bennet. Thank you, Mr. Chairman, and----
    Senator Mikulski. Senator Bennet, could you just hold 1 
second?
    Senator Bennet. Yes, of course.
    Senator Mikulski. Mr. Chairman, I ask the indulgence of the 
committee that I be excused. We're about to lose 500 jobs in 
Salisbury, MD, and I'm going to meet with the CEO of the 
company to try to save those jobs. I'm for you, but I've got a 
couple of other things----
    The Chairman. Thank you, Senator Mikulski, and thanks for 
coming today on such a busy day.
    Senator Bennet.
    Senator Bennet. I have no idea who the CEO is, but I like 
your chances, Senator Mikulski.
    [Laughter.]

                      Statement of Senator Bennet

    Mr. Chairman, thank you. I want to say to you and to the 
Ranking Member thank you so much for the way you're approaching 
this work. To me, as I sit here, I think about all the teachers 
across the country that are teaching right now, including 
teaching the three Bennet girls in the Denver Public Schools 
today, and the work that they are putting in and the fact that 
this Congress--not just this Congress, but a sequence of 
Congresses have been unable to fix this law for now 7 or 8 
years while they are doing everything they can try to do to 
drive student achievement. It's a national embarrassment.
    It is my hope--and I know that the Ranking Member and the 
Chairman feel the same way--that finally, this time, we can get 
a result and we can actually make a small contribution to 
actually driving achievement in this country. Everybody in this 
room should bow down to Ms. Moore, because there isn't anybody 
in the country that has a harder job than somebody who's 
teaching in a high-
poverty school.
    I can tell you the members of this panel don't have a job 
remotely as hard as the job that she's doing. Yet we have been 
unable to fix this law, and it is time for us to do it, because 
the stakes are really high.
    All of you have touched on some elements that have made it 
better for teachers in this country. If you've got a great 
principal, that helps. If you've got a committed faculty that 
is rowing in the same direction, that really helps. If you're 
paid respectfully, that helps.
    But we're swimming against the tide. I think the chairman 
raises very important questions about who's responsible for 
what part of this, and I agree that it's something that we 
ought to work on. As a Nation, whoever's responsibility it is, 
we have fallen down on the job.
    We have a system of training teachers, of recruiting 
teachers, of hiring teachers, of giving teachers professional 
development, of paying teachers that belongs to a labor market 
that discriminated against women and assume that we get the 
ones that decided not to be nurses. The likelihood was that 
you'd get the best British literature student in her class to 
be a teacher, but that likelihood is gone, thank goodness, 
because many people--women are able to do many other things.
    The idea that somebody is going to come and teach for 30 
years at a ridiculously low compensation compared to what 
anyone else in her college class would be paid for the benefit 
of a pension that's not going to be there 30 years from now is 
completely illusory. Here's what I'd like to ask you guys.
    If this country really wanted to attract the best folks in 
their college class to teaching, what would we do? Would we say 
to them, ``If you come and teach in a high-poverty school, your 
student debt is forgiven, and you don't have to pay us back''? 
Would we pay starting teachers dramatically more than what we 
pay them?
    There's a lot of attention paid to whether we should get 
rid of lousy teachers, and I'll stipulate that I think we 
should get rid of lousy teachers. We don't spend any time--or 
very little time--on the question of how we deal with the fact 
that we're losing 50 percent of the teaching workforce in the 
first 5 years of the profession. That's not going to result in 
good outcomes for our kids. I would just turn it over to the 
panel--anybody who would like to answer that.
    Ms. Moore, I'll call on you first.
    Ms. Moore. Well, I would just say that there's obviously--
--
    Senator Bennet. And I will bow down to you.
    [Laughter.]
    Ms. Moore. Thank you. There's some inherent goodness in 
wanting teachers to work in schools and to work with students. 
That's always been something that I wanted to do growing up 
with a dad as a teacher, and then I actually had--my mom, who 
is here today, is a pharmacist, and for a while, when I was at 
the University of Washington, I was going to pursue pharmacy, 
because that did look more--I'd get better pay and what-not. 
Deep down, I always cared and wanted to work with students.
    I would just say that from a teacher's standpoint, the 
reason why teachers maybe aren't staying and we're seeing 
retention problems in my school is because they're feeling so 
overwhelmed by all of the stuff that we're trying to do. We 
talk about--a kid can come into the classroom. The moment they 
walk in the door, some kids have a complete disadvantage 
compared to their peers.
    I know that in my school, sometimes we feel like we're 
doing the job of a social worker and a teacher. I'm constantly 
trying to support that whole child, because until I can have 
them come into the classroom and feel like they are ready to 
learn, they've been well fed, and they feel safe--that's a 
whole job in and of itself beyond teaching.
    Senator Bennet. Dr. Goldhaber, I'm almost out of time. Do 
you have anything you'd like to add?
    Mr. Goldhaber. Well, ultimately, I think we need to do 
things to elevate the status of teachers. In this country, one 
of the ways that status is established is with salary. I think 
that salary is a real key. I'm a data-driven guy, so I would 
urge you to take a look at research on the Teacher Equity 
Project Charter School in New York City, because I think that 
they're doing some interesting things.
    What they're doing is they're paying starting teachers a 
great deal of money, $125,000, and they're doing it within the 
existing school budget by reallocating other resources in the 
school. The initial results from the study of the Teacher 
Equity Project looked very promising.
    Senator Bennet. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Bennet.
    Senator Burr.

                       Statement of Senator Burr

    Senator Burr. Thank you, Mr. Chairman. I'm going to go off 
of Senator Bennet's statement.
    Ms. Moore, let me ask you. Do you think we should get rid 
of lousy teachers?
    Ms. Moore. Well, I definitely wouldn't want to pass my 
students along to a teacher who I didn't feel was well-
prepared. That's something that--as a teacher leader in my 
building, I really strive toward accomplished practice so that 
now I can work with the peers around me. The second grade 
teacher who is above me--I want to be there to support her, 
because, ultimately, I'm going to pass my students along, and I 
want to be able to trust that she is just as highly qualified.
    Senator Burr. If it bothers you, imagine what a parent 
thinks. And I get back to what Dr. Goldhaber said, that parents 
are a big motivating factor--their education level, their 
income level, but also their involvement in their child's 
education. If they believe that they got a lousy teacher--the 
lottery went the wrong way--they sort of count the days for the 
school year to be over and hope that they get a better one.
    Now, that sort of gets into you, Dr. Handy-Collins, because 
the question is: Why aren't principals making those decisions? 
Now, you were very specific about we need to mandate certain 
things funding-wise for principal development. You don't know 
me. I don't think you really trust me to do that. I'm not sure 
I trust me to understand exactly what the need is.
    I do trust your school. I trust the parents of the 
students. I trust who you've chosen as a superintendent, and 
the superintendent has chosen the principals. One of the things 
we do in this bill is we take 67 Federal programs in title II 
and title IV and we put two pots of money. Locally, you can 
determine how you use those pots of money. The requirement is 
to better educate teachers, and you can shift from II to IV if, 
in fact, you feel compelled.
    Title I is left alone. Title II is funded at a higher 
level. There's actually the ability--and I go back to Ms. 
Moore--there's actually the ability for teachers to be 
involved, for teachers to say, ``If we had this, we could do 
this.'' No longer do you look down a list of 67 things and say, 
``This is not on that option list.'' If it's not on the option 
list or your school system doesn't embrace it, you lose the 
money.
    Now we're saying let's open up the money to everybody, and 
let's open up everybody within the system to contribute to what 
changes we should make that actually educate kids to a better 
level. Doesn't that make sense? Is there anybody that objects 
to that?
    I understand that if we did that, we're not prescribing to 
the school system exactly how much should go to principals and 
how much should go to this. We basically say, ``Apply it where 
you think it makes the best impact on the outcome of our 
children.''
    Ms. Handy-Collins. I want to say that what we're advocating 
for today is dedicated funding to professional development, 
because what we're seeing across the Nation is not that 
dedicated funding and that States----
    Senator Burr. Are you telling me that in your system, in 
your school, that is the No. 1 challenge that you're up 
against?
    Ms. Handy-Collins. I won't say it's the No. 1 challenge, 
but it's certainly----
    Senator Burr. Is there a challenge you can think of that's 
greater than that?
    Ms. Handy-Collins. Greater than professional development? I 
think professional development is one of our answers in helping 
our teachers and our school leaders to support having students 
college- and career-ready.
    Senator Burr. Then under the--the way it's written in this 
bill, then you can use it for that. Dr. Holliday doesn't have 
to. If his determination is that putting that money into 
something different is more important for student outcome, he 
can do that, and maybe he's chosen principals a different way. 
Now you're Kentucky, so the superintendent is down the line.
    I'm only suggesting this, that we've tried this system for 
a long time, and I don't think anybody is coming here today 
telling me that, ``Geez, elementary and secondary education--it 
works perfect. You guys found the right formula.'' Why don't we 
look at what's happening around us, that some are doing things 
differently?
    I don't have time, Dr. Goldhaber, to talk about KIPP 
Academy. They're the biggest utilizer of Teach for America 
teachers. They go into the most at-risk communities. I can take 
you to one in Charlotte, NC, that's located one block from an 
elementary school.
    The demographic makeup of both schools is exactly the same. 
Yet the expectations out of the KIPP Academy are totally 
different than the expectations out of the elementary school 
beside it. Teachers, resources, social economics, parental 
education--I don't know what it is, but it's something. We 
don't tie their hands as to how they use their money.
    My time is up. The chairman has been generous. We've got a 
deep interest in getting this right, and I think getting this 
right, Ms. Moore, actually is including you. It's including 
principals. It's including superintendents. It's taking the 
shackles off and saying, ``Create whatever works for you.''
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Burr.
    Senator Warren, then Senator Isakson, and then Senator 
Baldwin.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman. I'm just going to 
pick up where Senator Burr left off.
    Recent studies from the National Bureau of Economic 
Research have found that teachers have a greater impact on 
student achievement than any other factor in school, and that 
students with effective teachers are more likely to attend 
college and to have higher lifetime earnings. In other words, 
one of the best investments in our kids is to invest in their 
teachers.
    Dr. Handy-Collins, there are a lot of ways that we can 
invest in our teachers and principals. Do you see anything in 
the Republican draft proposal that requires that a single 
dollar of Federal aid be used to improve teaching?
    Ms. Handy-Collins. Well, what we see is a list of allowable 
uses of funds under title II, and what we're advocating for, 
I'll say once again, is dedicated funding to professional 
development for our teachers and for our school leaders.
    Senator Warren. Right. I understand that there's a list, 
but nothing that requires that any of it be spent on teachers.
    Mr. Hinojosa, is that your reading as well?
    Mr. Hinojosa. Yes. What I'm hearing is that it is very 
difficult in areas of poverty to get highly effective teachers. 
We have a responsibility to train teachers, to develop these 
teachers, because these are the ones that are in our 
communities. I'm competing against 16 other districts locally 
in San Antonio. We have to work with these teachers in 
providing an environment where they're going to want to stay.
    We've been very effective. I mentioned the junior high. We 
had a retention rate of over 90 percent. Again, this was 
because of the fact that we put things into place, that we were 
going to support our teachers, that they weren't going to feel 
when they came in that it was going to be daunting and that 
they were not going to be supported. It's very important that 
we do support our teachers to be highly effective.
    Senator Warren. Thank you. As I read the Republican draft 
proposal, States and districts would no longer be required to 
invest title II funds in teachers, in leaders. Maybe it will 
happen sometimes, but nothing in this draft requires the States 
to spend a single Federal tax dollar on strengthening teachers. 
This is a huge concern for me.
    We keep asking more and more and more of our teachers, but 
this Republican draft proposal doesn't do a single thing to 
make sure that the States will actually use this Federal money 
to help teachers do their jobs. Giving billions of dollars in 
Federal aid to States without requiring them to spend a dime of 
that money on helping our teachers is not a responsible use of 
Federal tax dollars, not good enough for our teachers and sure 
enough not good enough for our kids.
    Now, I want to ask about something else as well, and I want 
to start with the point that Senator Bennet made at last week's 
hearing that really struck me. For the first time, poor 
children will be the majority of public school children in 
America. The law that became No Child Left Behind was 
originally enacted back in the 1960s as part of President 
Johnson's war on poverty. We have to ask ourselves how we can 
make this law a more powerful weapon against poverty.
    Ms. Moore, do you have all the resources you need to combat 
the effects of poverty in the school where you work? And if 
not, what additional resources and support would help you with 
your work?
    Ms. Moore. No, I don't believe that I have all of the 
supports that I need. While I have the teacher preparation, I 
think that a lot of other things have a direct impact on 
learning--our students in the classroom. In my case, there's a 
lot of students who are dealing with the effects of trauma, 
whether that be domestic violence, abuse, homelessness, 
poverty. So we really need to look at the whole child and take 
into consideration all those other things beyond just the 
academic piece.
    For instance, in my school, our funding for a nurse--her 
FTE has gone down each year, and we have to rely on outside 
funds, such as our PTSA, to provide days for her to be at the 
school. Without a nurse, without the healthy snack programs and 
things like that, I'm not sure that my students would even come 
into the classroom feeling like they were ready to learn. I 
would argue that those would be things that we would need to 
take into consideration.
    Senator Warren. Ms. Moore, are you confident that without 
any guidance or any accountability in the Federal statute that 
every State will target Federal funds to the classrooms and the 
students who need those additional resources the most?
    Ms. Moore. Without hearing teacher voices, I would worry 
that they wouldn't know what needs we have. Without really 
getting into the classrooms and talking to the teachers and 
figuring out what your students need in order to be successful 
in the classroom, I'm not sure that they would know what those 
are.
    Senator Warren. Well, thank you.
    I think that Ms. Moore reminds us that there's a lot going 
on outside the classroom in the lives of our vulnerable 
children, and we need to make sure that these children have 
access to the full range of services that they need to learn 
and to succeed. This means school nurses and counselors and 
making sure that our kids can see the board in class, that they 
aren't hungry, that they have the healthcare they need.
    Education is about building opportunity, and that's about 
making sure that Federal dollars go to the kids who most need 
the help to have a real chance to succeed.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warren.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Well, thank you, Chairman Alexander, and 
thank you for your focus and leadership on kids, on No Child 
Left Behind, and on flexibility.
    I have to ask Mr. Hinojosa a question. I've known two great 
Hinojosas in education. One of them is named Reuben in the 
House of Representatives, and the other is Michael, who is the 
superintendent of schools in Cobb County, GA. You've got to be 
related to one or both of them.
    Mr. Hinojosa. Not to my knowledge. I've met both of them. I 
know who they are, but----
    Senator Isakson. Well, if you're as good as they are, 
you're awfully good, then. Thank you for being here today.
    Mr. Hinojosa. Thank you.
    Senator Isakson. You know, Chairman Alexander, I'll make 
this confession. I'm one of the two guys left that wrote No 
Child Left Behind. I want you all to know that in full 
disclosure. The other one is Speaker Boehner. The rest of them 
have retired from Congress or are gone.
    We had a meeting the night after it passed in the basement 
of the Capitol--it was Ted Kennedy, myself, Mike Castle, John 
Boehner, and some others--and talked about,

          ``If this works, we're going to be in trouble come 6 
        years from now because if it works, it's going to be 
        harder and harder to make AYP. People are going to go 
        into needs improvement, even though they're doing 
        better, and we're going to go from an attitudinal shift 
        from positive to negative.''

    And that's what's happened, all right?
    It is time we fix No Child Left Behind and we reauthorize 
ESEA, and I think the chairman's move toward flexibility is 
exactly how to do it. Schools understand now that 
disaggregation is important. They understand that measuring the 
quality of the product is important. They also recognize that 
doing it their way is important.
    I want to make a couple of points. My belief in Federal 
involvement in education lies in two areas: Title I and 94-192 
for special education in 1978. Those are specific statutory 
involvements of the Federal Government in education K-12. The 
balance of it is done at the local level. The maximum 
flexibility we can give with good leadership and guidance, the 
better off we're going to be.
    There are two areas I'd like to focus on. I guess that I'd 
ask--is anybody a special ed teacher?
    Ms. Handy-Collins. I was a special education teacher.
    Senator Isakson. You looked kind of special. I'm married to 
one.
    [Laughter.]
    Ms. Handy-Collins. Thank you.
    Senator Isakson. You know, when we disaggregated kids, we 
disaggregated them with disabilities as well--by race, by 
language, by learning level, but also by disabilities. If you 
were a special needs kid, you were assessed and disaggregated 
like other groups or other areas. When we assess them, we 
assess them with a one-size-fits-all test with only a 1 percent 
exception for cognitive disability. Yet there are a plethora of 
disabilities of children in public schools today.
    I tried 2 years ago when we brought this subject up to 
bring up an idea of alternative assessment where the assessment 
of special needs children, instead of being a specialized, one-
size-fits-all test, would be a test chosen in the IEP by the 
parent and the faculty member. What do you think about that 
idea?
    Ms. Handy-Collins. Well, I certainly think that one-size-
fits-all has not been effective, and we're finding that in our 
schools. I certainly agree with what you just said, in that if 
we had some alternative assessments that our parents and our 
communities would agree upon, that would certainly be a great 
option.
    Senator Isakson. Dr. Hinojosa, you were nodding your head. 
Isn't the student's parent and the teacher better equipped to 
determine how to assess that child than a standard test?
    Mr. Hinojosa. Absolutely. Again, we did have that local 
control in Texas at one time. Recently, the law changed, so 
we're not able to do that. I'd just like to say, the State 
accountability system itself is under a lot of scrutiny at 
times, but we are--there's businesses, there's newspapers, and 
so forth who are always looking at our successes.
    So aside from Washington, we do have an accountability 
system in Texas that makes us accountable to our constituents, 
our parents, and so forth. They know what's going on in our 
communities, and it is publicized.
    Senator Isakson. Ms. Moore, you're a National Board 
Certified teacher. Is that correct?
    Ms. Moore. Yes, that's correct.
    Senator Isakson. Congratulations, and thank you for your 
commitment.
    Ms. Moore. Thank you.
    Senator Isakson. I have a question for you on teacher 
certification. When I first was elected to Congress in 1999, 
President Clinton was President of the United States, and one 
of his promises in the State of the Union was to hire 100,000 
teachers for local boards of education. There was only one 
problem. If there were 100,000 teachers out there to be hired, 
they would have already been working. There weren't 100,000 who 
were qualified and ready to be hired.
    We learned that the teacher shortage was not just because 
there weren't that many people who wanted to teach. It was 
because there weren't that many people willing to teach who had 
the qualifications to do so.
    What do you think about alternative certification for a 
teacher being able to teach? In other words, if someone--in the 
military, we have some programs already, where specialists out 
of the military go from troops to teachers, and that's worked 
pretty well in Georgia. I think some flexibility in terms of 
certifying teachers based on their life's accomplishments gives 
us a lot bigger pool to draw from. Would you agree with that or 
disagree with that?
    Ms. Moore. I would just say from my own experience in 
working with the residency model that the more hands-on 
experience and the time being in a classroom is going to lead 
to better preparation. While I might not have gone through an 
alternative route of certifying, I've seen the effects that 
having been in a classroom for an entire year can provide one 
person.
    My novice teacher from last year, Kristen, knew exactly 
what to do to set up a classroom and to develop those 
relationships with families and students early on. She knew 
which procedure she needed to make sure she taught those first 
few weeks of school. I can't say that there's anything better 
than having more time doing that experience.
    We always say that with our students, you learn best by 
doing. You learn best by teaching. The more time that someone 
has had in the classroom, the better. I would have been lost if 
I hadn't had a yearlong preparation program myself when I 
entered my classroom, because I wouldn't have known--what do I 
do this first day when all these different situations arise.
    Senator Isakson. Mr. Chairman, if I can--one extension on 
that. Ms. Moore makes a very good point. In Sacramento, CA, 
they did a pilot program on alternative certification for 
teachers by profession rather than by education. They made any 
teacher who was not board certified or otherwise certified to 
have a mentor for a year, and they funded the mentor program.
    Would that help cause you to like the program more?
    Ms. Moore. I definitely would appreciate the mentoring 
opportunities. I know in Seattle, we have like a STAR program 
where mentors are provided for the first year, and that, along 
with the residency model, has been very helpful in preparing 
teachers to work in high-need schools.
    Senator Isakson. Thank you all for what you do.
    The Chairman. Thank you, Senator Isakson.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman and Ranking Member 
Murray. I appreciate the hearing squarely focused on supporting 
our teachers and school leaders.
    As we've discussed, we start hearing a little bit about the 
choices that are going to be before this committee as we 
advance in the effort to reauthorize the ESEA. You start 
hearing the debate between flexibility and dedicated funding 
streams. Yet you are the practitioners, you are the folks who 
can talk about the effect that these proposed changes have on 
children in the classroom, in the teaching profession, among 
school leaders.
    We've been touching in the discussion and the Q & A's back 
and forth on a number of issues. I know I'm not going to have 
time to explore all of them. I want to definitely more deeply 
explore the impact of the changes that we're talking about on 
issues like recruitment of future educators who will reflect 
the rich diversity of our Nation's classrooms and, as you were 
talking about, Dr. Handy-Collins, professional development that 
prepares today's educators and school leaders to respond to the 
needs of increasingly diverse classrooms.
    I hope that we will also have a more granular discussion 
about programs like Seattle's Teacher Residency Program and 
how, again, the proposed changes that we're talking about would 
impact the future of what seems to be an incredibly exceptional 
program.
    I want to actually touch on one issue that hasn't come up 
but is increasingly discussed at home in Wisconsin and I'm sure 
in other States, and that is the impact of the changes that 
we're talking about on the use of technology in the classroom 
in preparing teachers. You know, technology is increasingly 
becoming an important tool in the classroom. The effective use 
of devices and data and online learning and digital curriculum 
can enhance the educational experience, but only if teachers 
know how to effectively use this technology.
    In discussing the existing Enhancing Education through 
Technology Program under ESEA with Wisconsin's Department of 
Public Instruction, I was told that continuation of funding for 
professional development is the highest priority for 
Wisconsin's education technology evolution.
    I'm wondering, Ms. Moore, if you can speak to the use of 
technology in your classroom or at your school and in your 
colleagues' classrooms. Do you have access to any targeted 
professional development on the use of technology?
    Ms. Moore. In my classroom, we actually--through Donors 
Choose, which is a nonprofit agency, I have gotten about five 
iPads for my classroom to use. Just recently, based on teacher 
voice, the district listened--my administrator listened and 
said, ``OK. Our K-2 teachers are saying that we need more 
phonics support.''
    We went out and we looked at other schools in the district 
and saw what they were doing. We ended up getting a program to 
use to support early phonics, and that's something that we 
receive training on pretty frequently. I just went to a 
training about 2 weeks ago.
    It's something that--again, because it was driven by 
teacher voice and it was something we were really invested in 
and we knew our kids needed. There's been a lot of buy-in and 
teachers are using it effectively in the classroom and we've 
seen great results. Just last week, one student made 20 points 
growth on, like, reading levels because of the new work that 
we're doing with that phonics program.
    Senator Baldwin. Thank you.
    Dr. Holliday, can you discuss the importance of 
professional development in your State, including such training 
specifically tailored to using technology in the classroom?
    Mr. Holliday. There's a fundamental issue of bandwidth 
first. It doesn't do a lot of good to train in technology 
unless you've got bandwidth, and we still have a few places in 
Kentucky where the Governor and Representative Rogers are 
working to make sure we get the bandwidth.
    A critical issue there is training of the teachers and the 
principals to understand what the kids already know and then 
being able to help translate that into the professional 
development that they need. If you dedicate dollars, quite 
often, that stifles innovation, and there are a lot of 
different ways that we're going about doing this training in 
Kentucky and delivering online, delivering just-in-time, 
delivering face-to-face.
    There are just so many variables and different ways to do 
it that when you get into dedicated funding streams, people who 
are not very creative tend to say, ``Well, there's the box. I'm 
going to stay in it.'' We really need the flexibility to move 
around the box, but the accountability to see how technology is 
impacting student learning, and our flipped classrooms, our 
virtual classrooms, all of those things, seem to be working 
very well.
    We're able to spread great teachers to far eastern 
Kentucky, rural places where they don't have a physics teacher, 
just by using the technology. Sometimes the rules get in the 
way of the creativity.
    Senator Baldwin. Dr. Handy-Collins, do you have a comment?
    Ms. Handy-Collins. Yes. I would like to say as we have seen 
a paradigm shift in education where we must increase student 
engagement and students are engaged with the use of technology, 
we have certainly added Promethean boards in most classrooms, 
the use of Chromebooks now in classrooms, as well as just 
something as simple as opening Wi-Fi access to students, 
changing cell phone policy uses in schools. We know that we 
have to engage our student learners today, and technology is 
certainly a primary way to do that.
    The Chairman. Thank you very much.
    Thank you, Senator Baldwin.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. Thank you, Mr. Chairman. I think one thing 
the focus has become today is on kids at the bottom of the 
economic ladder whose parents maybe didn't go to college, et 
cetera. We're talking about teacher professional development 
and professional development of leaders in schools.
    Dr. Handy-Collins, I want to thank you for mentioning my 
bill, the School Principal Recruitment and Training Act, in 
your written testimony. I noticed you didn't use it in your 
oral, but----
    [Laughter.]
    We do thank you.
    What this would do is create a competitive grant program to 
recruit and train high caliber principals. I think Dr. 
Goldhaber talked about to attract teachers like Ms. Moore to 
schools that have high-needs, that it's more important that the 
ethos of the school attract the teachers, that the teachers 
will stay if they feel they're working in an environment where 
everyone is working as a team.
    The leader of the school creates that. That's why I think 
principals are so important, and that's why I think this is so 
important.
    Can I ask you how this works? How does a principal of a 
successful--a successful principal of a high-needs school 
mentor for a year--I guess for a school year is one way of 
doing it--how that works and how that mentorship would work?
    Ms. Handy-Collins. In mentoring teachers or mentoring 
school leaders?
    Senator Franken. Principals.
    Ms. Handy-Collins. Yes. In Montgomery County, we have a 
principal internship program, so selected primarily assistant 
principals who aspire to be principals are paired with a 
successful principal for a full-year. During that time, they 
primarily follow the principal to important meetings and really 
learn the day-to-day activities of a principal.
    For a certain period of time, they also have an opportunity 
to actually serve as the principal of the school, whereas the 
actual principal leaves the school for like a 6- to 8-week 
period and that principal intern is allowed to actually take 
over the lead of the school. We have found that this has been 
successful in preparing principal leaders.
    Certainly, the interns are able to experience being a 
principal and knowing the day-to-day activities. It's one thing 
to look at the principal from the assistant principal's role, 
but to actually serve and to be in that seat, they have a 
better opportunity to decide if this is, in fact, for them.
    Senator Franken. Let's move from principals to teachers.
    Ms. Moore, you've talked about professional development in 
your school and teachers working together. I have something 
called the STEM Master Teacher Corps, where we need STEM 
teachers. We need to keep them, and we need them to help the 
professional development of others, and mentoring is a way to 
do that. You say it's been very successful--mentoring--in your 
school.
    Ms. Moore. Yes, that's correct. In the Seattle Teacher 
Residency, we use what in education we call the gradual release 
of responsibility, where I do something and teach the kids, and 
then we do it together, and then the students do it. It's the 
you do--I do, we do, you do.
    That's kind of the same idea with this co-teaching model in 
the residency. At the start of the year, I am mainly the 
teacher doing the work, and I'm constantly thinking aloud, 
telling my resident, ``This is why I'm doing these things,'' 
because there's a lot of things that they would walk into the 
classroom and not know how to do.
    And then similar to this principal internship program, over 
time, I'm releasing that responsibility. Just this week, in 
Seattle, my co-teacher, Ben, is doing some lead teaching by 
himself, and then I'll go back and be a coach and ask him 
reflective questions.
    Senator Franken. I just want to move on.
    Ms. Moore. OK.
    Senator Franken. Dr. Goldhaber, you're saying that this 
kind of creates an atmosphere that teachers want to stay in. 
Right?
    Mr. Goldhaber. I'm saying it has the potential to. I think 
that we need to investigate whether those kinds of programs 
actually work.
    Senator Franken. Ms. Moore, just one last thing, because I 
have about 30 seconds. You're talking about teachers having to 
be the social worker and the teacher. Early childhood, to me, 
seems to be sort of the best answer to that for kindergarten 
and first grade teachers and second grade teachers having to be 
all of that, and I think that's something that we need to be 
talking a lot about here on this committee.
    Do you agree?
    Ms. Moore. Yes, absolutely. I would also just say this push 
for early education is something that needs to be really 
considered as we look into ESEA reauthorization. I know that 
even when students step in the door in kindergarten, they're 
coming in at such different levels, and they're already kind of 
getting separated based on their ability right there.
    Senator Franken. I agree with you.
    Ms. Handy-Collins. I would like to add that that doesn't 
end at the elementary school level. We see those needs at the 
high school level as well.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Franken.
    Senator Casey.
    [No verbal response.]
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Mr. Chairman, and thank you 
to the panel for being here.
    I suspect we all agree that a school that is dealing with a 
population with a very high concentration of poverty has a real 
problem on its hands and that if they're going to succeed for 
the kids, they need significant resources to overcome that 
concentration of poverty. I see all the heads nodding here.
    We here in Congress in the Federal Government face a 
situation in which a State legislature could, as a matter of 
policy, decide we're going to throw those schools, those kids, 
those teachers, under the bus. We have other priorities. We 
want to cut taxes for folks, whatever. If that were to happen, 
that gives the Federal Government an interest. I don't want to 
be arguing for the Federal Government having no interest in how 
well States, schools, districts, whatever, perform.
    Meeting with my education community in Rhode Island, I hear 
repeatedly about the burden of the testing and accountability 
system in the classroom, and that it is at the stage now where 
it's actually impeding the ability of teachers to teach, 
because they spend so much of their time either dealing with 
the tests, coping with the tests, preparing for the tests, not 
teaching because some of the classes are in the test, not 
teaching because the bandwidth has been entirely absorbed so 
that the tests can take place and nobody can get on a computer, 
and all of that sort of stuff.
    I met yesterday morning with some Rhode Island education 
community leaders, and one said that in one grade class, they 
counted off 42 days of testing in 1 school year. Another said 
that the testing has just run wild--to use their word--run wild 
in the classroom.
    My question to each of you is: If you spot me that there's 
a proper role for Federal oversight in this area, as people who 
are familiar with the system, by how much, as a percentage, do 
you think you could reduce the testing footprint in the 
classroom while still getting the information that we need? I 
don't mean for you to be specific, but I'm just trying to get a 
sense of how much room you think there is for us to be more--
where should we set our goals?
    Is it, ``Well, 90 percent of it has to happen. You could 
probably whittle it down by 10.'' Or is it ``Maybe we could get 
rid of half and still be able to do this.'' Or is it ``This 
thing is out of control. Ten percent of the effort would yield 
what we need and the rest, 90 percent, is just going''--people 
have kind of lost control of--the purpose having been lost in 
the process?
    Just a quick opinion. I'm not going to really hold you to 
it. I just want to get a flavor for how much you think there is 
to--and I know it's going to be very rough numbers.
    Mr. Goldhaber.
    Mr. Goldhaber. I'm definitely not going to give you a 
percentage, except to say that I think----
    Senator Whitehouse. Well, why don't we move on to Dr. 
Holliday, then, so I can get my percentages?
    [Laughter.]
    Mr. Goldhaber. Can I just say that----
    Senator Whitehouse. We'll come back to you if there's time, 
but time is short.
    Mr. Goldhaber. OK.
    Mr. Holliday. If we eliminate the teacher evaluation 
component, which added about 40 percent testing, that would be 
about 40 percent right there. If we were able to address 
accountability at the State level rather than the Federal 
level, we might be able to reduce another 20 percent, because 
most of the tests are local and school district tests tied to 
the teacher evaluation and tied to the Federal accountability.
    Senator Whitehouse. So 60 percent.
    Mr. Holliday. Yes.
    Senator Whitehouse. Mr. Hinojosa.
    Mr. Hinojosa. I agree. I think we can reduce. What the 
percentage is, I don't know. I can just give you at least half.
    Senator Whitehouse. Ms. Moore.
    Ms. Moore. I would just argue at least half as well.
    Senator Whitehouse. Dr. Handy-Collins.
    Ms. Handy-Collins. Fifty percent sounds like the going 
rate.
    Senator Whitehouse. And you're comfortable with that?
    Ms. Handy-Collins. I'm comfortable with that. I think it's 
more important how we use the data and looking at progressive 
growth measures.
    Senator Whitehouse. Well, I've got 49 seconds left, so back 
to you, Dr. Goldhaber, for your non-number answer.
    Mr. Goldhaber. Thank you. I think that----
    Senator Whitehouse. Forty-three seconds.
    Mr. Goldhaber [continuing]. The Federal Government gets a 
lot of the blame for the vast amount of testing that takes 
place. The studies that look at how much of testing is actually 
tied to the 17 NCLB tests suggest that it's anywhere from 
roughly a quarter to a third. While I appreciate that a lot of 
schools feel like they're over-tested, a lot of it has nothing 
to do with the NCLB testing requirement.
    Senator Whitehouse. All right. Well, I've got 14 seconds 
left, so I'm not going to hazard a question.
    Mr. Chairman, thank you for leading us through this effort 
to try to repair this broken law.
    The Chairman. Senator Whitehouse, as you can tell, would be 
a very skillful headmaster. Thank you very much.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman. Sorry I wasn't here 
for my turn. I've been juggling hearings. We're grateful for 
the contribution of this panel.
    I wish I could get to each of you. I'll probably only get 
to two, kind of on my right, your left, for most of it. One of 
the broad principles that I start with when we come to these 
questions--we're here to talk about education and teaching and 
supporting the teaching profession and making sure that we have 
the kind of support and resources.
    I do start from a broader frame. I think it was page--I 
guess it was the third page, Ms. Moore, of your testimony, 
where you say, and I quote, at the bottom of the second to the 
last paragraph, this means, ``resources and support for the 
whole child, like good nutrition and healthcare, not just 
investing in high-quality teaching.''
    I couldn't agree more, and I think when we're talking about 
all these issues, we need to step back and say, ``What are we 
doing as a country for children?'' We all believe that every 
child is born with a light inside them, the light of their 
potential. We say we're committed to making sure the light of 
every child shines as brightly as it should, and yet we don't 
have a national strategy to do that.
    We had a Marshall Plan after World War II for Europe to 
rebuild Europe, yet we've never had a Marshall Plan for 
children. I think that's just a fact. It's a sad fact to report 
and to assert. So I start from that broader frame.
    Dr. Handy-Collins, as much as I've seen the impact that 
teachers can make in a classroom and in the life of a child, 
I've also seen the impact that principals make. Sometimes when 
other parts of the school are not where they ought to be, and 
the school is maybe going in the wrong direction, a strong 
principal can be so determinative of the outcome we all hope 
for. Your point about professional development is well taken, 
and I want to support that as best I can.
    In the same vein, Ms. Moore, about supporting teachers, you 
said a couple of things which are important. No. 1, you said--
at the bottom of your first page, you talked about teacher 
induction, professional growth, teacher leadership as being 
kind of building blocks.
    Later, you say, ``With co-teaching, we can meet the needs 
of all 20 of our students every day.'' That's a remarkable 
statement, because I'm not sure a lot of people hear that 
enough. Tell me--this idea of mentoring and the particular 
program that you have--tell me what the elements are for the 
most successful mentoring program for teachers based upon your 
experience.
    Ms. Moore. I would say that based on the STR, the Seattle 
Teacher Residency experience, that the most important thing is 
that it is really driven by teachers. The Urban Teacher 
Residency United along with our director, Marisa Bier--they are 
teachers themselves, who know what works in the classroom and 
what doesn't.
    They're very responsive to the needs of teachers as well as 
students. They get into the classroom, at least a coach every 
week, and they're constantly asking teachers, ``What do we need 
to do better to prepare our residents?''
    So if I say, ``Our residents don't seem like they really 
understand the assessment piece in developing their own 
assessments,'' they go back and they add that into their 
curricula with the University of Washington. They have that 
unique ability to work with all those different partnerships to 
really address what teachers see as the greatest need for our 
students.
    Then I guess just taking that time to really have those 
conversations, learning focus conversations with the teachers, 
with the residents, with their coaches--their professors are 
all--it's all engaged in that work together. We have monthly 
training, so that I, as a mentor, can go meet up with a network 
of other teachers in Seattle schools, and we can talk about 
what we can best do to support our teachers so that one day, 
maybe the teacher I mentored is going to go be a colleague for 
somebody else.
    Maybe I'm going to have Kristen, my novice teacher, teach 
kindergarten and send her kids to me, or maybe I will be 
sending my kids on. We're really making sure that we're focused 
on what the students need in our schools.
    Senator Casey. Well, as someone who spent only a total of 1 
year as a volunteer teacher in a volunteer program, the Jesuit 
Volunteer Corps, my placement was in north Philadelphia. I 
really could have used a program like the one that you 
described.
    In my remaining 25 seconds, Dr. Holliday, I want to ask you 
just real quick--on page 2 of your testimony, you said, ``We 
have seen Kentucky schools move from the bottom 5 percent to 
the top 10 percent in the State using this model.'' Tell us 
again how you got there. What is the model you describe, and 
what's the example?
    Mr. Holliday. Very similar to what Ms. Moore is talking 
about, mentorship, full-time math coach, literacy coach, and a 
principal coach. You can't bring in a bunch of new teachers in 
certain parts of our State. You've got to address the ones that 
you have. Having that full-time mentorship, real solid support 
and coaching, you can help teachers really turn it around, and 
we've seen the evidence of it.
    Senator Casey. Thanks very much.
    Thanks, Mr. Chairman.
    The Chairman. I want to thank the witnesses. I'll turn to 
Senator Murray for her concluding remarks in just a minute. 
I've heard a lot of--all of us have heard different things.
    I think, Dr. Goldhaber, your point that maybe a fourth to a 
third of the tests that people see in the schools are related 
to the 17 Federal tests is especially helpful to us as we think 
about the Federal tests.
    Dr. Holliday, you've expressed a strong view that the State 
accountability systems are in place and important, and you and 
other chiefs, while you support the tests, don't want the 
further direction of Federal accountability systems for 
teachers and schools.
    Mr. Hinojosa, you've echoed what Secretary Duncan and 
Secretary Spellings have told us about the Teacher Incentive 
Fund, and you've actually made it work.
    Ms. Moore, you've emphasized teacher voices, which I think 
is very important as we think about what we require from here 
and what we leave to you. That's an important voice.
    Dr. Handy-Collins, you've eloquently talked about the 
importance of school leadership.
    I thought Senator Whitehouse's question was one that's 
probably on the minds of all of us as we try to understand the 
complaint we hear about the number of tests and the concern we 
have about wanting to make sure that we do have a strong 
accountability system, but whether we become so prescriptive 
and intrusive here that we're getting in the way of strong 
Texas accountability or Kentucky or Washington State or 
Maryland accountability systems where teachers and principals 
and school boards are making their own decisions about what is 
success, what is failure, and what are the consequences for 
schools and teachers.
    It's been a very helpful hearing. This is the second 
hearing that we've had where Senator Murray and I and our 
staffs have agreed on the witnesses. I think that makes much 
more of a bipartisan setting, which is the kind of thing we 
like to try for. We don't always get that, but we like to head 
that way. We're more likely to get a result if we work that 
way.
    One week from today, on Tuesday, we'll try something a 
little different--a roundtable on innovation in the States, 
where Senators can more directly interact with experts.
    The hearing record will remain open for 10 business days. 
Members may submit additional information or questions to the 
witnesses for the record within the time if they would like, 
and the witnesses--if there was something that you wanted to 
say to us today--like Senator Whitehouse didn't give you a long 
time to answer his questions. If you had something else you 
wanted to say to him or to us, please feel free to do that, and 
we'd like to ask you to get that in within the next few days.
    We thank you for being here. I'll call on Senator Murray 
now for any remarks that she would like to make, and then we'll 
adjourn the hearing.
    Senator Murray. Mr. Chairman, thank you very much for this 
hearing. I really want to thank all of our witnesses today. I 
think you brought us invaluable insight as we work together on 
this committee, hopefully, to create a bipartisan bill to move 
forward. I think it's important to every person who says No 
Child Left Behind is broken. We want to fix it. We want to work 
with you, Mr. Chairman, to do that in a bipartisan way.
    I think it is really valuable to have people here who are 
in the field every day working with our young people to help us 
as we put together this proposal. I want to thank all of our 
committee members, too. I think they bring invaluable insight, 
and we've got a lot of work ahead of us.
    Thank you very much.
    The Chairman. Thank you. The hearing is adjourned.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL

       Response by Dan Goldhaber to Questions of Senator Collins 
                         and Senator Murkowski
    Thank you for your careful reading of my testimony to the HELP 
Committee and the followup questions. Below I address each question and 
try to be clear about what the research base says about a particular 
issue and what falls more into the realm of my speculation based on 
many years of studying the K-12 system.
    Please feel free to contact me (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2d494a424149454c4f485f6d4c445f03425f4a">[email&#160;protected]</a> or 206-547-1562) 
if you have any additional questions.
            Sincerely,
                                                       Dan.
                                 ______
                                 
                            senator collins
    Question 1. In 2005, former-Senator Olympia Snowe and I 
commissioned the Maine NCLB Task Force to examine the issues Maine 
faced with implementing the new law.
    Maine's small rural schools, the ``Highly Qualified Teacher'' 
standard (HQT) was particularly burdensome and, in many cases, 
unworkable. In rural schools, the reality is that teachers must teach 
multiple subjects and are often re-assigned to different content areas 
because of low enrollments. Yet HQT requires teachers to have majored 
in or passed rigorous State tests in the subjects that they are 
teaching. When this year's fourth grade math teacher must become next 
year's fifth grade science teacher, meeting the added burden of 
becoming ``highly qualified'' in several academic areas makes staffing 
even more difficult.
    The Maine Task Force recommended that States be granted flexibility 
to create different standards for rural school districts. Do you 
believe that States should have the authority to set alternative 
standards in small rural schools that incorporate factors such as 
school size and the courses available?
    Answer 1. I do not believe the HQT requirement effectively ensures 
that students do in fact have a highly effective teacher. Quite simply, 
the determinants of a teacher meeting the HQT standard are only weakly, 
at best, related to how effective a teacher is in the classroom.\1\ I 
also agree that the HQT provision can be particularly problematic for 
school systems and schools with particularly difficult staffing 
challenges, as is often true for rural systems. For that reason, my 
opinion is that there should certainly be flexibility around the HQT 
requirement (or a wholesale change of this particular requirement).
---------------------------------------------------------------------------
    \1\ See, for instance, Goldhaber (2007) on licensure tests and 
Goldhaber (2015) for a more general review of the teacher 
qualifications that do (or do not, as is often the case) predict 
teacher effectiveness.
---------------------------------------------------------------------------
    That said, your question is broader in that it focuses on 
``alternative standards.'' Here I would try to separate out what is 
under a school or school district's control from the factors that are 
not. In general, I think it makes sense to hold school systems 
accountable for policies and practices they control and allow 
adaptations in requirements for factors they don't. School systems 
probably have only limited ability within their resource constraints to 
affect the kind of teacher applicants they attract so I could imagine 
setting somewhat different standards based on how rural a district is 
or the specific type or needs of students enrolled in a district, but I 
would be more wary of setting up different standards for factors, such 
as school size and courses offered, since districts have some control 
over these decisions.

    Question 2. No Child Left Behind defines ``core academic subjects'' 
to include 10 subject areas, including civics and government, 
economics, history, and geography.
    The Maine NCLB Task Force observed that many schools integrated 
these four subjects into one ``social studies'' course. Yet the 
``Highly Qualified Teacher'' standard (HQT) would have had a social 
studies teacher meet the HQT requirements of all four subject areas. 
Notably, NCLB does not break down ``science'' into its many 
subdivisions, like biology or chemistry.
    School districts want to attract the best and the brightest to the 
teaching profession. My concern, however, is that the HQT standard may 
have had two unintended and related consequences.
    First, it places a burden on teachers who have multiple class 
assignments. And second, it may result in narrowing school curricula, 
resulting in fewer classes being offered. The Maine Task Force found 
that these burdens were particularly detrimental to small rural 
districts, where teacher recruitment and retention is especially 
difficult.
    What effects have the HQT standards had on teacher recruitment and 
retention, as well as school curricula? Are there ways to encourage 
teachers to gain additional subject-matter knowledge without imposing 
an HQT requirement in each subject that a teacher teaches?
    Answer 2. No research that I know of speaks directly to whether the 
HQT standards affect teacher recruitment, retention, or curricula. 
However, as I said in answering #1 above, I do not see a very good 
argument for keeping this standard given its unproven connection with 
student learning.

    Question 3. In 2013, like 42 other States, Maine received a No 
Child Left Behind flexibility waiver from the U.S. Department of 
Education, which exempts it from some of the requirements of the 
Federal law. However, the U.S. Department of Education has determined 
that Maine has not yet adopted adequate guidelines for teacher and 
principal evaluation systems. The Department notes that the State must 
clarify the role of statewide tests in its teacher evaluations.
    If the State adopts a different evaluation system that does not 
place what the U.S. Department of Education believes is enough emphasis 
on student test scores in its teacher performance measurement, then the 
waiver could be revoked and many of Maine's schools may be deemed 
``failing.'' In fact, Washington State faced this very scenario 1 year 
ago, and has since lost its waiver.
    If a State determines that student test scores should be one of 
many factors in teacher evaluations, should the Federal Government be 
overruling their judgment?
    Answer 3. This question can't be answered from a research 
perspective; it is more of a political question and a matter of 
opinion. For the record, I do believe student test-based measures of 
teacher effectiveness (also commonly referred to as ``value-added'') 
contain important information about teacher effectiveness. In fact, as 
an example, there was some discussion at the HELP Committee hearing on 
January 27 of the study (Chetty, et al., 2014) showing that effective 
teachers have long-term impacts on student outcomes (such as predicting 
whether they go to college and what they earn later in the labor 
market). The metric used for teacher effectiveness in that study is a 
student test-based measure, showing that this particular way of 
assessing teachers tells us not only about teachers? impacts on student 
tests but a much broader array of later outcomes.
    As a more direct response to your question, my understanding is 
that all States that receive an NCLB waiver use multiple factors in 
creating summative measures of teacher performance. Research cannot yet 
assess much about the implications of assigning different weights to 
each factor (classroom observations, value-added, etc.) because the 
waivers and evaluation systems are new. As I stressed in my testimony, 
older teacher evaluation systems that typically relied only on 
classroom observations tended to suggest that nearly all teachers are 
the same, and nearly all fall near the top of whatever performance 
evaluation system is being used (Weisburg, et al., 2009). This 
assessment of teachers does not comport with what we know empirically--
that they differ substantially from one another in ways that affect 
their students' outcomes.
                           senator murkowski
    Question 1. The Discussion Draft bill that we are working on here 
in the committee would give much more autonomy to States to make 
decisions about education policies. Do you think that the Federal 
Government should maintain some basic requirements for States to 
implement in designing how they ensure the maximum number of effective 
teachers and leaders, or should Congress give States complete 
authority? Why?
    Answer 1. This too is a difficult question to answer from a 
strictly research perspective as it really depends on what States will 
do absent Federal requirements. My own opinion is that the Federal 
Government should keep pushing States to develop valid and reliable 
educator-evaluation systems.
    Some States will likely adopt or keep evaluation systems that are 
valid in the sense that they reflect important differences in the 
contributions that educators make toward student achievement.\2\ 
Indeed, as Senator Alexander mentioned, Tennessee once had a teacher 
career ladder that recognized and rewarded effective teachers.\3\ But, 
as Senator Alexander also mentioned, the State abandoned the system.
---------------------------------------------------------------------------
    \2\ See Croft, et al. (2011) on validating teacher evaluation 
systems.
    \3\ This career ladder has been studied and validated, see Dee and 
Keys, 2004.
---------------------------------------------------------------------------
    I'm skeptical that most, or even many, States will have effective 
educator-evaluation systems unless the Federal Government nudges them. 
My skepticism stems from the fact that States have had tremendous 
flexibility in designing evaluation systems for many years and few of 
the systems they created recognized differences in performance between 
teachers. As noted above in my answer to Senator Collins, the evidence 
is that States' old evaluation systems usually suggested the 
overwhelming majority of teachers were the same.
    I recognize the powerful appeal of the message that we should 
simply devolve the system to State control, but the politics around 
educator evaluation are tough at every level. In the end, it is a 
judgment call about whether the benefits of greater flexibility around 
educator-evaluation systems outweigh the potential that States will 
fail to adopt valid and reliable systems. I've never served in a State-
level position, but I have served on a local school board (before 
NCLB), and we confronted difficult political terrain when it came to 
teacher and leader evaluation. In that position, saying that we made 
our evaluation system more rigorous in part because we're required to 
do so. This would have taken some of the political heat off of us.

    Question 2. You indicated in your written testimony that 
professional development has little or mixed impact on student 
achievement. My teacher friends tell me that too often, ``professional 
development'' consists of bringing teachers together after school for 
an hour so they can be introduced to a new kit, or a new method, 
curriculum, or standard, but that long-term, individualized assistance 
to implement whatever the new thing is, is rare. Does the research 
compare the effects of this type of professional development vs. long-
term, individualized approaches? If so, what guidance does it provide 
to principals and school districts?
    Answer 2. Your important question raises two distinct, though 
related, issues: whether professional development is generalized versus 
individualized, and whether it is a ``one off '' training or is more 
intensive (more hours spread over a longer time and connected more 
closely with content). There is a strong consensus now that ``one off 
'' seminars have little impact on teacher knowledge, practices, or 
student learning. By contrast, there is better evidence that more 
intensive professional development works, though, as I mentioned in my 
testimony, even the evidence on this is mixed.\4\
---------------------------------------------------------------------------
    \4\ Yoon, et al. (2007) provide a good review of the professional 
development literature and the features of professional development 
that seem most promising.
---------------------------------------------------------------------------
    To my knowledge, there are no convincing studies on whether more 
individualized professional development is more effective, but I 
believe good reasons suggest it would be. The argument here is simply 
that educators have different needs when it comes to improvement so the 
support they receive should address those individualized needs. This is 
why I think it is so essential that educator-evaluation systems 
pinpoint those needs. If they aren't identified and documented, how 
could schools' personnel and support systems possibly address them? To 
be speculative and brief, I believe that one reason professional 
development does not have a greater impact is that the professional 
development that teachers receive is not grounded in information from 
rigorous evaluation systems.
                               References
Chetty, R., Friedman, J., & Rockoff, J. (2014). Measuring the impacts 
    of teachers II: Teacher value-added and student outcomes in 
    adulthood. American Economic Review, 104(9): 2633-79.
Croft, M., Glazerman, S., Goldhaber, D., Loeb, S., Raudenbush, S., 
    Staiger, D., & Whitehurst, G. (2011). Passing muster: Evaluating 
    teacher evaluation systems. A report for The Brookings Brown Center 
    Task Group on Teacher Quality. Published April 26, 2011 at http://
    www.brookings.edu/research/reports/2011/04/26-evaluating-teachers.
Dee, T. & Keys, B. (2004). Does merit pay reward good teachers? 
    Evidence from a randomized experiment. Journal of Policy Analysis 
    and Management, 23(3): 471-88.
Goldhaber, D. (2007). Everyone's doing it, but what does teacher 
    testing tell us about teacher effectiveness? Journal of Human 
    Resources, 42(4): 765-94
Goldhaber, Dan. (2014). Exploring the potential of value added 
    performance measures to affect the quality of the teacher 
    workforce. Educational Researcher, in press.
Weisburg, D., Sexton, S., Mulhern, J., & Keeling, D. (2009). The widget 
    effect: Our national failure to acknowledge and act on differences 
    in teacher effectiveness. A report for The New Teacher Project. 
    Retrieved from http://tntp.org/publications/view/the-widget-effect-
    failure-to-act-on-differences-in-teacher-effectiveness.
Yoon, K. S., Duncan, T., Lee, S. W.-Y., Scarloss, B., & Shapley, K. 
    (2007). Reviewing the evidence on how teacher professional 
    development affects student achievement (Issues & Answers Report, 
    REL 2007--No. 033). Washington, DC: U.S. Department of Education, 
    Institute of Education Sciences, National Center for Education 
    Evaluation and Regional Assistance, Regional Educational Laboratory 
    Southwest. Retrieved from http://ies.ed.gov/ncee/edlabs.
      Response by Terry Holliday to Questions of Senator Collins 
                         and Senator Murkowski
                            senator collins
    Question 1. In 2005, former-Senator Olympia Snow and I commissioned 
the Maine NCLB Task Force to examine the issues Maine faced with 
implementing the new law.
    Maine's small rural schools, the ``Highly Qualified Teacher'' 
standard (HQT) was particularly burdensome and, in many cases, 
unworkable. In rural schools, the reality is that teachers must teach 
multiple subjects and are often re-assigned to different content areas 
because of low enrollments. Yet HQT requires teachers to have majored 
in or passed rigorous State tests in the subjects that they are 
teaching. When this year's fourth grade math teacher must become next 
year's fifth grade science teacher, meeting the added burden of 
becoming ``highly qualified'' in several academic areas makes staffing 
even more difficult.
    The Maine Task Force recommended that States be granted flexibility 
to create different standards for rural school districts. Do you 
believe that States should have the authority to set alternative 
standards in small rural schools that incorporate factors such as 
school size and the courses available?
    Answer 1. As a State chief, I can assure you that the HQT standard 
was burdensome and did not lead to higher quality teachers in every 
classroom in our Nation. The teacher equity gaps between schools with 
higher socioeconomic levels and schools with lower socioeconomic levels 
have actually widened since NCLB. In Senator Alexander's discussion 
draft, State chiefs are encouraged to see the HQT requirement removed. 
Teacher licensure, evaluation, and equitable distribution are best left 
to States due to the many different contexts in States such as the 
rural context you mention in your question.

    Question 2. No Child Left Behind defines ``core academic subjects'' 
to include 10 subject areas, including civics and government, 
economics, history, and geography.
    The Maine NCLB Task Force observed that many schools integrated 
these four subjects into one ``social studies'' course. Yet the 
``Highly Qualified Teacher'' standard (HQT) would have had a social 
studies teacher meet the HQT requirements of all four subject areas. 
Notably, NCLB does not break down ``science'' into its many 
subdivisions, like biology or chemistry.
    School districts want to attract the best and the brightest to the 
teaching profession. My concern, however, is that the HQT standard may 
have had two unintended and related consequences.
    First, it places a burden on teachers who have multiple class 
assignments. And second, it may result in narrowing school curricula, 
resulting in fewer classes being offered. The Maine Task Force found 
that these burdens were particularly detrimental to small rural 
districts, where teacher recruitment and retention is especially 
difficult.
    What effects have the HQT standards had on teacher recruitment and 
retention, as well as school curricula? Are there ways to encourage 
teachers to gain additional subject-matter knowledge without imposing 
an HQT requirement in each subject that a teacher teaches?
    Answer 2. As a State chief, I agree that HQT standards have not 
helped States properly identify and support high-quality instruction. 
State chiefs believe that State certification and licensure standards 
and procedures should govern. In fact, the Council of Chief State 
School Officers (CCSSO) developed a series of recommendations for 
States to transform teacher preparation and licensure, and several 
States, including Kentucky, are working in this direction today.

    Question 3. In 2013, like 42 other States, Maine received a No 
Child Left Behind flexibility waiver from the U.S. Department of 
Education, which exempts it from some of the requirements of the 
Federal law. However, the U.S. Department of Education has determined 
that Maine has not yet adopted adequate guidelines for teacher and 
principal evaluation systems. The Department notes that the State must 
clarify the role of statewide tests in its teacher evaluations.
    If the State adopts a different evaluation system that does not 
place what the U.S. Department of Education believes is enough emphasis 
on student test scores in its teacher performance measurement, then the 
waiver could be revoked and many of Maine's schools may be deemed 
``failing.'' In fact, Washington State faced this very scenario 1 year 
ago, and has since lost its waiver.
    If a State determines that student test scores should be one of 
many factors in teacher evaluations, should the Federal Government be 
overruling their judgment?
    Answer 3. Most State chiefs believe that States should control 
teacher evaluation systems and processes. State chiefs support the 
ability to use ESEA funds for the development and implementation of 
State evaluation systems. The Federal Government should not be able to 
overrule the judgment of a State with regard to teacher evaluation 
systems. States have spent enormous energy and resources to develop 
teacher evaluation systems that have the support of stakeholders in the 
State. The Federal Government should not undermine this important work.
                           senator murkowski
    Question 1. The Discussion Draft bill that we are working on here 
in the committee would give much more autonomy to States to make 
decisions about education policies. Do you think that the Federal 
Government should maintain some basic requirements for States to 
implement in designing how they ensure the maximum number of effective 
teachers and leaders, or should Congress give States complete 
authority? Why?
    Answer 1. State chiefs believe States should have the 
responsibility and flexibility to design and improve teacher and 
principal effectiveness systems. This work requires significant 
resources and stakeholder involvement. Teacher and principal evaluation 
systems should support continuous instructional improvement, recognize 
outstanding performance and include:

    <bullet> Multiple measures of teacher and leader performance;
    <bullet> Meaningful differentiation of performance; and
    <bullet> Actionable information to inform professional development 
and support.

    A reauthorized ESEA should allow input from but not require the 
approval of the U.S. Department of Education of any State's evaluation 
system. It is important to allow use of ESEA funds for the development 
and implementation of those systems.

    Question 2. You stated in your written testimony that Congress 
should allow States to dictate their own timelines for ensuring that 
all schools are staffed by excellent educators and leaders. I agree 
that one-size-fits-all dictates from Washington, DC are problematic at 
best. How many years, in your estimation, would it take all States to 
meet this expectation?
    Answer 2. In Kentucky, we are estimating a 5-year timeline to see 
significant improvement in the equitable distribution of educators and 
leaders. However, every State has a different context. States with 
large urban settings have different challenges than States with a large 
percentage of small and rural school districts. The challenges of 
context underline the reason why there cannot be a one-size-fits-all 
dictate from Washington. State chiefs have taken the lead on this issue 
and are working on State plans to address equitable distribution of 
educators and leaders. An appropriate role for ESEA authorization would 
be the requirement that States develop equitable distribution plans and 
utilize Federal funds to implement the plans. However, the U.S. 
Department of Education should not have the authority to approve plans. 
An appropriate role for the department would be to provide examples of 
best practice and publicly report progress.
       Response of Saul Hinojosa to Questions of Senator Collins 
                         and Senator Murkowski
                            senator collins
    Question 1. In 2005, former-Senator Olympia Snowe and I 
commissioned the Maine NCLB Task Force to examine the issues Maine 
faced with implementing the new law.
    Maine's small rural schools, the ``Highly Qualified Teacher'' 
standard (HQT) was particularly burdensome and, in many cases, 
unworkable. In rural schools, the reality is that teachers must teach 
multiple subjects and are often re-assigned to different content areas 
because of low enrollments. Yet HQT requires teachers to have majored 
in or passed rigorous State tests in the subjects that they are 
teaching. When this year's fourth grade math teacher must become next 
year's fifth grade science teacher, meeting the added burden of 
becoming ``highly qualified'' in several academic areas makes staffing 
even more difficult.
    The Maine Task Force recommended that States be granted flexibility 
to create different standards for rural school districts. Do you 
believe that States should have the authority to set alternative 
standards in small rural schools that incorporate factors such as 
school size and the courses available?
    Answer 1. A large part of the reason we have moved in my district 
to a new evaluation system for teachers is that we found measures such 
as Highly Qualified Teacher did not tell us whether a teacher would be 
effective in the classroom. The system we are now using takes student 
outcomes and results into account, measuring whether a teacher is 
effective in the classroom. It also provides the kind of detailed 
feedback that is necessary for a teacher to improve their practice. 
Without accurate and detailed feedback, it is difficult for teachers to 
identify and address issues in their practice. In my view this is a far 
better way for us to evaluate and support teachers.
    I have also found that the HQT requirement has proven to be an 
obstacle when I wanted to hire teachers who did not meet the 
requirements of that standard. For example, Somerset ISD recently found 
an outstanding teacher who moved in from the State of Wyoming who had 6 
years of experience. Subsequently, the State of Texas issued her a 1-
year temporary certificate until she completed her requirements for 
certification. HQT though would not certify her to be ``Highly 
Qualified'' until she passed the Texas exam. This example illuminates 
the disconnect between the National and State standards for hiring 
teachers which can cause barriers to hiring exemplary personnel. As you 
heard in my testimony, we have used a TIF grant to create district 
structures to better identify, support and reward effective teaching. I 
view a strong commitment to creating structures and systems to ensure 
that students are being taught by effective teachers, in part measured 
by student learning growth, to be an effective way to provide all 
students with effective classroom teachers.

    Question 2. No Child Left Behind defines ``core academic subjects'' 
to include 10 subject areas, including civics and government, 
economics, history, and geography.
    The Maine NCLB Task Force observed that many schools integrated 
these four subjects into one ``social studies'' course. Yet the 
``Highly Qualified Teacher'' standard (HQT) would have had a social 
studies teacher meet the HQT requirements of all four subject areas. 
Notably, NCLB does not break down ``science'' into its many 
subdivisions, like biology or chemistry.
    School districts want to attract the best and the brightest to the 
teaching profession. My concern, however, is that the HQT standard may 
have had two unintended and related consequences:
    First, it places a burden on teachers who have multiple class 
assignments. And second, it may result in narrowing school curricula, 
resulting in fewer classes being offered. The Maine Task Force found 
that these burdens were particularly detrimental to small rural 
districts, where teacher recruitment and retention is especially 
difficult.
    What effects have the HQT standards had on teacher recruitment and 
retention, as well as school curricula? Are there ways to encourage 
teachers to gain additional subject-matter knowledge without imposing 
an HQT requirement in each subject that a teacher teaches?
    Answer 2. I would make the case that using multiple measures of 
teacher effectiveness, including observations of their classroom 
instruction multiple times during the year by multiple observers, and 
some measure of student learning growth, among other possible measures, 
provides a much greater assurance that students are being taught by an 
effective teacher than HQT requirements. When we set specific criteria 
to identify HQT teachers it limits the pool of personnel districts, 
especially in rural areas, can attract. Flexibility of providing 
structures of research-based staff development to aspiring teachers, 
would allow districts to develop newly hired teachers into effective 
teachers at an accelerated rate.

    Question 3. In 2013, like 42 other States, Maine received a No 
Child Left Behind flexibility waiver from the U.S. Department of 
Education, which exempts it from some of the requirements of the 
Federal law. However, the U.S. Department of Education has determined 
that Maine has not yet adopted adequate guidelines for teacher and 
principal evaluation systems. The Department notes that the State must 
clarify the role of statewide tests in its teacher evaluations.
    If the State adopts a different evaluation system that does not 
place what the U.S. Department of Education believes is enough emphasis 
on student test scores in its teacher performance measurement, then the 
waiver could be revoked and many of Maine's schools may be deemed 
``failing.'' In fact, Washington State faced this very scenario 1 year 
ago, and has since lost its waiver.
    If a State determines that student test scores should be one of 
many factors in teacher evaluations, should the Federal Government be 
overruling their judgment?
    Answer 3. In my own experience, teacher evaluation should include 
multiple measures of effectiveness. In my district, we include a 
measure of student learning growth as one of the factors. The reason 
this has been important for us is that it enables us to help teachers 
to make the connection between their instructional practice and what 
students are learning. For example, a teacher might feel that she is 
teaching a particular topic very well, but if students are not grasping 
the concepts, adjustments need to be made. By looking at student 
learning growth in her classroom, and reflecting on her own practice 
and the feedback she has received over several observations of her 
classroom, she has more information to guide her as she makes necessary 
adjustments.
                           senator murkowski
    Question 1. The Discussion Draft bill that we are working on here 
in the committee would give much more autonomy to States to make 
decisions about education policies. Do you think that the Federal 
Government should maintain some basic requirements for States to 
implement in designing how they ensure the maximum number of effective 
teachers and leaders, or should Congress give States complete 
authority? Why?
    Answer 1. As I described in my testimony, there were several 
failing schools in my district before we won a TIF grant. All of the 
adults in the school system were committed to improving student 
academic performance, but we needed help in making some major changes 
in the way we recruit, develop, support, promote and compensate 
teachers. Knowing we were not hitting targets set by NCLB was an 
important first step, but we needed support in figuring out how best to 
meet new higher standards. The old system just wasn't producing the 
results we all wanted. I think the Federal Government has an important 
role to play in providing support to districts and States to make 
innovative changes in the ways we manage our most critical resource, 
our effective teachers and leaders. I think it is incumbent on those of 
us who have received this support through grants like TIF to share our 
experiences and lessons learned with others so they may benefit.

    Question 2. I appreciate the work that you and your colleagues have 
done to create professional learning communities and continuous 
improvement in your schools. You noted that you were able to design and 
implement this model, which has been very effective in raising student 
achievement, because of the Federal TIF grant. Given that other States 
have used TIF grants to create teacher and leader recognition programs 
that are no longer being used, would you recommend that we require any 
TIF grantee district to use the model that has worked so well for 
Somerset School District or some variation that has essentially the 
same components or process?
    Answer 2. The regulations for TIF have changed over time to reflect 
the lessons learned in various projects, as you suggest in your 
question. For example, the most recent cohort of grantees were required 
to describe the ways that their approach would connect evaluation to 
professional development and support. This was not a requirement in the 
first cohort. I think the regulations strike a balance between 
requiring grantees to include certain elements or to align certain 
elements of their systems of teacher and leader effectiveness, while 
leaving open the way in which they will do it.
    While we have had tremendous success working with the TAP System 
using our TIF grant, I think the right approach is to outline key 
features that have proven broadly successful and allow grant applicants 
to design these features as they see fit.
    As you note, in TIF there are some grantees who did not continue 
with their initiative after the grant ended. I expect that to be the 
case with a program that is designed to support innovation. I would 
also note however that there are a number of reports that highlight the 
successes that districts and States are having using TIF, including how 
their work has influenced the development of statewide teacher 
evaluation systems, new opportunities for teacher leadership roles, and 
the creation of more effective ways of providing school-based 
professional development.
    When districts acquire grants it allows for opportunities to 
experiment with research-based contemporary methodologies to improve 
student achievement knowing that eventually the grant will end. 
Somerset ISD, due to the successes in incremental implementation of the 
TAP System, developed a long-range plan to sustain the system after the 
grant ended. As a result, we now have the ability to be a TAP district 
without the fiduciary support of the TIF grant.
      Response by Rachelle Moore to Questions of Senator Collins 
                         and Senator Murkowski
                            senator collins
    Question 1. In 2005, former-Senator Olympia Snowe and I 
commissioned the Maine NCLB Task Force to examine the issues Maine 
faced with implementing the new law.
    Maine's small rural schools, the ``Highly Qualified Teacher'' 
standard (HQT) was particularly burdensome and, in many cases, 
unworkable. In rural schools, the reality is that teachers must teach 
multiple subjects and are often re-assigned to different content areas 
because of low enrollments. Yet HQT requires teachers to have majored 
in or passed rigorous State tests in the subjects that they are 
teaching. When this year's fourth grade math teacher must become next 
year's fifth grade science teacher, meeting the added burden of 
becoming ``highly qualified'' in several academic areas makes staffing 
even more difficult.
    The Maine Task Force recommended that States be granted flexibility 
to create different standards for rural school districts. Do you 
believe that States should have the authority to set alternative 
standards in small rural schools that incorporate factors such as 
school size and the courses available?
    Answer 1. Based on my own experiences, in a small K-8 urban school, 
I understand the difficulties low enrollment can have on staff 
assignments and the resulting implications for the school. There are a 
number of difficulties related to hiring HQ teachers, particularly with 
Special Education. I would argue that States be granted flexibility not 
just for rural schools, but also for urban schools like mine.
    After reaching out to colleagues and WEA members, I was reminded of 
the HOUSEE method that allowed teachers to teach outside of their 
endorsed areas (provided the school explained the status of the teacher 
in a letter to parents) and to become highly qualified after so many 
years of teaching the course and receiving good evaluations.
    Again, as noted in my testimony, the best way to ensure we prepare 
and retain high-quality educators is to invest in the continuum that 
includes teacher induction, professional growth, and teacher 
leadership. The Seattle Teacher Residency program and National Board 
Certification have provided invaluable learning experiences for me as a 
teacher, helping me grow in my practice as I strive to make the 
invisible visible to novice teachers. I have opened the doors of my 
classroom to colleagues and engaged in authentic discussions of 
teaching and learning. I have become an instructional leader in my 
school and district, and helped improved student learning beyond my own 
classroom. This work has proven more important than my title as a 
``highly qualified teacher.''

    Question 2. No Child Left Behind defines ``core academic subjects'' 
to includes 10 subject areas, including civics and government, 
economics, history, and geography.
    The Maine NCLB Task Force observed that many schools integrated 
these four subjects into one ``social studies'' course. Yet the 
``Highly Qualified Teacher'' standard (HQT) would have had a social 
studies teacher meet the HQT requirements of all four subject areas. 
Notably, NCLB does not break down ``science'' into its many 
subdivisions, like biology or chemistry.
    School districts want to attract the best and the brightest to the 
teaching profession. My concern, however, is that the HQT standard may 
have had two unintended and related consequences:
    First, it places a burden on teachers who have multiple class 
assignments. And second, it may result in narrowing school curricula, 
resulting in fewer classes being offered. The Maine Task Force found 
that these burdens were particularly detrimental to small rural 
districts, where teacher recruitment and retention is especially 
difficult.
    What effects have the HQT standards had on teacher recruitment and 
retention, as well as school curricula? Are there ways to encourage 
teachers to gain additional subject-matter knowledge without imposing 
an HQT requirement in each subject that a teacher teaches?
    Answer 2. Again, these burdens are the same regardless of school 
setting. A middle school teacher in my school explained to me the 
difficulty he had in finding a job as a language arts teacher because 
he wasn't also HQ in social studies and the two courses are often 
combined. Despite him receiving a Masters degree and completing a year-
long internship in a low-income school with underserved populations, 
the HQT standards limited his opportunities in terms of finding a job. 
If Congress wants to keep the HQT standards, they should keep the basic 
endorsement requirement and perhaps return to using the experience and 
successful evaluation system.
    There is a large range of costs for endorsements depending on the 
endorsement being added, the institution one is receiving it from, and 
their previous undergraduate coursework. In order to ease the financial 
hardship, I would consider offering incentives for dual certification 
for teachers to gain additional subject-matter knowledge. In Washington 
State, the Retooling Scholarship helps teachers add endorsements in 
high-need areas. Some districts also offer stipends or days off for 
teachers adding endorsements at the request of the district. My school 
district supported me in my pursuit of National Board certification, 
which was a critical part of my development as a teacher. Expanding 
these types of opportunities for more teachers should be a part of a 
reauthorized ESEA.
    While I am not aware of the effects the HQT standards have had on 
teacher recruitment and retention in a rural setting, I can speak to my 
experience with the Seattle Teacher Residency program which offers dual 
certification in either SPED or ELL, on top of the K-8 and Masters 
degree the residents receive. Residents who I've worked with 
acknowledged that this aspect of the program made it more appealing 
than other programs. As the reauthorization process continues, I 
recommend you engage with the teachers who have to face these questions 
every day. They may be able to suggest solutions that acknowledge the 
realities of rural settings while continuing to invest in teacher 
development and support.

    Question 3. In 2013, like 42 other States, Maine received a No 
Child Left Behind flexibility waiver from the U.S. Department of 
Education, which exempts it from some of the requirements of the 
Federal law. However, the U.S. Department of Education has determined 
that Maine has not yet adopted adequate guidelines for teacher and 
principal evaluation systems. The Department notes that the State must 
clarify the role of statewide tests in its teacher evaluations.
    If the State adopts a different evaluation system that does not 
place what the U.S. Department of Education believes is enough emphasis 
on student test scores in its teacher performance measurement, then the 
waiver could be revoked and many of Maine's schools may be deemed 
``failing.'' In fact, Washington State faced this very scenario 1 year 
ago, and has since lost its waiver.
    If a State determines that student test scores should be one of 
many factors in teacher evaluations, should the Federal Government be 
overruling their judgment?
    Answer 3. No, the Federal Government should not dictate what any 
individual State includes in its evaluation system. Research shows that 
standardized test scores do not measure a teacher's effectiveness. If 
we focus strictly on testing, we will only see some gains, particularly 
when we've intentionally prepared kids for these tests, but it won't 
provide us with the whole story.
    I personally believe in the ground-up philosophy that evaluations 
should be more personalized and that they should be a part of a larger 
professional learning and growth system. If you leave this decision to 
the States, you provide more flexibility and the potential for 
innovation. For example, California uses eight criteria (http://
downloads.capta.org/edu/e-school-finance/LCAP.pdf) in regards to 
funding which include: student achievement, student engagement, school 
climate, parental involvement, basic services, implementation of Common 
Core State Standards (CCSS), course access and other student outcomes. 
In Washington State, every teacher has to develop growth goals for 
students--we come up with our own metrics; we look at data & measure 
student growth based on what we see. The student learning uses 
indicators beyond testing. As a first grade teacher for example, test 
scores are not part of my evaluations; yet I feel like I have received 
constructive feedback, particularly through serving as a mentor in the 
Seattle Teacher Residency and through Board certification. It is 
important that ESEA reauthorization continue to look at the greater 
continuum of teaching and the whole picture, not just what is easiest 
to measure.
    More information on Seattle's Teacher Evaluation system (from 
Seattle Education Association): After a contentious bargaining process 
between the district and the Seattle Education Association, the 2010 
collective bargaining agreement codified a system for teacher 
evaluation that recognized the importance of student growth without 
evaluating teachers directly on student test scores.
    While the evidence then wasn't as conclusive as it is now, it was 
already then becoming evident that student test scores were an 
unreliable indicator of teacher effectiveness. Seattle settled on a 
system that used student test scores as a ``marker'' or a ``red flag''. 
If a teacher's students' test score were low, it was required that the 
evaluator and the teacher sit down, look at the scores, and have a 
conversation about how to understand the scores and try to determine 
what things the teacher might do to improve outcomes. This conversation 
is not a ``high-stakes'' event. The evaluator cannot go back and change 
the teacher's evaluation rating based on the test scores or on the 
conversation. It is intended as a catalyst to have the teacher look 
forward, to improve teaching practice. This is the essence of a 
``professional growth'' model of teacher evaluation.
    Two years later, when Washington's State legislature took up the 
issue of teacher evaluation, the State hewed closely to Seattle's model 
of a professional growth-based system. In Seattle the system was 
already demonstrating its advantages by laying the groundwork for 
collaboration with colleagues, for willingness to try new practices, 
and for joint reflection on the craft of teaching. The State 
legislature followed Seattle's lead on how to treat student growth. It 
created a student growth requirement for all teachers, not just 
teachers of tested grades and subjects. If teachers feel that the State 
test is the appropriate instrument for measuring student growth, then 
they can use it as their measure of student growth. If they do not see 
it as an appropriate instrument, then they and their evaluator can 
develop a different measure of student growth. Every teacher, however, 
has to have a goal and a measure for student growth. This is changing 
the culture of teachers in Washington State in a positive, non-punitive 
way. Teachers now reflect more on their practice in conscious ways that 
foster student growth.
    States should be allowed to develop teacher evaluation systems that 
grow teachers' capacity over time and help them to become better 
practitioners. Great teachers are not born; they are made. It is also 
well-established that student test scores are a poor indicator of 
effective teachers. We have to develop teachers into the kinds of 
professionals that we want them to be. High-stakes evaluation, based on 
student testing, does not do this; we have to create the space where 
educators can feel safe to take the risks they need to take in trying 
new things as they journey on the road to a better teaching practice.
                           senator murkowski
    Question 1. The Discussion Draft bill that we are working on here 
in the committee would give much more autonomy to States to make 
decisions about education policies. Do you think that the Federal 
Government should maintain some basic requirements for States to 
implement in designing how they ensure the maximum number of effective 
teachers and leaders, or should Congress give States complete 
authority? Why?
    Answer 1. I believe that States, school districts, and the 
educators working directly with students know best what their students 
need, thus I'd lean with more State control. The Federal Government 
should focus on providing resources to support and retain high quality 
teachers, such as investing in residency models and mentoring programs, 
and providing professional learning opportunities so that educators can 
better support their students. We need to ensure that teachers are 
getting trained properly and we should also make an effort to recruit 
more males and teachers of color. Congress might also want to direct 
title I money to help specific student types, such as those living in 
poverty or struggling with academics, etc., while not directing State 
level policy.
    Without losing the emphasis on teacher quality, a reauthorized ESEA 
should bring resources to bear on the challenges that poor children 
face. Housing security, food security, health care, vision and dental 
care, mental health services, anti-gang support, social services for 
immigrant families, employment for parents/guardians, sexual and 
physical abuse interventions, after-school programs/child care, early 
childhood education, all need huge investment to help poor children be 
ready to learn. Children are not ready to learn when their families are 
struggling. Some of these are areas for investment that are not in 
education per se, but will have huge returns in educational outcomes. A 
reauthorized ESEA should leverage Federal education moneys to prompt 
communities to make bigger investments in these areas.
    Within education there are parallel areas where attention will also 
improve outcomes. My school system has inadequate numbers of 
counselors, nurses, health clinics, psychologists, speech language 
pathologists, physical therapists, occupational therapists, family 
support workers, specialists, and librarians. These people do the same 
kind of work inside schools for students as the work mentioned above 
that needs to be done in the neighborhoods for families. This work is 
not optional; it is essential. These people are not luxuries in our 
system of education; they are necessary for bringing our Nation's 
educational attainment for all of its citizens up to a level where we 
all can be proud.

    Question 2. Ms. Moore, thank you for your work as a teacher, and as 
a teacher mentor and leader. You asked us to provide resources, through 
ESEA, to help schools across the country develop teacher induction and 
mentoring programs. We can get a handle on this request, what does it 
cost the Seattle School District, from all sources of funding, to 
implement the program you've described? What are the current sources of 
funding?
    Answer 2. The Seattle Teacher Residency has a total budget for 
2014-15 of $1.4M that supports rigorous, targeted recruitment and 
selection, intense clinical preparation, mentor selection and support, 
and coursework planning and delivery for 31 residents. The program 
budget will increase incrementally over time with the increase in 
cohort size, rising to $2.3M by 2017-18 to train 60 residents for 
Seattle Public Schools.
    The bulk of the program expenses are directed to mentor and 
resident stipends to support them in their work throughout the yearlong 
program. The resident stipend is $16.5K plus benefits; the mentor 
stipend is $3.5K.
    The other major cost centers are:

    <bullet> Recruitment, $40K;
    <bullet> Coursework and instructional costs at the University of 
Washington, which are covered by resident tuition of $25K;
    <bullet> Mentor professional development, $50k; and
    <bullet> Graduate induction, $20k.

    SSP currently contributes 17 percent of the program costs in 2014-
15, with a rising investment over the next 4 years to 33-51 percent. 
The initial launch expenses were supported primarily by private 
philanthropy. Private philanthropy and other supporters, including 
Federal program funds, will contribute toward the long-term support of 
the program.
    Please contact the Program Director, Marisa Bier 
(<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="305d514259435170515c5c59515e53550455541e5f4257">[email&#160;protected]</a>, 206-205-0338), with any additional budget 
questions. In addition, Urban Teacher Residency United (UTRU) is a 
great resource for accessing information about the cost of the model 
generally, and examples of how other residencies pay for the program.
  Response by Christine Handy-Collins to Questions of Senator Collins 
                         and Senator Murkowski
                            senator collins
    Question 1. In 2005, former-Senator Olympia Snowe and I 
commissioned the Maine NCLB Task Force to examine the issues Maine 
faced with implementing the new law.
    Maine's small rural schools, the ``Highly Qualified Teacher'' 
standard (HQT) was particularly burdensome and, in many cases, 
unworkable. In rural schools, the reality is that teachers must teach 
multiple subjects and are often re-assigned to different content areas 
because of low enrollments. Yet HQT requires teachers to have majored 
in or passed rigorous State tests in the subjects that they are 
teaching. When this year's fourth grade math teacher must become next 
year's fifth grade science teacher, meeting the added burden of 
becoming ``highly qualified'' in several academic areas makes staffing 
even more difficult.
    The Maine Task Force recommended that States be granted flexibility 
to create different standards for rural school districts. Do you 
believe that States should have the authority to set alternative 
standards in small rural schools that incorporate factors such as 
school size and the courses available?
    Answer 1. Proposals introduced in the 114th Congress and the ESEA 
flexibility waivers offered to States by the U.S. Department of 
Education remove the requirement that teachers be ``highly qualified'' 
and focus on a definition of ``effectiveness'' related to robust 
teacher evaluation systems. I serve on the board of directors for the 
National Association of Secondary School Principals (NASSP), and our 
organizations is a leading member of the Coalition for Teaching Quality 
(CTQ) whose mission is to promote equal access to well-prepared and 
effective educators for each and every child. In October 2014, CTQ 
released a policy roadmap (attached) for transforming the teacher and 
principal professions. We feel that Federal policy should support the 
development of a coherent, performance-based professional continuum for 
teachers and principals that begins in preparation and leads to 
accomplished practice and the opportunity to serve in leadership roles. 
The framework offers specific recommendations to: (1) strengthen the 
recruitment pipeline; (2) ensure that the next generation of educators 
are profession-ready; (3) create opportunities for continuous 
professional learning and growth; and (4) provide pathways for teacher 
and principal leadership. The Rural Schools and Community Trust is an 
active member of CTQ and strongly feels this framework will help to 
ensure that students in rural have the same access to excellent 
teachers and principals as students in suburban or urban areas.

    Question 2. No Child Left Behind defines ``core academic subjects'' 
to include 10 subject areas, including civics and government, 
economics, history, and geography.
    The Maine NCLB Task Force observed that many schools integrated 
these four subjects into one ``social studies'' course. Yet the 
``Highly Qualified Teacher'' standard (HQT) would have had a social 
studies teacher meet the HQT requirements of all four subject areas. 
Notably, NCLB does not break down ``science'' into its many 
subdivisions, like biology or chemistry.
    School districts want to attract the best and the brightest to the 
teaching profession. My concern, however, is that the HQT standard may 
have had two unintended and related consequences.
    First, it places a burden on teachers who have multiple class 
assignments. And second, it may result in narrowing school curricula, 
resulting in fewer classes being offered. The Maine Task Force found 
that these burdens were particularly detrimental to small rural 
districts, where teacher recruitment and retention is especially 
difficult.
    What effects have the HQT standards had on teacher recruitment and 
retention, as well as school curricula? Are there ways to encourage 
teachers to gain additional subject-matter knowledge without imposing 
an HQT requirement in each subject that a teacher teaches?
    Answer 2. As I mentioned in my previous response, proposals 
introduced in the 114th Congress and the ESEA flexibility waivers 
offered to States by the U.S. Department of Education remove the 
requirement that teachers be ``highly qualified'' and focus on a 
definition of ``effectiveness'' related to robust teacher evaluation 
systems.

    Question 3. In 2013, like 42 other States, Maine received a No 
Child Left Behind flexibility waiver from the U.S. Department of 
Education, which exempts it from some of the requirements of the 
Federal law. However, the U.S. Department of Education has determined 
that Maine has not yet adopted adequate guidelines for teacher and 
principal evaluation systems. The Department notes that the State must 
clarify the role of statewide tests in its teacher evaluations.
    If the State adopts a different evaluation system that does not 
place what the U.S. Department of Education believes is enough emphasis 
on student test scores in its teacher performance measurement, then the 
waiver could be revoked and many of Maine's schools may be deemed 
``failing.'' In fact, Washington State faced this very scenario 1 year 
ago, and has since lost its waiver.
    If a State determines that student test scores should be one of 
many factors in teacher evaluations, should the Federal Government be 
overruling their judgment?
    Answer 3. The NASSP board of directors approved a position 
statement on Teacher Supervision and Evaluation in 2011. We recommend 
that States and districts should include multiple measures of 
performance, including but not limited to, input measures such as 
evidence of a teacher's knowledge of subject matter; skill in planning, 
delivering, monitoring, and assessing students' learning; skill in 
developing and maintaining positive relationships with students, 
parents, and colleagues; knowledge and skills in pedagogical methods to 
meet the needs of students with an array of learning styles and needs; 
and commitment to students' learning to their utmost potential. 
Examples of outcome data that are also appropriate and necessary to 
assess teacher effectiveness are students' individual growth and 
progress as measured on valid and reliable standardized instruments, 
teacher made tests that are aligned with the curriculum, student 
performance demonstrations in a variety of media, and portfolios of 
student work. NASSP does not believe that teacher evaluations should be 
based solely on student test scores, and we are concerned that many 
States are include a very high percentage for student data. However, 
our understanding of the situation in Washington is that State law 
allows districts to determine what assessment may be included in the 
teacher evaluation, and the U.S. Department of Education requires that 
the State assessment mandated under NCLB be used in the teacher 
evaluation systems.
                           senator murkowski
    Question 1. The Discussion Draft bill that we are working on here 
in the committee would give much more autonomy to States to make 
decisions about education policies. Do you think that the Federal 
Government should maintain some basic requirements for States to 
implement in designing how they ensure the maximum number of effective 
teachers and leaders, or should Congress give States complete 
authority? Why?
    Answer 1. Principals believe the appropriate Federal role in 
education is to promote equity and access and provide targeted 
resources to assist States and local districts that, in turn, must 
support educators to meet the learning needs of students, especially 
those that are considered ``high-need.'' As I mentioned in my response 
to Senator Collins, NASSP is a member of the Coalition for Teaching 
Quality (CTQ) that released in October 2014 a policy roadmap for 
transforming the teaching and principal profession. We feel that 
Federal policy should support the development of a coherent, 
performance-based professional continuum for teachers and principals 
that begins in preparation and leads to accomplished practice and the 
opportunity to serve in leadership roles. The framework offers specific 
recommendations to: (1) strengthen the recruitment pipeline; (2) ensure 
that the next generation of educators are profession-ready; (3) create 
opportunities for continuous professional learning and growth; and (4) 
provide pathways for teacher and principal leadership. While the 
framework does include examples of States and districts that are 
already leading this effort to transform the teacher and principal 
professions, I communicate regularly with principals across the Nation 
that do not see the same emphasis on preparation, induction, 
evaluation, and professional development, so I do believe it is 
inherent for the Federal Government to provide States guidance in this 
area.

    Question 2. You have encouraged Congress to direct States to 
require entrance exams for principal preparation programs. Can you 
share with us what types of skills, and what knowledge, you would 
expect each candidate to have in order to be accepted for training as a 
principal?
    Answer 2. In addition to the policy roadmap I referenced in my 
previous response, CTQ released a document in October 2014 titled 
Profession-Ready Teachers and Principals for Each and Every Child.* To 
ensure that principals are profession-ready when they enter the school 
building, we feel that they should: (1) have an advanced degree and a 
demonstrated record of success as a teacher; (2) demonstrate leadership 
competencies through an assessment prior to entry into a high-quality 
principal preparation program; (3) complete a 1-year residency program 
that includes hands-on instructional leadership experiences and 
guidance from a mentor or coach in preK-12 schools; and (4) demonstrate 
a deep understanding of the domains of effective school leadership and 
related competencies through a performance-based assessment. NASSP 
offers an assessment and development framework around four themes: 
educational leadership, resolving complex problems; communication 
skills; and developing self and others. Within these four themes are 10 
primary skill areas to assess and develop.
---------------------------------------------------------------------------
    * The document referred to may be found at http://
coalitionforteachingquality.org/images/upload/Profssion.Dov.pdf.

    <bullet> Setting instructional direction: implementing strategies 
for improving teaching and learning, including putting programs and 
improvement efforts into action;
    <bullet> Teamwork: seeking and encouraging involvement of team 
members;
    <bullet> Sensitivity: perceiving the needs and concerns of others;
    <bullet> Judgment: ability to make high quality decisions based on 
data;
    <bullet> Results orientation: assuming responsibility;
    <bullet> Organizational ability: planning and scheduling one's own 
and the work of others so that resources are used appropriately;
    <bullet> Oral communication: clearly communicating;
    <bullet> Written communication: ability to express ideas clearly 
and correctly in writing;
    <bullet> Developing others: teaching, coaching, and helping others; 
and
    <bullet> Understanding own strengths and weaknesses: identifying 
personal strengths and weaknesses.

    [Whereupon, at 11:53 a.m., the hearing was adjourned.]

                                 [all]
                                 
                                 
                                 
                                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
